<html>
<title> - H.R. 1980, H.R. 2070, H.R. 2621, AND H.R. 3155</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
            H.R. 1980, H.R. 2070, H.R. 2621, AND H.R. 3155

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, November 3, 2011

                               __________

                           Serial No. 112-81

                               __________

       Printed for the use of the Committee on Natural Resources






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
          Committee address: http://naturalresources.house.gov



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

71-119 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
             RAUL M. GRIJALVA, AZ, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     John P. Sarbanes, MD
Tom McClintock, CA                   Betty Sutton, OH
David Rivera, FL                     Niki Tsongas, MA
Scott R. Tipton, CO                  John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Bill Johnson, OH
Doc Hastings, WA, ex officio

                                 ------                                
      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, November 3, 2011.......................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement of....................................     4
    Markey, Hon. Edward J., a Representative in Congress from the 
      Commonwealth of Massachusetts, Prepared statement of.......   110

Statement of Witnesses:
    Abbey, Robert V., Director, Bureau of Land Management, U.S. 
      Department of the Interior, Oral statement on H.R. 1980 and 
      H.R. 2070..................................................    24
        Oral statement on H.R. 3155..............................    47
        Joint prepared statement with U.S. Department of 
          Agriculture on H.R. 3155...............................    49
    Bennet, Hon. Michael, a U.S. Senator from the State of 
      Colorado...................................................     8
        Prepared statement on H.R. 2621..........................     9
    Flake, Hon. Jeff, a Representative in Congress from the State 
      of Arizona, Oral statement on H.R. 3155....................    13
    Fowler, George ``Poppy'', WW II Veteran......................    32
        Prepared statement on H.R. 2070..........................    32
    Franks, Hon. Trent, a Representative in Congress from the 
      State of Arizona...........................................    10
        Prepared statement on H.R. 3155..........................    12
    Hatch, Hon. Orrin, a U.S. Senator from the State of Utah.....    33
        Prepared statement on H.R. 3155..........................    36
        Letter to The Honorable Ken Salazar, Secretary, U.S. 
          Department of the Interior, submitted for the record...    34
    Johnson, Hon. Bill, a Representative in Congress from the 
      State of Ohio..............................................    19
        Prepared statement on H.R. 2070..........................    23
        FDR Prayer submitted for the record......................    19
    Johnson, Buster, Supervisor, Mohave County, Arizona..........    51
        Prepared statement on H.R. 3155..........................    53
    Lightfoot, Ricky R., Trustee and Former President and CEO, 
      Crow Canyon Archaeological Center, Cortez, Colorado........    38
        Prepared statement on H.R. 2621..........................    39
    McCain, Hon. John, a U.S. Senator from the State of Arizona..     6
        Prepared statement on H.R. 3155..........................     7
    Myers, Richard J., Vice President, Policy Development, 
      Planning, and Supplier Programs, Nuclear Energy Institute..    93
        Prepared statement on H.R. 3155..........................    95
    Roberts, Harold R., Executive Vice President, Denison Mines 
      (USA) Corp.................................................    89
        Prepared statement on H.R. 3155..........................    91
    Runyan, Hon. Jon, a Representative in Congress from the State 
      of New Jersey..............................................    15
        Prepared statement on H.R. 1980..........................    16
    Tipton, Hon. Scott, a Representative in Congress from the 
      State of Utah..............................................    16
        Prepared statement on H.R. 2621..........................    18
?

    Trautwein, Mark, Former Staff Consultant on Environment, 
      Energy and Public Lands, Committee on Interior and Insular 
      Affairs, U.S. House of Representatives.....................    66
        Prepared statement on H.R. 3155..........................    68
    Verkamp, Stephen, President, Verkamp's Inc...................   100
        Prepared statement on H.R. 3155..........................   102
    Wagner, Mary, Associate Chief, U.S. Forest Service, United 
      States Department of Agriculture...........................    27
        Prepared statement on H.R. 2621..........................    28
        Joint prepared statement with U.S. Department of the 
          Interior on H.R. 3155..................................    49
    Wenrich, Karen, Ph.D., Research Geologist, U.S. Geological 
      Survey, Retired............................................    58
        Prepared statement on H.R. 3155..........................    60
    Young, Judith C., Chair, Gold Star Mothers National Monument 
      Foundation.................................................    29
        Prepared statement on H.R. 1980..........................    31

Additional materials supplied:
    The American Legion, Letter submitted for the record on H.R. 
      2070.......................................................    21
    FDR Prayer submitted for the record by The Honorable Bill 
      Johnson....................................................    19
    Lower Colorado River Water Quality Partnership, Letter to the 
      Bureau of Land Management submitted for the record.........    81
    National Park Service, U.S. Department of the Interior, 
      Statement submitted for the record on H.R. 1980............    25
    National Park Service, U.S. Department of the Interior, 
      Statement submitted for the record on H.R. 2070............    26
    Ohio Christian Alliance, Letter to The Honorable Doc Hastings 
      on H.R. 2070...............................................    22
    Western Business Roundtable, Letter to The Honorable Trent 
      Franks on H.R. 3155........................................   111
    The Wilderness Society, Statement submitted for the record on 
      H.R. 3155..................................................   112



                                  (IV)
                                     



 LEGISLATIVE HEARING ON H.R. 1980, TO AUTHORIZE THE GOLD STAR MOTHERS 
 NATIONAL MONUMENT FOUNDATION TO ESTABLISH A NATIONAL MONUMENT IN THE 
  DISTRICT OF COLUMBIA, ``GOLD STAR MOTHERS NATIONAL MONUMENT ACT OF 
 2011;'' H.R. 2070, TO DIRECT THE SECRETARY OF THE INTERIOR TO INSTALL 
IN THE AREA OF THE WORLD WAR II MEMORIAL IN THE DISTRICT OF COLUMBIA A 
    SUITABLE PLAQUE OR AN INSCRIPTION WITH THE WORDS THAT PRESIDENT 
   FRANKLIN D. ROOSEVELT PRAYED WITH THE NATION ON JUNE 6, 1944, THE 
 MORNING OF D-DAY, ``WORLD WAR II MEMORIAL PRAYER ACT OF 2011;'' H.R. 
 2621, TO ESTABLISH THE CHIMNEY ROCK NATIONAL MONUMENT IN THE STATE OF 
  COLORADO, AND FOR OTHER PURPOSES, ``CHIMNEY ROCK NATIONAL MONUMENT 
 ESTABLISHMENT ACT;'' AND H.R. 3155, TO PRESERVE THE MULTIPLE USE LAND 
  MANAGEMENT POLICY IN THE STATE OF ARIZONA, AND FOR OTHER PURPOSES, 
          ``NORTHERN ARIZONA MINING CONTINUITY ACT OF 2011.''

                              ----------                              


                       Thursday, November 3, 2011

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:05 a.m. in 
Room 1334, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Lamborn, Tipton, Johnson 
of Ohio, Grijalva, Kildee, and Garamendi.
    Also Present: Representative Gosar.
    Mr. Bishop. I appreciate all the guests who have joined us 
here. The Chair notes the presence of a quorum. The 
Subcommittee on National Parks, Forests, and Public Lands is 
meeting today to hear testimony on four bills that fall within 
our jurisdiction: H.R. 1980, the Gold Star Mothers National 
Monument; H.R. 2070, the World War II Memorial Prayer Act; H.R. 
2621, the Chimney Rock National Monument Establishment Act; and 
H.R. 3155, the Northern Arizona Mining Continuity Act.
    Under the rules, the opening statements are limited to the 
Chairman and Ranking Member. However, I ask unanimous consent 
to include any other Member's opening statement in the hearing 
record if submitted to the clerk by the close of business 
today. Hearing no objection, so ordered.
    We are pleased to have the sponsors of all the bills here 
with us today. The first three that we will hear testimony on 
are the Gold Star Mothers Act, the World War II Memorial Act, 
and the Chimney Rock National Monument Act. To those sponsors 
and those who are testifying on them, I am glad you do these 
bills. It is about time. We are happy to start the process on 
all of those.
    We also have witnesses here for the Northern Arizona Mining 
Continuity Act. We are pleased to have you here. I understand 
we are happy to welcome Senator McCain and Senator Bennet, and 
I understand that Senator Hatch is talking on the Floor now, 
but he intends to join us momentarily also to talk about these 
bills.
    We have a long list of witnesses. I want to say something 
just very briefly about all the bills.

STATEMENT OF HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF UTAH

    Mr. Bishop. I have already stated something about the three 
that I think are great. The fourth one I also think is great. 
It deals with Arizona. We will hear some unique testimony.
    Unfortunately I have already heard testimony on this bill 
in this Committee before and in other committees before. So the 
testimony and the expertise have run the gamut from experts 
from the State of Arizona who have told us about the bill to 
Louise Slaughter talking about the bill in the Rules Committee 
meeting.
    So I have heard all of this several times before. I think 
you are going to hear some unique spins. I think you are going 
to hear the Administration come forward, auditioning for the 
roles of Petruchio and Katherine in Taming of the Shrew because 
they will tell us the sun is the moon, the day is night, that 
green is red and black is white. And it is a unique concept, 
but they will do it.
    We are talking about the Arizona Strip, an area the size 
roughly of the State of New Jersey. So I am glad you are here 
to represent that. In the infinite opinion of the lands artists 
that we do have, they want to control a million acres of 
potential energy development along this strip, which is 
something akin to saying that if there was a terrorist threat 
to the Statue of Liberty, they would close down the boardwalk 
at Atlantic City.
    The 1 million acres is the size roughly of the State of 
Delaware. I mean, this is excessive. The Secretary at one time 
told us that he had withdrawn this because the Congress would 
make even more Draconian limitations if he had not stepped in. 
So, to our good friends from the Senate, shame on you for even 
thinking of that.
    The way we will approach this is in the--oh, I am sorry. I 
will yield first of all to the Ranking Member for comments that 
I am sure he has for these bills.

 STATEMENT OF HON. RAUL GRIJALVA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Grijalva. Good morning, Mr. Chairman, and to our 
colleagues, welcome, and to the Members of the Subcommittee and 
to all the witnesses that have agreed to testify today.
    I am going to utilize this opening statement time to talk 
about the real focus of this morning's hearing, and that is the 
Grand Canyon. Other than the international mining industry, 
their lobbyists, I am puzzled as to whose benefit H.R. 3155, 
the so-called Northern Arizona Mining Continuity Act, is really 
being put forward for.
    It can't be for the millions of annual visitors who come to 
the Grand Canyon for its pristine beauty, its unique natural 
qualities, as President Teddy Roosevelt had the foresight to 
protect this special place for future generations. Speaking 
before a group of Arizonans that assembled on that day, on this 
now visited site, celebrated as the crown jewel of our national 
parks, he told them, ``It is your own interest and the interest 
of all the country to keep this great wonder of nature as it is 
now.'' So obviously this legislation is not for that legacy.
    It can't be for the California-Nevada water utilities, both 
of which have supported a cautious approach toward mining in 
the Colorado River Basin, weighed favorably toward protection 
and not risky exploitation of resources relied on by millions 
of Americans for their drinking water. We are putting at risk 
water use for agriculture that provides foods for hundreds of 
millions of people across this country. So obviously it is not 
for them.
    It can't be for the thousands of people dependent on 
tourism in northern Arizona to feed their families. The Grand 
Canyon and the Colorado River are the lifeblood of northern 
Arizona's tourism industry. The Grand Canyon is a year-round 
source of employment and revenue for that region. So it is not 
for the Grand Canyon, and it can't be for the people that 
depend on that. And the people that do come to visit are not 
there to tour uranium mines.
    It can't be for the region's Native Americans, many of whom 
still live with the ravages of past uranium mining in the 
region. On October 30, The New York Times article reported on 
cleanup efforts at a site that is finally nearing completion 
after decades of indifference and neglect. This is one site, 
but there are hundreds of former sites yet to be addressed, 
leaving that cleanup cost to the American taxpayer.
    So it can't be for the Obama Administration that has 
painstakingly studied the impacts, the potential for harm and 
have chosen to recommend 1 million acres of Federal forest land 
be removed from hard rock mining for 20 years as allowed under 
Federal Land Use Management Regulations. It can't be for the 
millions of Arizonans and Americans not included 30 years ago 
in the agreement that led to the Arizona Wilderness Act of 
1984, who will be told that this legislation limits the 
protections around the canyon for the benefit of the 
international uranium mining industry and foreign competitors 
even though high-level staff involved in this agreement have 
confirmed and will again today that it was never the intent of 
the legislation to make the land around the Grand Canyon 
permanently available for uranium mining. The words mine, 
mining or uranium were never mentioned in the 1984 bill.
    So I am stumped as to why the Republican Majority would 
stand silently with foreign mining corporations pushing for 
blindly risking the crown jewel of our national park system in 
the Colorado River, lifeblood to hundreds of millions of 
people, usurping a national public process which obtained close 
to 300,000 comments overwhelmingly in favor of the withdrawal.
    This legislation is an attempt to intimidate the 
Administration, short-circuiting a national scientific and 
public review process all because they didn't get their way in 
terms of this withdrawal. This is nothing more than an attempt 
by the Majority to risk millions of tourism jobs for maybe a 
few hundred projected short-term jobs.
    This legislation is an insult to Arizonans and the American 
taxpayers, an assault on the tourism industry in northern 
Arizona and a snapshot of what is wrong with our political 
system. When money dictates public policy, the interests of the 
American people are tossed on the way seats of hard rock 
mining.
    The Grand Canyon and the Colorado River are far too 
important to allow the short-term gains from mining to leave 
permanent scars on the crown jewel of our national parks. So, 
with that, Mr. Chairman, I welcome again and thank the 
witnesses and yield back.
    [The prepared statement of Mr. Grijalva follows:]

     Statement of The Honorable Raul M. Grijalva, Ranking Member, 
        Subcommittee on National Parks, Forests and Public Lands

    Good morning, Mr. Chairman and Members of the subcommittee. I want 
to thank all of the witnesses that have agreed to testify before us 
today.
    H.R. 1980, H.R. 2070 and H.R. 2621 are all pieces of legislation 
that I firmly support, so I want to spend my five minutes on the real 
focus of this morning's hearing: The Grand Canyon.
    Other than the international uranium mining industry and their 
lobbyists, I am puzzled as to whose benefit H.R. 3155--the so-called 
Northern Arizona Mining Continuity Act--is being put forward.
    It can't be for the millions of annual visitors who come to the 
Grand Canyon for its pristine beauty and unique natural qualities. 
President Teddy Roosevelt had the foresight to protect this special 
place for future generations. Speaking before a group of Arizonans 
assembled at what is now is the most visited site in a celebrated 
collection of National Parks, he told them that--and I quote: ``It is 
in your own interest and the interest of all the country to keep this 
great wonder of nature as it is now. It can't be for Teddy.''
    It can't be for the California and Nevada water utilities, both of 
which have supported a cautious approach toward mining in the Colorado 
River Basin and weighed favorably toward protection, not risky 
exploitation of a resource relied on by millions of Americans for their 
drinking water. We are putting at risk water used for agriculture that 
provides food for hundreds of millions of people across the country. It 
can't be for them.
    It can't be for thousands of people who depend on tourism in 
Northern Arizona to feed their families. The Grand Canyon and Colorado 
River rafting are the lifeblood of the Northern Arizona tourism 
industry. The Grand Canyon railroad out of Williams, Az takes tourists 
year round to the Grand Canyon, not uranium mines. It can't be for 
them.
    It can't be for the region's Native Americans, many of whom still 
live with the ravages of past uranium mining in the region. An Oct 30th 
New York Times article reported on clean-up efforts at a site that is 
finally nearing completion after decades of indifference and neglect. 
That is one site, but there are hundreds of former sites yet to be 
addressed, leaving the clean-up to the American taxpayer.
    It can't be for the Obama administration that has painstakingly 
studied the impacts, potential for harm, and have chosen to recommend 
that 1,000,000 acres of federal forest land be removed from hard rock 
mining for 20 yrs, as allowed under federal land use management 
regulations.
    It can't be for the millions of Arizonans and Americans not 
included in the agreement of 30 yrs ago that led to the Arizona 
Wilderness Act of 1984. We are being told that this legislation limits 
the protections around the canyon for the benefit of international 
uranium mining industry and foreign competitors, even though high level 
staff involved in the agreement have confirmed--and will again today--
that it was never the intent of the legislation to make the land around 
the Grand Canyon permanently available for uranium mining. The words 
``mine'', ``mining'', or ``uranium'' are never mentioned in the 1984 
bill.
    So I am stumped as to why the Republican majority would stand 
solidly with foreign mining corporations, pushing for blindly risking 
the crown jewel of our national parks system and the Colorado River, 
lifeblood to hundreds of millions of people, usurping a national public 
process, which obtained close to 300 thousand comments overwhelmingly 
in favor of the full withdraw.
    This legislation is an attempt at intimidating the administration, 
short circuiting a national scientific and public review process all 
because they did not get their way.
    This is nothing more than an apparent attempt by the Republican 
delegation to risk millions of tourism jobs for maybe a few hundred 
projected, short term jobs.
    This legislation is an insult to all Arizonans and the American 
taxpayers, an assault on the tourism industry in northern Arizona, and 
a snapshot of what is wrong with our political system. When money 
dictates public policy, the interests of the American people are tossed 
on the waste heaps of hard rock mining.
    The Grand Canyon and the Colorado River are far too important to 
allow the short term gains from mining to leave permanent scars on the 
crown jewel of our National Parks. Water relied on by 25 million 
Americans is much more important than the profits of foreign mining 
giants.
                                 ______
                                 
    Mr. Bishop. Thank you. All right. To the witnesses, this is 
how we will try to run this, and I am going to give a couple of 
you some options. Senator McCain, as the senior Member on the 
Senate on this side, we are going to ask you to go first. 
Senator Bennet, I am going to go through Senator McCain and 
Senator Hatch if he shows up on this particular bill. They are 
going to talk about the Arizona bill. Representative Tipton is 
going to talk about the issue in Colorado. I will give you your 
option because I realize I don't know what your schedule is. I 
know how busy the Senate is. Excuse me. I have something caught 
in my cheek right there. Just a minute.
    So I will give you the option. If you would like to go 
after Senator McCain and Senator Hatch and then leave us, feel 
free to do it. If you would like to wait until the other 
representatives who are not on the Committee have talked about 
the Arizona bill and then speak at the same time Tipton does on 
Colorado, I will give you that choice as well. So it will be up 
to you.
    Senator Bennet. Mr. Chairman, if I could ask for one other 
option, which is if we run out of time, if you wouldn't mind my 
submitting the statement for the record, I would do that as 
well.
    Mr. Bishop. That is fine. That will be fine too.
    Senator Bennet. Thank you. And I just wanted to say how 
glad I am to see Congressman Lamborn and Congressman Tipton 
this morning. Thank you, Mr. Chairman.
    Mr. Bishop. We will be happy to do that.
    Senator Bennet. Great.
    Mr. Bishop. But we would rather hear your voice.
    Senator Bennet. Oh, that is fine.
    Mr. Bishop. With that, Senator McCain, if you are prepared, 
we would love to hear your testimony.

STATEMENT OF HON. JOHN McCAIN, A UNITED STATES SENATOR FROM THE 
                        STATE OF ARIZONA

    Senator McCain. Thank you, Mr. Chairman. And given the 
large number of witnesses and panels that you have, I will try 
to be uncharacteristically brief. And may I say that it is a 
pleasure to be back here, a committee on which I had the honor 
of serving for four years and enormous responsibilities that 
this Committee has to the present and future of this nation and 
the protection of our most treasured assets.
    I have a prepared statement I would like to have submitted 
for the record, Mr. Chairman, if you would. This is all about 
an issue that took place when I was a Member of this Committee. 
I worked closely with Congressman Udall. You will hear people 
who were not here that have a very different interpretation of 
the facts and events of the two-year period that we went 
through in putting together a landmark Arizona wilderness bill, 
which I was very happy to be part of.
    And by the way, you will hear from a member of the staff, a 
former staff member at the time who will disagree with my 
assessment of what took place. The fact is that staff member 
was not there at every meeting. There were Member-level 
meetings and discussions on this issue.
    Former Congressman Bob Stump, who as you know is a former 
chairman of the House Armed Services Committee and a 
distinguished Member, was insistent, insistent that these lands 
that are now being proposed to be put under permanent 
wilderness status would be open to exploration, mining, 
multiple-use lands. That was the price of the agreement by 
Congressman Stump. And anybody who wants to characterize the 
legislation in a different way should look at the record at the 
time the Wilderness bill was passed and the statements that 
were made.
    Anyone, anyone who says that Bob Stump's insistence that 
this be multiple-use land as a price for his support for this 
wilderness bill is mischaracterizing the facts, and shame on 
them for doing so.
    So all I can tell you is that we came to an agreement after 
two years of negotiations and agreements for a landmark bill 
that preserved 3 million acres of our most beautiful State in 
permanent pristine status. The price for that was that the 
Arizona Strip be open for multiple use, all of it, all of it. 
And anyone who characterizes it as different were not there or 
are not telling the truth.
    The people of Arizona and the people of this country 
deserve to have this part of our State be exploited for mining. 
America needs it. America needs the kinds of materials. We need 
the jobs. Even though we have Members of Congress who want our 
State boycotted and cost us jobs, we want jobs in Arizona. We 
want people to come to Arizona and hire people. And we believe 
that this is important for our national security interests and 
for the financial interests and the job opportunities for many 
of my fellow citizens. And we encourage them to come to our 
State and establish their businesses and their work there.
    So again, this is an example, frankly, Mr. Chairman, of 
elections have consequences. I can guarantee you if the 2008 
elections had turned out differently we wouldn't be discussing 
this issue. We would be adhering to the provisions that were 
agreed to by the Arizona delegation at that time. I thank you, 
Mr. Chairman.
    [The prepared statement of Senator McCain follows:]

 Statement of The Honorable John McCain, a U.S. Senator from the State 
of Arizona, on H.R. 3155, the Northern Arizona Mining Continuity Act of 
                                  2011

    Thank you, Chairman Bishop, for the opportunity to testify about 
the importance of safeguarding multiple use management policy in 
northern Arizona. The legislation introduced by myself and Congressman 
Trent Franks, along with a majority of the Arizona Congressional 
delegation, would prevent the Secretary of the Interior from 
implementing his proposed 1 million acre mining withdrawal in northern 
Arizona. I hold Secretary Salazar in high esteem but this withdrawal is 
fueled by an emotional public relations campaign designed by some of 
the same environmental groups whose longtime mission has been to kill 
mining and grazing jobs on the Arizona Strip as well as tourism jobs at 
the Grand Canyon.
    Mr. Chairman, Senator Hatch and I have served our respective states 
for many years and the aspiration by the environmental community to 
halt mining in the Grand Canyon region is old news to us. It existed 
during the last uranium rebound in the late 1970s and early 1980s with 
thousands of mining claims staked in the same areas of the ``northern 
parcel'' of the proposed withdrawal area. The difference is that back 
then, the environmental community put their aspirations aside to 
constructively work with stakeholders to reach a historic agreement on 
wilderness designation in the Arizona Wilderness Act of 1984 (P.L. 98-
406). While credit is due to my good friend, the late-Congressman Mo 
Udall, for shepherding the Act through Congress, Title III of the bill 
(also known as ``the Arizona Strip Wilderness Act'') was developed 
through negotiations led by the late-Congressman Bob Stump. The Act 
ultimately designated over 250,000 acres of wilderness on the Arizona 
Strip and released about 600,000 acres of federal land for multiple-use 
development.
    During negotiations on the 1984 Act, Congress struggled with how to 
legislatively ``release'' non-Wilderness lands from being locked-up as 
administrative or ``de facto'' Wilderness, but also allow for some 
flexibility in preserving these lands through responsible land 
management. Some argued for enacting so-called ``hard release 
language'' which proscriptively enforced a multiple-use mandate on non-
Wilderness lands. Others wanted ``soft release language'' which 
continued restrictions on non-Wilderness lands so as to preserve their 
wilderness characteristics. What made the Arizona Wilderness Act the 
gold standard of stakeholder collaboration and bipartisan compromise is 
that it utilized so-called ``compromise release language'' and 
intentionally authorized the presence of ``non-wilderness uses as 
determined appropriate thought the [BLM] land management planning 
process.'' (House Report 98-643, Part 1, pages 34-35).
    Until now, that compromise allowed for uranium mining to coexist 
with the some of our most treasured natural resources. Unfortunately, 
several of the same environmental groups who once supported the 
compromise and singed-off on uranium mining near the Grand Canyon have 
come back to ask this Administration to toss out the existing land use 
plans and implement a massive and arbitrary withdrawal knowing full 
well that uranium mining is a principal activity and job creator on the 
Arizona Strip. There is no scientific evidence that modern-day uranium 
mining in the withdrawal area has violated drinking water quality 
standards in the Colorado River. The true goal of this withdrawal is to 
permanently restrict access to a nationally significant uranium 
resource, which is precisely what we sought to prevent under the 1984 
Wilderness Act. What the Secretary proposes is nothing other than de 
facto Wilderness.
    Mr. Chairman, if the decision is made to move forward with the 
proposed withdrawal, the Department of the Interior will be casting 
aside that historic compromise and ignoring the land management 
planning process that has resulted in the bulk of the withdrawal area 
being open to uranium mining. Future wilderness proposals will be 
deserving of even greater scrutiny once it becomes clear that 
negotiated agreements like those contained in the Arizona Wilderness 
Act are neither genuine nor enduring.
    I fully agree that the Grand Canyon deserves to be protected for 
the enjoyment of future generations. However, it is totally 
irresponsible to move forward with the proposed withdrawal as it lacks 
sufficient scientific justification and flies in the face of the 
legislative history behind the Arizona Wilderness Act. I urge the 
Committee to pass this bill.
                                 ______
                                 
    Mr. Bishop. Thank you very much, Senator. Once again, 
Senator, if you would like to stay with us, you are welcome to. 
If you have other obligations, we understand that as well. 
Appreciate it.
    Senator Bennet, this is your time to make a decision. Do 
you want to go now, or do you want to wait?
    Senator Bennet. I would be happy to go now, Mr. Chairman.
    Mr. Bishop. Feel free, please.

STATEMENT OF HON. MICHAEL BENNET, A UNITED STATES SENATOR FROM 
                     THE STATE OF COLORADO

    Senator Bennet. Thank you, Chairman Bishop, and to the 
Ranking Member. I want to thank all of you for the opportunity 
to testify at today's hearing on the Chimney Rock National 
Monument Establishment Act. I have been pleased to work on 
similar legislation in the Senate over the last two Congresses, 
and I have enjoyed working with Congressman Tipton on this 
bipartisan effort.
    I also want to recognize Ricky Lightfoot, seated behind me, 
a distinguished archeologist who has worked extensively at 
Chimney Rock. Ricky is joining us today from beautiful Mancos, 
Colorado. And I am here to testify in support of H.R. 2621.
    Chimney Rock is located roughly 20 miles west of Pagosa 
Springs in the southwest part of Colorado. This 40,700-acre 
site is located on San Juan National Forest land, recognized as 
perhaps the most significant historical site managed by the 
entire Forest Service throughout the country. The twin spires 
of Chimney Rock depicted in the photo on the screens above 
attracted the ancestors of the modern Pueblo Indians to this 
area nearly 1,000 years ago.
    This unique culture had their main settlement in Chaco 
Canyon, New Mexico, and had a settlement at what is now Mesa 
Verde National Park near Cortez. I might say that all of these 
sites are in Congressman Tipton's district.
    The Chaco people established a remote outpost at the base 
of Chimney Rock called the Great House Pueblo. The Great House 
is situated just south of the twin spires and is now displayed 
on the screens above. Chimney Rock has incredible historical 
and cultural significance, yet the site lacks a designation 
equal to that stature. This discrepancy is why countless 
preservation groups have become involved with Chimney Rock. 
They came together in 2009 and asked me to carry legislation to 
designate Chimney Rock a national monument in the Senate, and I 
have now been pleased to work with Congressman Tipton on his 
companion bill in the House.
    Put simply, a national monument designation is warranted 
for Chimney Rock, and that new designation will drive economic 
development and job creation throughout the region. The measure 
was drafted with the help of the Forest Service, historical 
preservation organizations, Native American tribes and dozens 
of other local stakeholders.
    I would draw the Committee's attention to a number of the 
letters I brought with me today from several of the 
organizations involved in that robust stakeholder process. We 
have letters of support from a bipartisan group of Archuleta 
County commissioners who have extended their unanimous support 
for the bill; the Republican mayor of Pagosa Springs, Colorado, 
the town nearest to Chimney Rock; the Pagosa Springs Area 
Chamber of Commerce; and the Pagosa Springs Community 
Development Corporation.
    I would like to submit these letters sent to Congressman 
Tipton and me into the record to illustrate the broad level of 
local support for this popular legislation. Thank you, Mr. 
Chairman.
    [NOTE: The letters submitted for the record on H.R. 2621 
have been retained in the Committee's official files.]
    Senator Bennet. My Chimney Rock Bill in the Senate, nearly 
identical to Congressman Tipton's legislation, was reported out 
of the Senate Energy Committee in a bipartisan voice vote. I am 
hopeful that the House Natural Resources Committee will see fit 
to lend similar support to Congressman Tipton's efforts as we 
move toward enacting this popular legislation into law.
    Thank you again, Mr. Chairman, and to the Ranking Member 
for allowing me the opportunity to testify today on this 
important topic. Thank you, Mr. Chairman.
    [The prepared statement of Senator Bennet follows:]

 Statement of The Honorable Michael F. Bennet, a U.S. Senator from the 
    State of Colorado, on H.R. 2621: Chimney Rock National Monument 
                           Establishment Act

    Chairman Bishop, Ranking Member Grijalva (Gra-HALL-va), I thank you 
for the opportunity to testify at today's hearing on the Chimney Rock 
National Monument Establishment Act.
    I've been proud to work on similar legislation in the Senate over 
the last two Congresses. And I've enjoyed working with Congressman 
Tipton on this bipartisan effort.
    I also want to recognize Ricky Lightfoot--seated behind me--a 
distinguished archeologist who has worked extensively at Chimney Rock.
    Ricky is joining us today from beautiful Mancos, CO.
    I am here to testify in support of H.R. 2621, The Chimney Rock 
National Monument Establishment Act.
    Chimney Rock is located roughly 20 miles west of Pagosa Springs--in 
the southwest part of Colorado.
    This 4,700 acre site is located on San Juan National Forest land 
and is recognized as perhaps the most significant historical site 
managed by the entire Forest Service.
    The twin spires of Chimney Rock--depicted in the photo on the 
screens above--attracted the ancestors of the modern Pueblo Indians to 
this area nearly a thousand years ago.
    This unique culture had their main settlement in Chaco Canyon, New 
Mexico, and had a settlement at what is now Mesa Verde National Park 
near Cortez.
    The Chaco People established a remote outpost at the base of 
Chimney Rock called The Great House Pueblo. The Great House is situated 
just south of the twin spires and is now displayed on the screens 
above.
    The House was built from six million stones, 5,000 logs and 25,000 
tons of earth and clay. All of these materials were arduously hauled 
1,000 feet up from the valley floor.
    We think they established this outpost to observe a rare lunar 
event. The so-called ``major lunar standstill,'' occurs once every 18.6 
years when the moon appears to rise in the exact same spot three nights 
in a row.
    The Chaco People built the Great House Pueblo to observe this 
spectacular celestial event. There are only two other places in the 
world where ancient people used stone structures to mark a lunar 
standstill. Stonehenge is one of them.
    Chimney Rock has incredible historical and cultural significance. 
Yet the site lacks a designation equal to that stature. This 
discrepancy is why countless preservation groups got involved with 
Chimney Rock.
    This constituency, coupled with a bipartisan group of local 
officials, Colorado counties, municipalities and tribes have joined in 
an effort to give Chimney Rock the proper designation.
    They came together in 2009 and asked me to carry legislation to 
designate Chimney Rock a National Monument in the Senate. And I've now 
been pleased to work with Congressman Tipton on this companion bill in 
the House.
    This legislation will provide much-needed protection, and much-
deserved recognition, for the site.
    Passage of this bill will also provide increased tourism and 
economic development in southwest Colorado.
    Put simply, a National Monument designation is warranted for 
Chimney Rock and that new designation will drive economic development 
and job creation throughout the region.
    The measure was drafted with the help of the Forest Service, 
historical preservation organizations, Native American tribes and 
dozens of other local stakeholders.
    I would draw the Committee's attention to a number of letters I 
brought with me today from several of the organizations involved in 
that robust stakeholder process.
    Here I have letters of support from:
        <bullet>  A bipartisan group of Archuleta County Commissioners, 
        who have extended their unanimous support for this bill.
        <bullet>  The Republican Mayor of Pagosa Springs, Colorado--the 
        town nearest to Chimney Rock.
        <bullet>  The Pagosa Springs Area Chamber of Commerce.
        <bullet>  And the Pagosa Springs Community Development 
        Corporation.
    I'd like to submit these letters, sent to Congressman Tipton and 
me, into the record to illustrate the broad level of local support for 
this popular legislation.
    My Chimney Rock bill in the Senate--nearly identical to Congressman 
Tipton's legislation--was reported out of the Senate Energy Committee 
in a bipartisan voice vote last Congress.
    I'm hopeful the House Natural Resources Committee will see fit to 
lend similar support to Congressman Tipton's measure as we move towards 
enacting this popular legislation into law.
    Thank you Chairman Bishop and Ranking Member Grijalva for allowing 
me the opportunity to testify today on this important topic.
                                 ______
                                 
    Mr. Bishop. Thank you, Senator. And as always, if you would 
like to stay over here on the true side of Capitol Hill, you 
are welcome to. If you have other obligations and need to go, 
we understand.
    Senator Bennet. Thank you.
    Mr. Bishop. With that, let me turn next to the sponsor of 
35, whatever the number is, Representative Franks from Arizona, 
and then we will hear from one of our former colleagues on this 
Committee, Representative Flake from Arizona. Representative 
Franks.

 STATEMENT OF HON. TRENT FRANKS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ARIZONA

    Mr. Franks. Thank you. You just promoted me, Mr. Chairman, 
and I appreciate it. You called me Senator Franks.
    Mr. Bishop. I sincerely apologize. I will never do that to 
you again.
    Mr. Franks. I appreciate that.
    Mr. Bishop. I am sorry. I profusely apologize for doing 
that.
    Mr. Franks. I didn't come here to be insulted, Mr. 
Chairman.
    [Laughter.]
    Mr. Bishop. Congressman Franks, please.
    Mr. Franks. Mr. Chairman, first of all, I want to thank you 
for holding this hearing and allowing me to testify on H.R. 
3155 this morning, the Northern Arizona Mining Continuity Act 
of 2011. And if I could ask you, sir, I would like to see an 
ASU study here, the Western Business Roundtable letter and a 
report from Tetra Tech prepared for the American Clean Energy 
Resources Trust placed into the record----
    Mr. Bishop. So ordered.
    Mr. Franks.--because I will be referencing those in my 
testimony here.
    Mr. Bishop. So ordered.
    [NOTE: The letter and report submitted by Mr. Franks have 
been retained in the Committee's official files.]
    Mr. Franks. Mr. Chairman, this legislation will stop the 
United States Department of the Interior from banning mining in 
a vast area of Arizona that represents the Nation's second 
largest domestic source of uranium ore. The Department of the 
Interior intends to withdraw as early as this month, as you 
stated earlier, 1 million acres of Arizona land with the goal 
of preventing uranium mining on that land for the next 20 
years.
    Studies by Dr. Charles Sanchez and Dr. John Chesley of the 
University of Arizona have shown no threat to the Colorado 
River by mining this uranium. According to the results, uranium 
mining ``in the main channel of the Colorado River are 
generally consistent with the normal weathering of uranium-
containing geomedia within the watershed and rule against major 
contamination from uranium mines.''
    Regarding agricultural soils in the lower Colorado River 
region, the study concludes, ``No increase in the bio-available 
uranium after 35 years of irrigation and fertilization.'' 
Regarding uranium exposure to food crops, the study concludes, 
``Potential uranium exposure to vegetable and food crops 
produced in the lower Colorado River region are negligible 
relative to health risks.''
    Mr. Chairman, with all of this data and the total lack of 
any evidence from the Bureau of Land Management indicating the 
unsafe operation of uranium mines, the Obama Administration is 
still willing to make up to approximately 326 million pounds of 
the best uranium ore in the country off limits. And that is 
actually uranium, Mr. Chairman. The ore would be much more than 
that of course.
    This nonsensical effort by the Obama Administration is a 
step in precisely the wrong direction for the American economy, 
making the U.S. even more dependent on foreign powers and 
potentially creating a serious national security threat going 
forward.
    Mr. Chairman, Mohave County, a county in my district that 
will be directly impacted by Secretary Salazar's needless 
withdrawal of prime mining lands on the Arizona Strip, already 
has an unemployment rate of 10.6 percent. The rate is even 
higher in specific areas of the county: Butler, area of 
Kingman, 16.2 percent; the Golden Valley area, 21.3 percent; 
and Dolan Springs, 23.7 percent unemployment.
    The locking up of a million acres of mining in northern 
Arizona ignores the economic realities of the state and will do 
fiscal harm to the local area. An economic analysis performed 
by Tetra Tech detailing the benefits of the uranium mining 
industry in the northern Arizona uranium district concluded 
that there will be $29.4 billion in output over the 42-year 
lifespan of the project, including $2 billion in Federal and 
State corporate taxes and $40 million annually in payroll.
    Mr. Chairman, uranium mining would create more than 1,000 
jobs directly related to mining operations and many more jobs 
would be created as a result of the economic activity 
associated with the mining. Additionally, of America's existing 
104 operating nuclear reactors, 90 percent of them now import 
the uranium that they use from foreign countries, including 
Russia and Kazakhstan, as opposed in the 1970s when America was 
100 percent self-sufficient. This potentially creates a serious 
national security threat going forward.
    Mr. Chairman, in 1984, Congress passed the Arizona 
Wilderness Act to specifically recognize the uranium potential 
of 490,000 acres of BLM and 500,000 acres of Forest Service 
lands by releasing them from the wilderness study 
classification so they could be mined. The bill was a 
collaborative effort that included the mining and livestock 
industries, the National Parks Conservation Association and the 
Wilderness Society and the Sierra Club.
    Mr. Chairman, according to the United States Geological 
Survey, northern Arizona uranium reserves total about 326 
million pounds of uranium or enough to power the entire State 
of Arizona for 80 years. By prohibiting the exploitation of 
northern Arizona uranium reserves, the Obama Administration 
will potentially weaken America's long-term national security, 
our economic security and our ability to be energy self-
sufficient.
    This legislation would stop the Obama Administration from 
eliminating our country's most significant source of uranium. 
And I want to thank you again, sir, for holding this hearing. 
It is my hope that the Members of the Subcommittee will 
appreciate the importance of moving this legislation forward.
    [The prepared statement of Mr. Franks follows:]

 Statement of The Honorable Trent Franks, a Representative in Congress 
 from the State of Arizona, on H.R. 3155, the Northern Arizona Mining 
                         Continuity Act of 2011

    Mr. Chairman, I want to thank you for holding this hearing and 
allowing me to testify on H.R. 3155, the Northern Arizona Mining 
Continuity Act of 2011.
    Mr. Chairman, this legislation will stop the U.S. Department of the 
Interior from banning mining in a vast area of Arizona that represents 
the nation's second largest domestic source of uranium ore.
    The Department of the Interior intends to withdraw, as early as 
this month, 1 MILLION acres of Arizona land with the goal of preventing 
uranium mining on that land for the next 20 years. Studies by Dr. 
Charles Sanchez and Dr. John Chesley of the University of Arizona have 
shown no threat to the Colorado River by mining this uranium. According 
to the results, uranium ``in the main channel of the Colorado River are 
generally consistent with the normal weathering of uranium containing 
geomedia within the watershed and rule against major contamination from 
uranium mines''. Regarding agriculture soils in the Lower Colorado 
River Region, the study concludes ``no increase in bioavailable uranium 
after 35 years of irrigation and fertilization.'' Regarding uranium 
exposure to food crops, the study concludes ``potential uranium 
exposure to vegetable and food crops produced in the Lower Colorado 
River Region are negligible relative to health risks''.
    Mr. Chairman, with all of this data and the total lack of any 
evidence from the Bureau of Land Management indicating the unsafe 
operation of the uranium mines, the Obama Administration is still 
willing to make up to approximately 326 million pounds of the best 
uranium in the country off-limits. This shameful effort by the Obama 
Administration is a step in precisely the wrong direction for the 
American economy, making the U.S. even more dependent on foreign powers 
and potentially creating a serious national security threat going 
forward.
    Mr. Chairman, Mohave County, a county in my District that will be 
directly impacted by Secretary Salazar's needless withdrawal of prime 
mining lands on the Arizona Strip, already has an unemployment rate of 
10.6%. The rate is even higher in specific areas of the county; Butler 
area of Kingman (16.2%), Golden Valley (21.3%), and Dolan Springs 
(23.7%). The locking up of a million acres of mining lands in Northern 
Arizona ignores the economic realities of the State and will do fiscal 
harm to the local area.
    An economic analysis performed by Tetra Tech detailing the benefits 
of the uranium mining industry in the North Arizona Uranium District 
concluded that there will be $29.4 billion in output over the 42-year 
lifespan of the project, including $2 billion in federal and state 
corporate taxes and $40 million annually in payroll.
    Mr. Chairman, uranium mining would create more than a thousand jobs 
directly related to mining operations, and many more jobs would be 
created as a result of the economic activity associated with the 
mining.
    As indicated by the Governor of Arizona, ``if instituted, this 
uranium mining ban would deal a blow to future economic growth near the 
Grand Canyon.''
    Additionally, of America's existing 104 operating nuclear reactors, 
90% now import the uranium they use from foreign countries, including 
Russia and Kazakhstan, as opposed to the 1970's, when America was 100% 
selfsufficient. This potentially creates a serious national security 
threat going forward.
    Mr. Chairman, in 1984, Congress passed the Arizona Wilderness Act 
that specifically recognized the uranium potential of 490,000 acres of 
BLM land and 500,000 acres of Forest Service lands by releasing them 
from wilderness study classification so that they could be mined. The 
bill was a collaborative effort that included the mining and livestock 
industries, the National Parks Conservation Association, the Wilderness 
Society, and the Sierra Club.
    To this day, uranium mining activities on these lands have a record 
of productive operation and successful reclamation without impacting 
the environment or our awe-inspiring National Parks. The nearest mine 
would be about 6 miles from the Grand Canyon National Park boundary and 
10 miles from the Canyon itself. Mr. Chairman, that is from where we 
are sitting now to Falls Church, Virginia.
    According to United States Geological Survey, northern Arizona 
uranium reserves total about 326 million pounds--or enough energy to 
power the entire state for Arizona for 80 years. By prohibiting 
exploitation of the northern Arizona uranium reserves, the Obama 
Administration will potentially weaken America's long-term national 
security, our economic security, and our ability to be energy 
selfsufficient. This legislation would stop the Obama Administration 
from eliminating our country's most significant source of uranium.
    Mr. Chairman, thank you again for holding this hearing today. It is 
my hope that the members of this subcommittee will appreciate the 
importance of moving this legislation forward. Thank you.
    NOTE: An attachment entitled ``Economic Impact of Uranium Mining on 
Coconino & Mohave Counties, Arizona'' dated September 2009 has been 
retained in the Committee's official files.
                                 ______
                                 
    Mr. Bishop. Thank you, Congressman. I appreciate that. I 
would like to welcome back Congressman Flake. And I am not 
going to say anything about titles with you.
    Mr. Flake. Thank you. I appreciate that.
    Mr. Bishop. But you are recognized for five minutes.
    Mr. Flake. Thank you, Mr. Chairman.
    Mr. Bishop. Wait, let me say, Congressman Franks, if you 
would like to stay with us, if you would like to join us on the 
dais, we can ask unanimous consent for that. We would be happy 
to do that. If you need to leave for other business, we 
understand that as well.
    Mr. Franks. I am grateful, Mr. Chairman. I have a markup in 
Judiciary that I will have to leave it in your capable hands. 
Thank you, sir.
    Mr. Bishop. No one wants to stay here with me. I am getting 
a complex about this. Thank you. Now, Representative Flake, 
please.

STATEMENT OF HON. JEFF FLAKE, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ARIZONA

    Mr. Flake. Thank you, Mr. Chairman. It is nice to be back 
here. I have enjoyed my stint for 10 years on the Resources 
Committee.
    I come in support of H.R. 3155. A lot has been said about 
this already, so I will just summarize. The Administration 
claims that it is undergoing a deliberative process, but it is 
crystal-clear that they plan to move as early as the end of the 
month with this unnecessary long-term withdrawal of lands in 
the Arizona Strip to new mining claims, with a decision 
anticipated at the end of the month.
    This regulatory overreach is based on specious 
environmental concerns, as was outlined by Congressman Franks. 
It violates a longstanding, negotiated legislative agreement, 
as was outlined by Senator McCain, who was here and 
participated in those negotiations. It conflicts with our 
energy security goals. That was also outlined by Congressman 
Franks. And it endangers desperately needed economic activity 
in the region.
    You will hear more from public officials who are affected 
and whose constituents and others are affected. Congressman 
Franks mentioned the high unemployment rate in some of these 
small towns, and that is an acute problem there that can be 
solved with this economic activity that has so many ancillary 
benefits.
    As many of you know, Chairman Simpson in the Appropriations 
Committee included a provision that would put a hold on the 
withdrawal of this million acres. Unfortunately that 
Appropriations bill is foundering. The end game for the 
appropriations process this year is a mystery, and so I am 
heartened by the action of this Committee to bring this bill or 
to move this bill forward. That is why we need freestanding 
legislation to do this because the appropriations process has 
simply broken down.
    I come from northern Arizona. My great, great grandfather 
settled in northern Arizona, so I have been there for five 
generations. Believe me, those of us who were raised in 
northern Arizona are sensitive to environmental concerns. If I 
did anything that would endanger the pristine wonder that is 
the Grand Canyon, I would be ridden out of town and out of the 
state on a rail by my own family and by others in northern 
Arizona.
    But the arguments that are going to be put forward by some 
that there are environmental dangers, and part of the problem 
stems from this area is called the Arizona Strip. It has been 
forever, the area between the Colorado River and the Utah line. 
And some people assume, well, that means strip mining or 
something like that. And you have some Members of Congress 
talking about some glow that will come from the Grand Canyon 
might be uranium glow, not the sunset and just outlandish, 
outlandish claims about what this really does.
    This type of mining is so-called breccia pipe mining. It is 
low impact. After a few years and after reclamation of a few 
years, the locals won't even know where the mine was. The 
impact on water use in the environment are minimal, and it does 
not affect--it is well beyond, outside the boundaries of the 
Grand Canyon National Park. And that is why this settlement was 
negotiated in the eighties to allow multiple use in these areas 
and still does protect and set aside more lands at that time to 
protect this pristine wonder that we have that is the Grand 
Canyon.
    So I thank the Chairman for bringing this bill forward, and 
I urge its passage, and I yield back the balance of my time.
    Mr. Bishop. Thank you, Congressman Flake. And once again, 
if you wish to stay and join us, feel free to. If you have 
other obligations--yes, I got the drift, yes.
    Mr. Flake. I have other obligations, sorry.
    Mr. Bishop. Thank you. Representative Runyan, we are happy 
to have you here as a Member of our full Committee but not 
necessarily this Subcommittee, and we appreciate your bill. If 
you would like to address the Gold Star Mothers--what is the 
official--you know the official title. If you would like to 
address that bill, you are so recognized.

STATEMENT OF HON. JON RUNYAN, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Runyan. Thank you very much, Chairman and Ranking 
Member Grijalva, for holding this hearing and allowing me to 
testify and also for inviting Judith Young to testify. I would 
personally like to thank Judith for her service as chairwoman 
of the Gold Star Mothers National Monument Fund and for 
traveling from my district from Morristown, New Jersey, to 
testify today on the important work she does on behalf of the 
Gold Star Mothers and as a Gold Star Mother.
    H.R. 1980, the Gold Star Mothers National Monument Act of 
2011, authorizes the Gold Star Mothers Monument Foundation to 
build a Gold Star Mothers monument on Federal lands within the 
District of Columbia as a unit of the national park system. 
This legislation only authorizes the use of Federal lands in 
Washington, D.C., and does not authorize Federal funding. All 
funds for construction are to be raised by the Gold Star 
Mothers National Monument Foundation. Let me be clear. All 
funds must be raised by the Gold Star's National Monument 
Foundation. This will not cost the taxpayers a dime.
    During World War I, mothers of sons and daughters who 
served in the Armed Forces displayed flags bearing blue stars 
representing pride in their sons and daughters and their hope 
that they would return home safely. For more than 650,000 of 
these brave mothers, their hopes were shattered when their 
children never returned home.
    Afterwards, many of them began displaying flags bearing 
gold stars that represented the sacrifice that their sons and 
daughters made in the historic service to our country. Over the 
years, the gold star has come to represent a child who has been 
killed by serving in the Armed Services during either war or 
peace.
    In 1929, Congress passed a law authorizing the Federal 
Government to disperse funds for Gold Star Mothers and widows 
of those who were killed while serving in the Armed Services 
during World War I. The funds authorized travel to battlefields 
of Europe to visit the burial sites of their loved ones. On 
June 23, 1936, Congress passed a Senate resolution which 
established the last Sunday in September as Gold Star Mothers 
Day.
    Mr. Chairman, our Gold Star Mothers have sacrificed so much 
for their country, and it is time we give them something back. 
This legislation deserves full consideration by this Committee 
and Congress, and I thank you for allowing me to testify and 
probably having the least controversial bill here in your 
hearing today. I yield back. Thank you.
    [The prepared statement of Mr. Runyan follows:]

  Statement of The Honorable Jon Runyan, a Representative in Congress 
  from the State of New Jersey, on H.R. 1980, ``The Gold Star Mothers 
                    National Monument Act of 2011''

    Chairman Bishop and Ranking Member Grijalva, thank you for holding 
this hearing today, for allowing me to testify, and for inviting Judith 
Young to testify. I would also like to personally thank Ms. Judith 
Young, the Chairwoman of the Gold Star Mothers National Monument Fund, 
for traveling from Moorestown, New Jersey to testify today and for the 
important work she does on behalf of the Gold Star Mothers.
    H.R. 1980, The Gold Star Mothers National Monument Act of 2011, 
authorizes the Gold Star National Mothers Monument Foundation to build 
a Gold Star Mothers National Monument on federal lands within the 
District of Columbia as a unit of the National Parks System. This 
legislation only authorizes the use of federal lands in Washington, 
D.C., it does not authorize federal funding. All funds for construction 
are to be raised by the Gold Star Mothers National Monument Foundation. 
Let me be clear, all funds must be raised by the Gold Star Mothers 
National Monument Foundation; this will not cost the taxpayer a single 
dime.
    During World War I, mothers of sons and daughters who served in the 
Armed Forces displayed flags bearing a blue star to represent pride in 
their sons or daughters and their hope that they would return home 
safely.
    For more than 650,000 of these brave mothers, that hope was 
shattered, and their children never returned home. Afterwards many of 
them began displaying flags bearing gold stars to represent the 
sacrifice that their sons and daughters made in heroic service to our 
country. Over the years the gold star has come to represent a child who 
was killed while serving in the Armed Forces, during either war or 
peacetime.
    In 1929 Congress passed a law authorizing the Federal Government to 
disburse funds for Gold Star Mothers and widows of those who were 
killed while serving in the Armed Forces during World War I. The funds 
authorized travel to the battlefields of Europe to visit the burial 
sites of their loved ones.
    On June 23, 1936, Congress passed a Senate resolution which 
established the last Sunday in September as Gold Star Mother's Day.
    Mr. Chairman, our Gold Star Mothers have sacrificed so much for 
their country, it is time that we give them something back. This 
legislation deserves full consideration by this Committee and Congress.
                                 ______
                                 
    Mr. Bishop. Well, maybe not. We will see about that one. 
But once again, thank you for being here. If you would like to 
stay and join us on the dais, feel free to do so. Once again, 
if you have other obligations, I understand that as well.
    Mr. Runyan. I got a little banged up in the congressional 
football game last night, so I am going to go see the 
orthopedic surgeon.
    Mr. Bishop. I don't even know how to respond to that one. 
All right. Whatever.
    [Laughter.]
    Mr. Bishop. Thank you. We have two bills whose sponsors are 
part of our Committee, Representative Tipton--I am sorry. I let 
the Senator from Colorado go first on this. I apologize to you 
for that, but you have to stay here anyway. So would you like 
to talk about the Chimney Rock bill this time?

 STATEMENT OF HON. SCOTT TIPTON, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Tipton. I would, Mr. Chairman. Thank you, and I thank 
the Ranking Member as well for convening today's hearing, 
including my bill, H.R. 2621, to designate the Chimney Rock in 
southwestern Colorado as a national monument. I would like to 
thank Senator Bennet for taking the time to be here in support 
of the bill, and his contribution on the legislation in the 
Senate has been instrumental in getting the bill where it is 
today. I am proud to work with him on this bipartisan effort.
    I would also like to thank Ricky Lightfoot from my hometown 
in Cortez, Colorado for being here today to share his expertise 
on this treasured area, and I look forward to hearing his 
testimony.
    Chimney Rock is considered by the historic preservation 
community and the archeological community to be one of the most 
significant archeological sites in the Western United States. 
However, many Coloradans may never have heard of this historic 
treasure right in our own backyard. Once held sacred by the 
ancestors of the modern Pueblo Indians who made the journey to 
this northernmost outpost of the Chacoan civilization, Chimney 
Rock is one of only three such known sites to exist.
    The area is known primarily as a gathering place by these 
early Native Americans to observe the rare and dramatic lunar 
standstill. Centuries ago, hundreds of early Native Americans 
called the area home, and archeologists have uncovered ancient 
farming areas, homes and other structures indicating that this 
was a major cultural center for early Americans.
    Despite the unique nature of this area, the Chimney Rock 
site of the San Juan National Forest is lacking a designation 
worthy of its historical and cultural significance. The area is 
currently under the management of the United States Forest 
Service, and it is covered under the USFS Organic Act, which 
has no provision to address the preservation and management of 
such a historic and culturally significant site as Chimney 
Rock.
    As a national monument, Chimney Rock will carefully be 
preserved and restored so that future generations will have the 
opportunity to be able to visit the awe-inspiring site, 
interpret its meaning and study the people that built these 
structures so long ago.
    This designation would increase attention and interest and 
generate new tourism opportunities for the Four Corners area, 
potentially generating badly needed revenue and expand 
potential new jobs for the Southwestern Colorado region that 
has been ravaged by double digit unemployment. Chimney Rock 
would remain open to many of the traditional uses for this 
area. This would ensure that local ranchers will be able to 
keep utilizing the land they depend on for grazing. Outdoorsmen 
will continue to be able to take advantage of the game 
opportunities in the area and will allow for the continued use 
of Chimney Rock by members of the Indian tribes for their 
traditional ceremonies.
    The national monument designation requires no additional 
Federal funds and therefore no increase in Federal spending. 
However, it does allow for private supporters to be able to 
work with the Forest Service to improve and maintain this 
valued area. This allows for the preservation of the Chimney 
Rock in a way that is fiscally responsible. This legislation is 
a great example of a community-based effort to establish one of 
its most valued areas as a national monument, taking into 
account all of the various interests affected by that 
designation and doing so in a way that does not increase costs 
to American taxpayers.
    I am proud to have the support of the Archuleta County 
commissioners and the Pagosa Springs Chamber of Commerce, among 
others, in making Chimney Rock a national monument. This would 
create a win/win situation for this remarkable historic 
cultural area, the State of Colorado and the communities, 
Native American tribes and future generations of visitors.
    Mr. Chairman, than you for allowing me to comment on this 
bill, and I would like to be able to submit for the record 
letters of support from the Chamber of Commerce and the other 
county commissioners out of Archuleta County.
    Mr. Bishop. Without objection.
    [The prepared statement of Mr. Tipton on H.R. 2621 
follows:]

 Statement of The Honorable Scott Tipton, a Representative in Congress 
from the State of Utah, on H.R. 2621, ``Chimney Rock National Monument 
                      Establishment Act of 2011''

    Thank you Mr. Chairman for convening today's hearing and including 
my bill, H.R. 2621, to designate Chimney Rock in Southwestern Colorado 
as a National Monument. I want to thank Senator Bennet for being here 
today in support of the bill. His contribution on this legislation in 
the Senate has been instrumental in getting the bill where it is today 
and I'm proud to work with him on this bipartisan effort. I also want 
to thank Ricky Lightfoot from my hometown of Cortez, Colorado for being 
here to share his expertise on this treasured area and I look forward 
to hearing his testimony.
    Chimney Rock is considered by the historic preservation community 
and the archeological community to be one of the most significant 
archeological sites in the Western United States, however, many 
Coloradans may have never heard of the historic treasure right in our 
own backyard. Once held sacred by the ancestors of modern Pueblo 
Indians who made the journey to this northernmost outpost of the 
Chacoan Civilization, Chimney Rock is one of only three such sites 
known to exist.
    The area is known primarily as a gathering place by these early 
Native Americans to observe the rare and dramatic lunar standstill. 
Centuries ago, hundreds of early Native Americans called the area home 
and archeologists have uncovered ancient farming areas, homes and other 
structures indicating that this was a major cultural center for early 
Americans.
    Despite the unique nature of this area, the Chimney Rock site of 
the San Juan National Forest is lacking a designation worthy of its 
historical and cultural significance. The area is currently under the 
management of the U.S. Forest Service, and is covered under the USFS 
Organic Act, which has no provision to address the preservation and 
management of such a historic and cultural significant site as Chimney 
Rock. As a National Monument, Chimney Rock will be carefully preserved 
and restored so that future generations will have the opportunity to 
visit the awe-inspiring site, interpret its meaning, and study the 
people that built these structures so long ago.
    This designation would increase attention and interest and generate 
new tourism opportunities for the Four Corners area, potentially 
generating badly needed revenue and expand potential for new jobs in 
the Southwest Colorado region ravaged by double-digit unemployment. 
Chimney Rock would remain open to many of the traditional uses for this 
area. This would ensure that local ranchers will be able to keep 
utilizing the lands they depend on for grazing, outdoorsman will be 
able to continue to take advantage of the game opportunities in the 
area, and would allow for the continued use of Chimney Rock by members 
of the Indian tribes for traditional ceremonies.
    The national monument designation requires no additional federal 
funds, and therefore no increase in spending. However, it does allow 
for private supporters to work with the Forest Service to improve and 
maintain this valued area. This allows for the preservation of Chimney 
Rock in a way that is fiscally responsible.
    This legislation is a great example of a community based effort to 
establish one of its most valued areas as a national monument taking 
into account all of the various interests affected by that designation 
and doing so in a way that does not increase costs to American 
taxpayers.
    I'm proud to have the support of the Archuleta County 
Commissioners, and the Pagosa Springs Chamber of Commerce, among 
others. Making Chimney Rock a national monument would create a win-win 
situation for this remarkable historic, cultural area, the state of 
Colorado, the local communities, Native Indian tribes and future 
generations of visitors.
    Thank you, Mr. Chairman.
                                 ______
                                 
    Mr. Bishop. Thank you. And now last but certainly not 
least, Representative Johnson, Member of our Committee. And you 
also have the World War II Memorial Prayer Act. You are 
recognized to introduce that if you would.

 STATEMENT OF HON. BILL JOHNSON, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Johnson of Ohio. Well, thank you, Mr. Chairman and 
Ranking Member Grijalva, for holding this hearing today and for 
considering this legislation that I sponsored, H.R. 2070, the 
World War II Memorial Prayer Act of 2011.
    You know, on June 6, 1944, America embarked upon a great 
campaign, a campaign to fight and resist tyranny and a campaign 
designed to protect the very survivability of our Nation and 
advance the cause of freedom and liberty for the rest of the 
world.
    On that day, President Roosevelt offered a prayer to our 
Nation and to the many men who were going to go into harm's way 
in what was going to be a very, very dangerous mission. This 
legislation would direct the Secretary of the Interior to place 
a plaque at the World War II memorial or to inscribe onto the 
World War II memorial this prayer, which has been entitled 
``Let our Hearts be Stout.''
    Mr. Chairman, I would like to submit a copy of the prayer 
for the record if there is no objection.
    [The prayer submitted for the record follows:]

My Fellow Americans:
    Last night, when I spoke with you about the fall of Rome, I knew at 
that moment that troops of the United States and our Allies were 
crossing the Channel in another and greater operation. It has come to 
pass with success thus far.
    And so, in this poignant hour, I ask you to join with me in prayer:
    Almighty God: Our sons, pride of our nation, this day have set upon 
a mighty endeavor, a struggle to preserve our Republic, our religion, 
and our civilization, and to set free a suffering humanity.
    Lead them straight and true; give strength to their arms, stoutness 
to their hearts, steadfastness in their faith.
    They will need Thy blessings. Their road will be long and hard. For 
the enemy is strong. He may hurl back our forces. Success may not come 
with rushing speed, but we shall return again and again; and we know 
that by Thy grace, and by the righteousness of our cause, our sons will 
triumph.
    They will be sore tried, by night and by day, without rest--until 
the victory is won. The darkness will be rent by noise and flame. Men's 
souls will be shaken with the violences of war.
    For these men are lately drawn from the ways of peace. They fight 
not for the lust of conquest. They fight to end conquest. They fight to 
liberate. They fight to let justice arise, and tolerance and goodwill 
among all Thy people. They yearn but for the end of battle, for their 
return to the haven of home.
    Some will never return. Embrace these, Father, and receive them, 
Thy heroic servants, into Thy kingdom.
    And for us at home--fathers, mothers, children, wives, sisters, and 
brothers of brave men overseas, whose thoughts and prayers are ever 
with them--help us, Almighty God, to rededicate ourselves in renewed 
faith in Thee in this hour of great sacrifice.
    Many people have urged that I call the nation into a single day of 
special prayer. But because the road is long and the desire is great, I 
ask that our people devote themselves in a continuance of prayer. As we 
rise to each new day, and again when each day is spent, let words of 
prayer be on our lips, invoking Thy help to our efforts.
    Give us strength, too--strength in our daily tasks, to redouble the 
contributions we make in the physical and the material support of our 
armed forces.
    And let our hearts be stout, to wait out the long travail, to bear 
sorrows that may come, to impart our courage unto our sons wheresoever 
they may be.
    And, O Lord, give us faith. Give us faith in Thee; faith in our 
sons; faith in each other; faith in our united crusade. Let not the 
keeness of our spirit ever be dulled. Let not the impacts of temporary 
events, of temporal matters of but fleeting moment--let not these deter 
us in our unconquerable purpose.
    With Thy blessing, we shall prevail over the unholy forces of our 
enemy. Help us to conquer the apostles of greed and racial arrogances. 
Lead us to the saving of our country, and with our sister nations into 
a world unity that will spell a sure peace--a peace invulnerable to the 
schemings of unworthy men. And a peace that will let all of men live in 
freedom, reaping the just rewards of their honest toil.
    Thy will be done, Almighty God.
    Amen.
President Franklin D. Roosevelt--June 6, 1944
                                 ______
                                 
    Mr. Johnson of Ohio. I believe that there are several areas 
within the memorial that would be suitable for the prayer's 
placement, but the Department of the Interior would have the 
discretion on final placement. Furthermore, my intention is 
that the cost for the plaque or the inscription would be paid 
for not by taxpayer dollars but by private donations from 
individuals at no cost to the American taxpayers.
    The Administration's witness, who is on the second panel, 
will testify against this legislation today by saying that it 
violates the Vietnam Memorial Visitor Center Act of 2003, and I 
wanted to take this opportunity to preempt their testimony. The 
legislation passed in 2003 stated that the reserve, commonly 
referred to as the National Mall, is a completed body of civic 
art and therefore should not be altered and therefore prohibits 
new commemorative displays on the National Mall.
    However, in the legislation passed in 2003, Congress 
allowed for a commemorative work to go forward by allowing a 
plaque to be placed on the Lincoln Memorial where Martin Luther 
King, Jr. gave his famous ``I Have a Dream'' speech. And I am 
glad they did that.
    Furthermore, in 2009, Congress passed a provision in the 
2010 Interior spending bill that directed the Secretary of the 
Interior to place a plaque on the World War II Memorial 
honoring Senator Bob Dole for his work in getting the memorial 
built. And I am glad that they did that.
    I worked closely with the Congressional Research Service 
and legislative counsel while writing this legislation to make 
sure that the language in H.R. 2070 that is before us today is 
as close as possible to the 2009 provision that authorized the 
plaque to be placed honoring Senator Dole.
    I think it is disingenuous for the Administration to say 
that this legislation should not go forward, and if Congress 
and the American people decide that this plaque or inscription 
is as important as I think it is, then it should be placed on 
the memorial. More importantly, the question of whether the 
prayer is added to the memorial should be left up to the men 
and women to whom the memorial is dedicated to.
    The memorial was built to honor the 16 million who served 
in the Armed Forces of the United States during World War II 
and the more than 400,000 who died during the war, and it seems 
to me that if the few remaining World War II veterans are 
supportive of the prayer being added, we as a country, as a 
Nation, should honor that request.
    The American Legion is supportive of the legislation, and I 
also have a letter of support from the Ohio Christian Alliance, 
and, Mr. Chairman, without objection, I would like to have 
those included in the record.
    [The letters in support of H.R. 2070 follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






    Mr. Johnson of Ohio. Lucky for us, today this Committee 
will hear the testimony of Poppy Fowler on today's second 
panel. Poppy is 87 years young and bravely served our Nation 
during the Second World War in the Pacific Theater. He served 
as a rear gunner on an SB2C hell diver in the Naval Air Group 
15 and completed 35 missions during his three-plus years in the 
Navy.
    I had the pleasure of escorting Poppy a few weekends ago on 
an honor flight to Washington, D.C., to see the memorial for 
the first time, and I believe that he is a true American hero, 
and I look forward to his testimony today.
    During the honor flight, I also had the opportunity to 
speak to a number of World War II veterans about this 
legislation, and all were supportive of including the 
President's prayer on the memorial. I believe the President's 
prayer gave solace, comfort and strength to our Nation. But 
more important, it gave comfort to the brave warriors who put 
their lives on the line as we fought against tyranny and 
oppression.
    Those words should be included among the tributes to the 
greatest generation, memorialized on the national mall, and I 
will continue to work with the Committee to see that the 
President's words are appropriately added to the memorial. And 
I am happy to answer any questions that other Committee Members 
may have. Mr. Chairman, with that, I yield back the balance of 
my time.
    [The prepared statement of Hon. Bill Johnson follows:]

 Statement of The Honorable Bill Johnson, a Representative in Congress 
                         from the State of Ohio

    Thank you Mr. Chairman and Ranking Member Grijalva for holding this 
hearing today and for considering legislation that I sponsored, H.R. 
2070, the World War II Memorial Prayer Act of 2011.
    This legislation would direct the Secretary of Interior to place a 
plaque at the World War II Memorial or to inscribe onto the World War 
II Memorial this prayer, which has been entitled ``Let Our Hearts Be 
Stout.''
    I would like to submit a copy of the prayer for the record if there 
is no objection from any of the Members of the Committee.
    I believe that there are several areas within the Memorial that 
would be suitable for the prayer's placement, but the Department of the 
Interior would have the discretion on final placement.
    Furthermore, my intention is that the cost for the plaque or 
inscription would be paid for by private donations from individuals, at 
no cost to the American taxpayers.
    The Administration's witness who is on the second panel will 
testify against this legislation by saying that it violates the Vietnam 
Memorial Visitor Center Act of 2003 and I wanted to take this 
opportunity to pre-empt their testimony.
    The legislation passed in 2003 stated that the Reserve, commonly 
referred to the National Mall, is a completed body of civic art and 
therefore should not be altered and therefore prohibits new 
commemorative displays on the National Mall.
    However, in the legislation passed in 2003, Congress allowed for a 
commemorative work to go forward by allowing a plaque to be placed on 
the Lincoln Memorial where Martin Luther King, Junior gave his famous 
`I have a dream speech.'
    Furthermore, in 2009 Congress passed a provision in the 2010 
Interior spending bill that directed the Secretary of Interior to place 
a plaque on the World War II Memorial honoring Senator Bob Dole for his 
work in getting the Memorial built.
    I worked closely with the Congressional Research Service and 
Legislative Counsel while writing this legislation to make sure that 
the language in H.R. 2070 is as close as possible to the 2009 provision 
that authorized the plaque to be placed honoring Senator Dole.
    I think it is disingenuous for the Administration to say that this 
legislation shouldn't go forward and if Congress and the American 
people decide that this plaque is as important as I think it is then it 
should be placed on the Memorial.
    More importantly the question of whether the prayer is added to the 
Memorial should be left up to the men and women who the Memorial is 
dedicated to.
    The Memorial was built to honor the 16 million who served in the 
armed forces of the U.S. during World War II and the more than 400,000 
who died during the war, and it seems to me that if the few remaining 
veterans are supportive of the prayer being added, we as a country 
should honor that request.
    The American Legion is supportive of the legislation and I would 
ask that their letter of support be included in the record.
    The Ohio Christian Alliance also has sent a letter of support that 
I also ask be submitted for the record (pause for Chairman Bishop to 
enter it in the record)
    Lucky for us, this Committee will hear the testimony of George 
`Poppy' Fowler on today's second panel. Poppy is 87 years young and 
bravely served our nation during the Second World War in the Pacific 
Theater. Poppy also was a charter member of the WWII Memorial Fund to 
help raise money for the construction of the Memorial.
    He served as a rear gunner on a SB2C Helldiver in the Naval Air 
Group 15 and completed 35 missions during his three plus years in the 
Navy.
    I had the pleasure of escorting Poppy a few weekends ago on an 
Honor Flight to Washington, D.C. to see the Memorial and I believe that 
he is a true American hero and I look forward to his testimony.
    During the honor flight trip I also had the opportunity to speak to 
a number of World War II veterans about this legislation and all were 
supportive of including FDR's prayer on the Memorial.
    I believe that President Roosevelt's prayer gave solace, comfort 
and strength to our nation as we fought against tyranny and oppression.
    Those words should be included among the tributes to the Greatest 
Generation memorialized on the National Mall and I will continue to 
work with the Committee to see that this plaque is added to Memorial.
    I am happy to answer any questions Committee Members may have and 
with that I yield back the balance of my time.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate all of those from the 
House and the Senate who have testified on these four bills. I 
am now going to call up the second panel. I would ask that 
Robert Abbey, who is the Director of the Bureau of Land 
Management; Mary Wagner, who is the Associate Chief of the U.S. 
Forest Service; Mr. George ``Poppy'' Fowler, World War II 
veteran; Ms. Judith Young, who is the Chair of the Gold Star 
Mothers National Memorial Foundation; and Mr. Ricky Lightfoot, 
who is the former President of the Crow Canyon Archeological 
Center, to join us at the table if they would.
    For those of you who may not have joined us before, some of 
you are old hats at this. Some of you are not. Your written 
statement will obviously be included in the record. At the same 
time, we are happy to hear your oral statement at this time. We 
ask you to maintain to five minutes. You will see the clock 
that is in front of you. When the light is green, it means the 
clock is running down. When the light goes yellow, you have one 
minute in which I hope you will sum up. And then when it comes 
on red, that is it. Yes, if you would do that, please.
    We will start first with Director Abbey and then go to 
Associate Chief Wagner. I will tell you both at this time this 
panel is talking only about the three bills, Chimney Rock, Gold 
Star Mothers and the World War II plaque. I will give you your 
option since I already kind of expanded the field in the first 
panel with the Members of Congress who were here. If you would 
like to give your entire testimony now on the fourth bill, the 
Arizona Strip one, as well, please feel free to do that, but 
the next panel will be talking specifically about that, and I 
would hope you would be able to stay for that. If you only want 
to talk about these three now, however you want to structure 
your testimony is fine with me. So, Director Abbey.

    STATEMENT OF ROBERT V. ABBEY, DIRECTOR, BUREAU OF LAND 
          MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Abbey. Well, thank you, Mr. Chairman. And I am going to 
restrict my testimony at this point in time to the three bills 
that are on the agenda.
    Mr. Chairman and other Members of the Committee, thank you 
for the opportunity to appear before this Subcommittee to 
present the Department of the Interior's views on the two 
National Park Service bills on today's agenda. Peter Maye, 
Associate Regional Director for Lands, Resources and Planning 
for the National Capital Region of the National Park Service, 
is accompanying me and will be happy I am sure to answer any 
questions regarding these two bills.
    I would like to submit the Department's full statement on 
these two bills for the record and briefly summarize them. H.R. 
1980 would authorize the Gold Star Mothers National Monument 
Foundation to establish a monument in the District of Columbia. 
The Department cannot support H.R. 1980 because it does not 
conform to the Commemorative Works Act. This position is 
consistent with the findings of the National Capital Memorial 
Advisory Commission.
    H.R. 1980 is in conflict with the Commemorative Works Act 
in two key areas. First, the Act states that a military 
commemorative work may be authorized only to commemorate a war 
such as the Korean War or a branch of the Armed Forces, such as 
the Navy Memorial. Second, the Act permits consideration of 
memorials only if the last surviving member of that group being 
commemorated has been dead for 25 years.
    While the proposed commemoration is outside the scope of 
the Commemorative Works Act, other suitable options to honor 
the Gold Star Mothers could be explored. Should the Committee 
choose to advance this legislation, the Department would 
encourage consideration of language to provide direction 
regarding the disposition of unspent funds, and we would be 
happy to provide suggested language.
    H.R. 2070 would direct the Secretary of the Interior to 
install in the area of the World War II Memorial a suitable 
plaque or an inscription of the words that President Franklin 
Delano Roosevelt prayed with the Nation on June 6, 1944, the 
morning of D-Day. The Department cannot support H.R. 2070, 
which essentially proposes adding another new commemorative 
work as an addition to the existing World War II Memorial and 
as such is contrary to the Commemorative Works Act.
    We support the continued application of this law, which by 
prohibiting encroachment by new commemoration on an existing 
one respects the design of the completed work of civic art 
without alteration or addition of new elements. The 
Commemorative Works Act specifically states that a new 
commemorative work shall be located so that it does not 
encroach upon an existing one. It is not a judgment as to the 
merit of this new commemoration. It is simply that altering the 
memorial in a way proposed by H.R. 2070 will dilute the elegant 
memorial's central message.
    The Department strongly believes that the World War II 
Memorial as designed accomplishes its legislative purpose to 
honor the members of the Armed Forces who served in World War 
II and to commemorate the participation of the United States in 
that conflict.

 Statement submitted for the record by the National Park Service, U.S. 
 Department of the Interior, Concerning H.R. 1980, a Bill to Authorize 
   the Gold Star Mothers National Monument Foundation to Establish a 
             National Monument in the District of Columbia.

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on 
H.R. 1980, a bill that would authorize the Gold Star Mothers National 
Monument Foundation to establish a national monument in the District of 
Columbia.
    The Department cannot support H.R. 1980 because it does not conform 
to the Commemorative Works Act. This position is consistent with the 
finding of the National Capital Memorial Advisory Commission, which 
reported its views to the House Committee on Natural Resources on 
August 17, 2011.
    This bill proposes to both establish a national monument to mothers 
of members of the Armed Forces who have died in the service to our 
country, and to designate the monument as a unit of the National Park 
System. H.R. 1980 also directs that the monument be established 
according to the requirements of the Commemorative Works Act of 1986.
    The Department appreciated the opportunity to discuss the proposal 
with the Gold Star Mothers National Monument Foundation when it met 
with National Park Service staff and the National Capital Memorial 
Advisory Commission. Of course we believe that recognition of the role 
of mothers of members of the Armed Forces is important. We also believe 
that commemoration should be accomplished in a manner consistent with 
the Commemorative Works Act as enacted by Congress. We also note that 
the Gold Star program itself is a commemorative program. It is to 
recognize and honor those who have sacrificed their lives in service to 
our Country, as well as their mothers. Memorials are not always bricks 
and mortar. The Gold Star program is an excellent example, and it is a 
commemoration that has endured in various ways for almost a century.
    H.R. 1980 is in conflict with the Commemorative Works Act in two 
key areas. First, the Act states that a military commemorative work may 
be authorized only to commemorate a war or similar major military 
conflict, such as the Korean War, or a branch of the armed forces, such 
as the Navy Memorial. Secondly, the Act permits consideration of 
memorials only if the last surviving member of the group being 
commemorated has been dead for 25 years.
    While the proposed commemoration is outside the scope of the 
Commemorative Works Act, other suitable options to honor the Gold Star 
Mothers could be explored.
    The Department also notes that the legislation directs that the 
memorial be established as a unit of the National Park System. 
Ordinarily, the National Park Service does not recommend such 
designation without first conducting a Congressionally-authorized 
Special Resource Study to determine if the resource warrants 
designation as a national park.
    We further note that H.R. 1980 does not contain language providing 
for the disposition of unspent funds that may be privately raised for a 
memorial. The Department recommends legislative sponsors include such 
provisions in proposals to establish memorials regardless of the 
proposed location. Should the committee choose to advance this 
legislation in some form, the Department would encourage consideration 
of language to provide direction regarding unspent funds and we can 
assist the committee with suggested language.
    That concludes our prepared testimony on H.R. 1980, and we would be 
happy to answer any questions you may have.
                                 ______
                                 

 Statement submitted for the record by the National Park Service, U.S. 
    Department of the Interior, on H.R. 2070, a Bill to Direct the 
 Secretary of the Interior to Install in the Area of the World War II 
 Memorial in the District of Columbia a Suitable Plaque or Inscription 
  with the Words That President Franklin D. Roosevelt Prayed with the 
             Nation on June 6, 1944, the Morning of D-Day.

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on 
H.R. 2070, a bill which directs the Secretary of the Interior to 
install in the area of the World War II Memorial in the District of 
Columbia a suitable plaque or an inscription with the words that 
President Franklin Delano Roosevelt prayed with the Nation on June 6, 
1944, the morning of D-Day.
    The Department cannot support H.R. 2070, which essentially proposes 
adding another commemorative work to the existing World War II Memorial 
and as such is contrary to the Commemorative Works Act. We support the 
continued application of this law which, by prohibiting encroachment by 
a new commemoration on an existing one, respects the design of this 
completed work of civic art without alteration or addition of new 
elements.
    The World War II Memorial was authorized on May 23, 1993, by Public 
Law 103-32. In 1994, Congress approved its placement in the area 
containing the National Mall in Public Law 103-422. Its location at the 
site of the Rainbow Pool was approved in 1995 by the National Park 
Service (NPS) on behalf of the Secretary of the Interior, the 
Commission of Fine Arts (CFA), and the National Capital Planning 
Commission (NCPC). In July 1997, the CFA and the NCPC reaffirmed prior 
approvals of the Rainbow Pool site in recognition of the significance 
of World War II as the single-most defining event of the 20th Century 
for Americans and the world. Even so, there were challenges to the 
establishment of this memorial. The design we see today was 
painstakingly arrived upon after years of public deliberations and 
spirited public debate.
    The Commemorative Works Act specifically states that a new 
commemorative work shall be located so that it does not encroach upon 
an existing one. It is not a judgment as to the merit of this new 
commemoration, simply that altering the Memorial in this way, as 
proposed in H.R. 2070, will necessarily dilute this elegant memorial's 
central message and its ability to clearly convey that message to move, 
educate, and inspire its many visitors. The Department strongly 
believes that the World War II Memorial, as designed, accomplishes its 
legislated purpose to honor the members of the Armed Forces who served 
in World War II and to commemorate the participation of the United 
States in that conflict. It should not be altered in the manner 
suggested by H.R. 2070.
    The views of the Department are consistent with those of the 
National Capital Memorial Advisory Commission, which reviewed this 
proposal at its meeting on September 14, 2011, and with the views of 
the American Battle Monuments Commission (ABMC) which was also 
represented at that same meeting. The ABMC, charged by the Congress in 
Public Law 103-32 to design and build the World War II Memorial, 
concurred that no additional elements should be inserted into this 
carefully designed Memorial.
    That concludes our prepared testimony on H.R. 2070, and we would be 
happy to answer any questions you may have.
                                 ______
                                 
    Mr. Bishop. Thank you. Ms. Wagner?

STATEMENT OF MARY WAGNER, ASSOCIATE CHIEF, U.S. FOREST SERVICE, 
                U. S. DEPARTMENT OF AGRICULTURE

    Ms. Wagner. There we go. Mr. Chairman, Ranking Member 
Grijalva, and Members of the Subcommittee, I am happy to be 
here today to offer the Administration's remarks on H.R. 2621, 
the Chimney Rock National Monument Establishment Act.
    Chimney Rock was designated as an archeological area and a 
national historic landmark in 1970. It lies within the San Juan 
National Forest and is surrounded by the Southern Ute Indian 
Reservation. The site remains archeologically and culturally 
significant to many descendant tribes. The purpose of the 
monument would be to preserve, protect and restore the 
nationally significant resources of Chimney Rock and adjacent 
land and provide for public interpretation and recreation 
consistent with the protection of the resources.
    Mr. Tipton and Mr. Bennet did a wonderful job describing 
those significant national resources. Those resources in 
addition to the strong bipartisan effort and strong community 
support for the monument establishment supports the merits of 
designating this area as a national monument, and the 
Department supports H.R. 2621.
    I would like to offer several just minor modifications that 
are detailed in my written testimony that would improve our 
ability to manage resources in the area. And in conclusion, the 
Forest Service looks forward to working with the Subcommittee 
to meet the intent of the bill. I look forward to answering any 
questions you might have.
    [The prepared statement of Ms. Wagner follows:]

    Statement of Mary Wagner, Associate Chief, Forest Service, U.S. 
Department of Agriculture, Concerning, H.R. 2621, Chimney Rock National 
                       Monument Establishment Act

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide the views of the Department of Agriculture on 
H.R. 2621, the ``Chimney Rock National Monument Establishment Act''. 
While the Department supports H.R. 2621, I would like to offer 
modifications that would address some technical concerns with the bill 
and which would improve our ability to manage resources in the area.
    Designated as an Archaeological Area and National Historic Landmark 
in 1970, Chimney Rock lies on 4,100 acres of San Juan National Forest 
land surrounded by the Southern Ute Indian Reservation. Between A.D. 
900 and 1150, the ancestors of modern Pueblo Indians occupied the lands 
surrounding Chimney Rock, and the site remains archaeologically and 
culturally significant to many descendant tribes. At 7,600 feet, 
Chimney Rock is also the most northeasterly and highest Chacoan site 
known. Chacoan culture refers to the way of life of ancient ancestors 
of modern Pueblo Indians and continues to be important to the native 
people in the region.
    The Forest Service values archaeological and cultural resources and 
considers it part of the agency's mission to preserve and interpret 
them for the public. We believe the rich history, spectacular 
archaeological, cultural, scientific, watershed, and scenic resource 
values, as well as community support, merits the designation of the 
area as a National Monument.
    Section 3 of H.R. 2621 would establish the Chimney Rock National 
Monument in the State of Colorado by designating 4,726 acres 
surrounding the Chimney Rock Archaeological Area within the San Juan 
National Forest as a National Monument as depicted on the map titled 
``Boundary Map, Chimney Rock National Monument'' dated January 5, 2010. 
The purpose of the monument would be to preserve, protect, and restore 
the nationally significant archaeological, cultural, historic, 
geologic, hydrologic, natural, educational and scenic resources of 
Chimney Rock and adjacent land; and to provide for public 
interpretation and recreation consistent with the protection of the 
resources.
    Section 4 of the bill addresses the administration of the proposed 
National Monument. It provides for continued use of the Monument by 
members of Indian tribes for traditional and cultural uses. The 
Secretary of Agriculture would also be authorized to allow uses of the 
Monument consistent with the purposes of its establishment. These uses 
include: vegetative management treatments including timber harvest and 
the use of prescribed fire only if the Secretary deems it necessary to 
address the risk of wildfire, insects, or diseases; scientific 
research; the use of mountain bikes and motorized vehicles; 
installation, construction and maintenance of a public utility right of 
way under certain circumstances; and grazing in existence on the date 
of enactment of the bill. We feel that the continued use of this area 
for hunting and other recreational use compatible with the designation 
should also be explicitly addressed in this section.
    Section 4(j) references the Department of Interior when designating 
a manager; this needs to be corrected to read ``Department of 
Agriculture''. Additionally, 4(i) would provide that signs, fixtures, 
alterations, or additions needed in connection with the designation or 
advertisement of the Monument may be paid for only with non-federal 
funds or amounts made available of such purposes in the previous 
appropriation acts. While we appreciate the concern with limiting the 
costs associated with designation of the Monument, this provision may 
undercut the ability of the Forest Service to meet the objectives of 
the bill.
    Section 5 would require the Forest Service to develop a management 
plan not later than 3 years after the date of enactment and in 
consultation with Indian Tribes with cultural or historic connections 
to the Monument. The management plan must identify the authorized uses 
for the Monument. In developing the management plan, the Secretary 
would provide an opportunity for comment to the public and such 
entities as State, Tribal government, local, and national organizations 
with an interest in the management and use of the Monument. The San 
Juan National Forest land management plan would have to be amended to 
incorporate the management plan for the Monument.
    Section 6 allows the Secretary to acquire land and any interest in 
land within or adjacent to the boundary of the National Monument by (1) 
purchase from willing sellers with donated or appropriated funds; (2) 
donation; or (3) exchange.
    Section 7 of the bill would withdraw all Federal land within the 
national monument, subject to valid and existing rights, from entry, 
appropriation, or disposal under the public laws; location, entry, and 
patent under the mining laws; and from operation of the mineral 
leasing, mineral materials, and geothermal leasing laws except for 
issuance of gas pipeline rights-of-way within existing easements. 
Section 8 of the bill would stipulate that nothing in this Act affects 
anything related to reserved water rights, tribal rights, fish and 
wildlife jurisdiction, and adjacent uses.
    In conclusion Mr. Chairman, the Forest Service looks forward to 
working with you and the Subcommittee to carry out the intent of the 
bill. I would be happy to answer any questions you may have. Thank you.
                                 ______
                                 
    Mr. Bishop. Thank you. We will turn now to Ms. Young. The 
first bill that the Director talked about was the one of which 
you are concerned, the Gold Star Mothers act, so we will talk 
about that one. Then we will actually turn to Mr. Fowler, give 
you a chance to talk about the plaque. And then finally, Mr. 
Lightfoot, if you would talk about what the Associate Chief of 
the Forest Service just mentioned, I would appreciate that.
    So five minutes each. Ms. Young, you are on.

             STATEMENT OF JUDITH C. YOUNG, CHAIR, 
         GOLD STAR MOTHERS NATIONAL MONUMENT FOUNDATION

    Ms. Young. All right. Mr. Chairman and Members of the 
Committee----
    Mr. Bishop. I don't think your microphone is on.
    Ms. Young. All right, OK.
    Mr. Bishop. Perfect.
    Ms. Young. Thank you. Mr. Chairman and Members of the 
Committee, good morning. I am Judith Young, Chairman of the 
National Monument Foundation, and I want to thank you for the 
opportunity to be here today. I also want to thank the 
Committee for your work over the years to enhance the American 
experience through the national park system, our parks, our 
public lands and specifically our natural monuments.
    Through your Committee's legislative initiatives and 
dedicated work, you have permitted the American people, both 
young and old, to reflect, to remember and to honor the 
sacrifices of our men and women in uniform and their families 
through the magnificent memorials and monuments that are on the 
National Mall and the other locations throughout the great 
country of ours.
    Today I am privileged to speak to you in support of H.R. 
1980, the Gold Star Mothers National Monument Act of 2011. I 
want to personally thank Representative Jon Runyan for 
introducing this important legislation and the bill's 63 
cosponsors, including seven Members of the House Committee on 
Natural Resources.
    Throughout our history the fighting spirit of the American 
warrior has never been questioned. The men and women of our 
Armed Forces continue to display their valor in the finest 
traditions of the generations who have served since the 
Continental Army. We, the American people, continue to be 
blessed by their acts of bravery and selfless service.
    At the same time, the families of our military members also 
serve and sacrifice in their own personal way. The Gold Star 
tradition has been around for nearly a century as a reminder of 
their sacrifice. During World War I, flags were displayed in 
homes, businesses, schools and churches bearing the blue star, 
which represented each member who was serving. If the service 
member gave their life, then a gold star was replaced over the 
blue one.
    For this simple but powerful expression of love and 
devotion came the distinction of being a Gold Star Mother. 
These are the mothers who rocked the cradle of our military men 
and women. Being a Gold Star Mother is not a status that one 
pursues. Rather, it is a state of being that descends upon us 
as a result of having raised our children with the spirit and 
sense of duty for service to our country.
    With that knock on the door, that fateful day our lives are 
changed forever. But as unwelcome as the distinction of being a 
Gold Star Mother might be, we have chosen to transform our loss 
and our grief into service to others. We believe that we can 
honor the legacy of our sons and daughters by serving others.
    This brings me to the current legislation and our efforts 
to establish a national monument here in the National Capital 
region. The region is replete with monuments and memorials to 
the warrior and rightly so. But the sacrifices of families go 
largely unrecognized except perhaps a comment during a speech.
    The purpose of the Gold Star Mothers National Monument is 
to honor those mothers who know the grief of losing a son or 
daughter in the service of our country. It will also promote a 
bond of kinship and engage support for our veterans who have 
stepped forward and answered the call to duty and defense of 
our country. In large measure, by honoring the mothers, it will 
recognize and honor the sacrifices of each of the families.
    Over the years, Gold Star Mothers have collectively 
invested millions of volunteer hours in support of our warriors 
and their families and personal service at our Nation's 
veterans hospitals, to individual veterans in our local 
communities. In serving this way, the mothers have turned their 
loss into a positive force for others. Our executive director 
and sculptor of the monument, which is Andrew Chernak, is a 
Vietnam veteran, and he also is a Purple Heart recipient, he 
has said it perhaps the best. If you want to know quiet 
greatness, spend a little time in the presence of a Gold Star 
Mother.
    As I am sure the Members of this Committee fully understand 
and appreciate, the significance of a monument or a memorial is 
not only in the structure itself but also in its placement. To 
provide the greatest honor, monuments need to be placed where 
they can be easily accessed and seen by the greatest number of 
people. To do this otherwise would convey the impression, 
rightly or wrongly, that the purpose of this monument has less 
significance and standing.
    Although there are many locations, Arlington is the 
national resting place of warriors and a symbol of the national 
hometown cemeteries across the country where our sons and 
daughters have eternal rest. It is our hope and desire to see a 
place near the visitor's center at Arlington National Cemetery. 
Everyone laid to rest in Arlington had a mother who nurtured 
them.
    And I just want to say the mothers are not military. Their 
sons and daughters were, but the mothers themselves are not 
military. So the other gentleman that said that we should not 
be reserve because of the military, that doesn't hold true to 
us. And we are not asking to be on the Mall.
    [The prepared statement of Ms. Young follows:]

                 Statement of Judith C. Young, Chair, 
      Gold Star Mothers National Monument Foundation, on H.R. 1980

    Mister Chairman and members of the Committee, good morning. I am 
Judith Young, the Chair of the Gold Star Mothers National Monument 
Foundation, and I thank you for the opportunity to be here today.
    I also want to thank the Committee for your work over the years to 
enhance the ``American Experience'' through the National Park System, 
our forests and public lands, and specifically through our national 
monuments.
    Through your Committee's legislative initiatives and dedicated work 
you permit the American people (both old and young, alike) to reflect, 
to remember, and to honor the sacrifices of our men and women in 
uniform and their families through some of the magnificent memorials 
and monuments here on the National Mall, and many other locations 
throughout this great country of ours.
    Today I am privileged to be able to speak with you in support of 
H.R. 1980, The Gold Star Mothers National Monument Act of 2011. I want 
to personally thank Representative Jon Runyon for introducing this 
important legislation and the bill's 63 Co-Sponsors, including 7 
members of the House Committee on Natural Resources (Bordallo, Denham, 
Flores, Garamendi, Johnson, Lamborn, Pallone).
    Throughout our history, the fighting spirit of the American Warrior 
has never been questioned. The men and women of our Armed Forces 
continue to display their valor in the finest traditions of the 
generations who have served since the Continental Army. We, the 
American people, continue to be blessed by their acts of bravery and 
selfless service.
    At the same time, the families of our military members also serve 
and sacrifice in their own personal way.
    The Gold Star tradition has been around for nearly a century as a 
reminder of their sacrifices. During World War I, flags were displayed 
in homes, businesses, schools and churches bearing a blue star 
representing each member of the family who was serving in harm's way. 
If the service members gave their life, a gold star was stitched over 
the blue one. From this simple, but powerful, expression of love and 
devotion came the distinction of being a Gold Star Mother.
    Being a Gold Star Mother is not a status that one pursues. Rather, 
it is a state of being that descends upon us as a result of having 
raised our children with the spirit and sense of duty for ``service to 
country.'' With the knock on the door on that fateful day, our lives 
are forever changed. But as unwelcome as the distinction of being Gold 
Star Mother might be, we have chosen to transform our loss and grief 
into service to others. We believe that we can honor the legacy of our 
sons and daughters by serving others.
    That brings me to the current legislation and our efforts to 
establish a national monument here in the National Capitol Region. The 
region is replete with monuments and memorials to the Warrior (and 
rightly so), but the sacrifices of the families go largely 
unrecognized--except perhaps with a comment during a speech.
    The purpose of the Gold Star Mothers National Monument is to honor 
the Mothers who know the grief of losing a son or daughter in the 
service of our country. It will also promote a bond of kinship and 
engage support for our Veterans who have stepped forward and answered 
the call to duty in defense of our nation. In large measure, by 
honoring the mothers it will recognize and honor the sacrifices of each 
family.
    Over the years Gold Star Mothers have collectively invested 
millions of volunteer hours in support of our Warriors and their 
families, in personal service at our nation's Veterans hospitals, and 
to individual Veterans in their local communities. In serving this way, 
the Mothers have turned their loss into a positive force for others. 
Our Executive Director and the Sculptor of the monument, Andrew 
Chernack, has perhaps said it best: If you want to know quiet 
greatness, spend a little time in the presence of a Gold Star Mother.
    We believe it only fitting and proper that through H.R. 1980 a 
national monument be established and authorized for placement here in 
the National Capitol Region. Our hope and desire is to see it placed 
near the Visitor's Center at Arlington National Cemetery. Although 
there may be other locations, Arlington is the national resting place 
of warriors and is emblematic of other national and hometown cemeteries 
across the country where our sons and daughters have eternal rest. 
Everyone laid to rest in Arlington had a mother who nurtured them, 
worried about them and prayed for them. We therefore believe it fitting 
that a monument to Gold Star Mothers should be placed nearby.
    As I am sure the members of this Committee fully understand and 
appreciate, the significance of a monument or memorial is not only in 
the structure itself, but also in its placement. To provide the 
greatest honor, monuments need to be placed where they can be easily 
accessed and seen by the greatest number of people. To do otherwise 
will convey the impression--rightly or wrongly--that the purpose of the 
monument has less significance and standing than it otherwise would 
have if properly located.
    I want to reinforce the provision of H.R. 1980 regarding expenses. 
All costs associated with the Gold Star Mothers National Monument will 
be borne through private funds raised through work of the Gold Star 
Mothers National Monument Foundation. No Federal funds are being 
requested or expected. Our fund raising efforts are already underway.
    America's Gold Star Mothers proudly honor those who fought, those 
who died, and those who did not return from all prior wars and 
conflicts. It is only proper that we honor them with the Gold Star 
Mothers National Monument. I therefore urge your favorable 
consideration of H.R. 1980.
    Again, I thank you for privilege of being able to speak with you 
today.
                                 ______
                                 
    Mr. Bishop. Thank you, ma'am. I appreciate your testimony. 
We will now turn to Mr. Fowler for your comments. First of all, 
we thank you sincerely for your service to this country. We are 
honored to have you here. We would like to hear from you for up 
to five minutes about the plaque issue, sir.

             STATEMENT OF GEORGE ``POPPY'' FOWLER, 
                      WORLD WAR II VETERAN

    Mr. Fowler. Thank you, Mr. Chairman. This is relatively new 
to me. Gentlemen, in relation to H.R. 2070, my name is George 
A. Fowler of Coolville, Ohio. I have been asked to give 
testimony to a cause that recently came to my attention.
    On June 6, 1944, prior to D-Day, our President, Franklin 
Roosevelt, desired to have a national day of prayer for the 
upcoming undertaking. I feel with no doubt that it would be 
appropriate that this prayer be inscribed in some manner at the 
World War II Memorial.
    Those reading this prayer would be able to recall 
sacrifices made by our military, also those on the home front. 
This prayer came at a perilous time, yet it was answered in 
victory at a dear cost of lives. Today this prayer can pertain 
to any military action. Under present circumstances, it is also 
appropriate. I feel this prayer also pertained to other 
military operations at this time.
    On June 6, 1944, the Marianas campaign was underway. I had 
the privilege to participate as a radio gunner on the dive 
bomber from the carrier Essex in Air Group 15. It was only by 
the grace of God that I returned to my family. Also, those 
reading this prayer may look at our great Nation and ask what 
may I do to keep this freedom alive and also remembering the 
loved ones that were lost.
    May God bless all in making this decision. Thank you for 
your time. And, sir, I remain your servant.
    [The prepared statement of Mr. Fowler follows:]

 Statement of George `Poppy' Fowler, Veteran of World War II, on H.R. 
                                  2070

    Gentlemen and women in relation to H.R. 2070.
    My name is George A. Fowler of Coolville, Ohio. I have been asked 
to give testimony to a cause that recently came to my attention.
    On June 6th, 1944, prior to D-Day, our President Franklin Roosevelt 
desired to have a national day of ` for the upcoming undertaking.
    I feel, with no doubt, that it would be appropriate that this 
prayer be inscribed in some manner at the World War II Memorial.
    Those reading this prayer will be able to recall the sacrifices 
made by our military, also those on the home front. This prayer came at 
a perilous time, yet it was answered in victory at a dear cost of 
lives.
    Today, this prayer can pertain to any military action. Under 
present circumstances, it is also appropriate.
    I feel this prayer also pertained to other military operations at 
that time.
    On June 6, 1944, the marvelous campaign was underway. I had the 
privilege to participate as a radio-gunner on the dive bomber from the 
carrier Essex - air group 15.It was only by the Grace of God that I 
returned to my family.
    Also, those reading this prayer may look at our great nation and 
ask what I may do to keep this freedom alive and also remembering loved 
ones.
    May God bless all in making this decision. Thank you for your time.
    I remain your servant.
                                 ______
                                 
    Mr. Bishop. Thank you for your time and effort and 
testimony. Mr. Lightfoot, can I interrupt here for just a 
second? I apologize for this. But in our first panel, Senator 
Hatch, as I said, was supposed to be part of our first panel, 
and he was held up by speaking on the Senate Floor. And he has 
now arrived and joined us on the dais. With all due respect, if 
I could insert Senator Hatch here, and then we will hear your 
testimony, which is about the one bill that relates to the 
Forest Service in particular.
    Senator Hatch, we are happy to have you here, and we would 
recognize you now at this time for any comments you wish to 
make.

STATEMENT OF HON. ORRIN HATCH, A UNITED STATES SENATOR FROM THE 
                         STATE OF UTAH

    Senator Hatch. Well, thank you, Chairman Bishop, Ranking 
Member Grijalva, and Members of this important Committee. And I 
want to thank the panel for their courtesy.
    I thank you for the opportunity to share a few remarks on 
H.R. 3155, the Northern Arizona Mining Continuity Act of 2011, 
introduced by Congressman Trent Franks of Arizona. I have 
cosponsored a companion bill in the Senate, S. 1690, with 
Senator John McCain of Arizona, and I would like to recognize 
Supervisor Buster Johnson of Mohave County, Arizona, who will 
testify here today.
    Supervisor Johnson represents the unanimous views of the 
county commissioners from southern Utah who also strongly 
support this legislation. H.R. 3155 would have an impact on the 
Arizona Strip region, which sits directly south of the Utah-
Arizona border and which is very important socially and 
economically to the communities and businesses in southern 
Utah.
    In short, economic activity in the Arizona Strip usually 
means jobs for southern Utahans. Mr. Chairman, the Northern 
Arizona Mining Continuity Act is simply an effort to restore an 
agreement that was forged leading up to the passage of the 
Arizona Wilderness Act of 1984. There will be some who may 
attempt a logical dance to show that the Act did not in fact 
guarantee the right for future uranium mining in this area, and 
I can agree that no one involved in those negotiations believed 
any guarantees were established. But those of us who were 
negotiating the terms of the Arizona Wilderness Act have a 
clear understanding of the process that allowed it to become 
law.
    I submit for the record a letter sent by me and Senator 
Dennis DeConcini dated June 5, 2009, to Secretary of the 
Interior Ken Salazar.
    [The letter to the Secretary of the Interior follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






    Senator Hatch. As you know, Mr. Chairman, Senator DeConcini 
was the Democratic Senator from Arizona at the time that the 
Arizona Wilderness Act was negotiated. Let me just read a 
portion of that letter signed by Senator DeConcini: ``This 
carefully crafted compromise provided new wilderness 
designations to ensure that the Grand Canyon watershed will be 
fully protected and allowed mining and grazing to continue in 
the remaining areas of the region. The agreement led to the 
passing of the Arizona Wilderness Act by large majorities in 
both the House and the Senate.''
    And the letter further states, ``We believe strongly that 
the recent calls for withdrawal of the area in last year's 
questionable House Natural Resources Committee emergency 
resolution violate the spirit of that 1983-84 agreement.''
    Now, Mr. Chairman, I ask that a copy of this letter be made 
part of the record along with my statement, my full statement.
    Mr. Chairman, it is true that no party to those 
negotiations believed that the agreement trumped environmental 
laws or protections for the Grand Canyon. But Secretary 
Salazar's proposed withdrawal of these uranium resources is not 
about threats to the environment or to the Grand Canyon. 
Careful environmental studies by the Bureau of Land Management 
and by the Arizona Geological Survey make it clear that uranium 
mining in this area pose no real threat to the environment, to 
water quality or to the Grand Canyon. In fact, the August 2010 
mineral report by the BLM recognized that withdrawing these 
resources would have far-reaching economic implications for the 
region.
    Now I have heard some complain that different proponents of 
this legislation claim different numbers of job losses related 
to the Secretary's withdrawal. That is the result of different 
assumptions of how much mining activity would take place. 
However, there is no question that this withdrawal will lead to 
a loss of future jobs and economic activity in this depressed 
region of the country. The Secretary is withdrawing these lands 
because he believes that mining activity would be pursued on 
them.
    The proposed withdrawal of this area from mining would be 
the Interior Department's latest move to stifle jobs in rural 
America. It is an unfortunate and dangerous trend that the 
Obama Administration continues to aggressively shut down 
domestic energy production. I cannot remember a time that our 
Nation had a greater need than right now for the high-paying 
jobs, the hefty oil and mineral royalties that would be 
generated for the Federal treasury or the enhanced energy 
security that would come from greater domestic energy 
production.
    President Obama has too often steered our Nation in the 
wrong direction with regard to domestic energy jobs and energy 
security. This legislation will help to correct that course in 
relation to domestic uranium reserves. And as you know, Mr. 
Chairman, the United States is more than 80 percent dependent 
on foreign nations for our uranium needs.
    The legislation before this Committee would increase jobs, 
boost Federal royalties and increase our domestic energy 
security. Once again, Mr. Chairman, I want to thank you and all 
of the Members here, especially Ranking Member Grijalva, for 
holding this hearing today. And I hope this Committee will give 
favorable consideration to H.R. 3155, the Northern Arizona 
Mining Continuity Act. And I apologize for interrupting the 
testimony here today, and I appreciate your great kindness in 
allowing me to go forward.
    [The prepared statement of Senator Hatch follows:]

  Statement of The Honorable Orrin G. Hatch, a U.S. Senator from the 
State of Utah, on H.R. 3155, Northern Arizona Mining Continuity Act of 
                                  2011

    Chairman Bishop, ranking member Grijalva, and members of this 
important committee, I thank you for the opportunity to share a few 
remarks on H.R. 3155, the Northern Arizona Mining Continuity Act of 
2011, introduced by Congressman Trent Franks, of Arizona. I have 
cosponsored a companion bill in the Senate, S. 1690, with Senator John 
McCain of Arizona.
    I would like to recognize Supervisor Buster Johnson of Mohave 
County, Arizona, who will testify here today. Supervisor Johnson 
represents the unanimous views of the county commissioners from 
southern Utah who also strongly support this legislation.
    H.R. 3155 would have an impact on the Arizona Strip region, which 
sits directly south of the Utah/Arizona border, and which is very 
important socially and economically to the communities and businesses 
in southern Utah. In short, economic activity in the Arizona Strip 
usually mean jobs for southern Utahns.
    Mr. Chairman, the Northern Arizona Mining Continuity Act is simply 
an effort to restore an agreement that was forged leading up to the 
passage of the Arizona Wilderness Act of 1984. There will be some who 
may attempt a logical dance to show that the Act did not, in fact, 
guarantee the right for future uranium mining in this area. And I can 
agree that no one involved in those negotiations believed any 
guarantees were established.
    But those of us who were negotiating the terms of the Arizona 
Wilderness Act have a clear understanding of the process that allowed 
it to become law. I submit for the record a letter sent by me and 
former Senator Dennis DeConcini dated June 5, 2009, to Secretary of the 
Interior Ken Salazar. As you know, Mr. Chairman, Senator DeConcini was 
the Democratic Senator from Arizona at the time that the Arizona 
Wilderness Act was negotiated.
    Let me read a portion of that letter signed by Senator DeConcini:
        ``This carefully crafted compromise provided new Wilderness 
        designations to ensure that the Grand Canyon watershed was 
        fully protected and allowed mining and grazing to continue in 
        the remaining areas of the region. The agreement led to the 
        passing of the Arizona Wilderness Act by large majorities in 
        both the House and Senate.''
And the letter further states:
        ``We believe strongly that the recent calls for a withdrawal of 
        the area and last year's questionable House Natural Resources 
        Committee Emergency Resolution violate the spirit of that 1983/
        84 agreement.''
    Mr. Chairman, it is true that no party to those negotiations 
believed that the agreement trumped environmental laws or protections 
for the Grand Canyon, but Secretary Salazar's proposed withdrawal of 
these uranium resources is not about threats to the environment or to 
the Grand Canyon. Careful environmental studies by the Bureau of Land 
Management and by the Arizona Geological Survey make it clear that 
uranium mining in this area pose no real threat to the environment, to 
water quality, or to the Grand Canyon. In fact, the August 2010 Mineral 
Report by the BLM recognized that withdrawing these resources would 
have far reaching economic implications for the region.
    I've heard some complain that different proponents of this 
legislation claim different numbers of job losses related to the 
Secretary's withdrawal. That is the result of different assumptions of 
how much mining activity would take place. However, there is no 
question that this withdrawal will lead to a loss of future jobs and 
economic activity in this depressed region of the country. The 
Secretary is withdrawing these lands, because he believes that mining 
activity would be pursued on them.
    The proposed withdrawal of this area from mining would be the 
Interior Department's latest move to stifle jobs in rural America. It 
is an unfortunate and dangerous trend that the Obama Administration 
continues to aggressively shut down domestic energy production.
    I cannot remember a time that our nation had a greater need than 
right now for the high paying jobs, the hefty oil and mineral royalties 
that would be generated for the federal treasury, or the enhanced 
energy security that would come from greater domestic energy 
production.
    President Obama has too often steered our nation in the wrong 
direction with regard to domestic energy jobs and energy security. This 
legislation will help to correct that course in relation to domestic 
uranium reserves. As you know, Mr. Chairman, the United States is more 
than 80 percent dependent on foreign nations for our uranium needs. The 
legislation before this committee would increase jobs, boost federal 
royalties, and increase our domestic energy security.
    Once, again, Mr. Chairman, I thank you for holding this hearing, 
today, and I hope this committee will give favorable consideration to 
H.R. 3155, the Northern Arizona Mining Continuity Act. Thank you.
                                 ______
                                 
    Mr. Bishop. Thank you, Senator. We appreciate your 
testimony. Once again, I will make you the same offer I made 
your colleagues, that you can stay here if you would like and 
participate with the rest of it. No one else took me up on that 
offer, and I am feeling really personal about this. But if you 
would like to go and have other appointments, I understand that 
as well.
    Senator Hatch. Well, we have so many problems over there, I 
think I had better get back.
    [Laughter.]
    Mr. Bishop. Amen. All right. With that, Mr. Lightfoot, I 
apologize once again for interrupting you. I appreciate your 
patience with that. We will now ask for your testimony on the 
Chimney Rock piece of legislation.

STATEMENT OF RICKY LIGHTFOOT, TRUSTEE AND FORMER PRESIDENT AND 
             CEO, CROW CANYON ARCHEOLOGICAL CENTER

    Mr. Lightfoot. Thank you, Mr. Chairman and Members of the 
Committee. I am here today to speak in support of H.R. 2621, 
the Chimney Rock National Monument Establishment Act. I am here 
as a resident of southwestern Colorado, a representative of the 
professional archeological community and a trustee and former 
president and CEO of the Crow Canyon Archeological Center in 
Cortez, Colorado.
    Crow Canyon is a private, not-for-profit organization that 
employs 50 people and conducts archeological research and 
public education programs in the American Southwest in 
collaboration with American Indians. Chimney Rock is a visually 
striking land form in southwestern Colorado that rises 1,000 
feet above the surrounding flood plain to an elevation of 7,600 
feet.
    The Chimney Rock is nationally important because of a 
unique complex of archeological sites that display the 
architectural design and exquisite stone masonry styles of the 
Chacoan culture. The Chacoan culture flourished for over 300 
years between 850 and 1150 A.D. It was a complex of the 
ancestors of the modern Pueblo Indians of New Mexico and 
Arizona. The Chacoan culture represents the highest achievement 
of Pueblo culture in both architecture, political achievements, 
economy, widespread trade as far as the Valley of Mexico, the 
development of an elite leadership organization. It is a 
massive complex which is best represented and preserved today 
at the Chaco Canyon National Historical Park in northern New 
Mexico.
    Chaco Canyon was designated in 1987 as a UNESCO World 
Heritage Site, and the Chimney Rock site is a part of that 
cultural complex and deserves the same kind of recognition for 
its position as a part of the Chacoan culture. The Chimney 
Rock, as was previously stated, was recognized in 1970 when it 
was listed on the National Register of Historic Places.
    The archeological sites at Chimney Rock are dominated by a 
Chacoan style great house that was built in the eleventh 
century to command a huge view of the surrounding landscape and 
to allow observations of rare astronomical phenomena. Every 
18.6 years, the moon, as seen from the Chacoan Great House, 
rises between two stone spires or chimneys during an event 
known as the Northern Lunar Standstill.
    Two major episodes of construction at the site have been 
tree-ring dated to A.D. 1076 and 1094, both of which were years 
in which this phenomenon occurred. The monument also includes 
many other small sites that are the residences of the local 
community that lived at Chimney Rock before and during the use 
of the Great House. Also, as previously stated, the present-day 
American Indian groups, many Indian groups in the American 
Southwest, look to Chimney Rock as an important part of their 
history and cultural heritage.
    Chimney Rock is already under Forest Service management, 
and under H.R. 2621, this would not change. No additional 
Federal appropriations would be required because of a well-
established and successful public-private partnership between 
the Forest Service and a local nonprofit organization, the 
Chimney Rock Interpretive Association. This nonprofit has 100 
volunteers and five staff members who each year guide tours of 
approximately 11,000 visitors each year to visit the site as 
well as greeting and providing interpretive services to another 
4,000 visitors at a small visitor center located at the site.
    The Chimney Rock Interpretive Association charges a fee for 
the tours, and those fees go toward maintaining the site. The 
monument designation would not require additional funding, in 
part because the visitor's center is already in place and the 
interpretive association would continue to provide tours and 
interpretive services in collaboration with the Forest Service.
    Chimney Rock is a hidden jewel tucked away in the San Juan 
National Forest. Providing monument status is important for two 
reasons. First, the monument designation would give Chimney 
Rock the recognition it clearly deserves and ensure its 
protection in perpetuity. Second, establishing Chimney Rock as 
a monument would enhance economic development in southwestern 
Colorado. It has widespread local support. As Congressman 
Tipton stated, the Archuleta County Commission, the town of 
Pagosa Springs, the Pagosa Springs Chamber of Commerce, the 
Chimney Rock Interpretive Association and many other regional 
businesses, including Crow Canyon, are in support of the 
monument because we believe it would increase tourism and have 
a positive economic impact in the Four Corners region.
    H.R. 2621 also lists archeological research as one of the 
activities permitted in the new monument, and it is important 
that this provision stay a part of the bill so that research 
and interpretation of the archeological sites would continue 
for the benefit of the public. The archeological research is an 
important source of new information about the monument and 
supports the interpretive and educational programs.
    We also support the bill because it protects existing uses 
of the area that do not conflict with preservation of the 
sites, including grazing and access by American Indians for 
religious purposes. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Lightfoot follows:]

Statement of Ricky R. Lightfoot, Trustee and Former President and CEO, 
Crow Canyon Archaeological Center, Cortez, Colorado, in Support of H.R. 
                                  2621

    I am here today to speak in support of H.R. 2621, the Chimney Rock 
National Monument Establishment Act, which would designate Chimney Rock 
in southwestern Colorado as a national monument. I am a resident of the 
region, a representative of the professional archaeological community, 
and a trustee of the Crow Canyon Archaeological Center in Cortez, 
Colorado. Crow Canyon is a private, not-for-profit organization that 
employs 50 people and conducts archaeological research and public 
education programs in the American Southwest in collaboration with 
American Indians.
    Chimney Rock is a visually striking landform in the southern 
Colorado Rockies that rises 1,000 feet above the surrounding floodplain 
to an elevation of 7,600 feet. Chimney Rock is nationally important 
because of a unique archaeological site complex that exhibits the 
architectural design and exquisite stone masonry styles that are 
characteristic of the Chaco culture, an ancient society whose members 
were ancestors of modern Pueblo Indians of New Mexico and Arizona. 
Chaco culture flourished for three centuries, between A.D. 850 and 
1150, with its political and religious center located in north central 
New Mexico, a place preserved today as Chaco Canyon National Historical 
Park. The significance of these spectacular ruins at Chaco Canyon was 
recognized in 1987 when the park was designated a UNESCO World Heritage 
Site. Chimney Rock is located approximately 90 miles northeast of Chaco 
Canyon, and it served as an outpost in the Chaco regional settlement 
system. The national importance of Chimney Rock as a cultural site was 
recognized in 1970 when it was listed on the National Register of 
Historical Places.
    The archaeological sites at Chimney Rock are dominated by a Chaco-
style ``great house'' built in the late eleventh century to command a 
huge view of the surrounding landscape, and specifically to allow 
observations of rare astronomical phenomena. The great house at Chimney 
Rock is at the highest elevation of any Chacoan great house, and it is 
positioned precisely to serve as a lunar observatory. Every 18.6 years, 
the moon, as seen from the Chacoan great house, rises between two stone 
spires, or chimneys, during an event known as the Northern Lunar 
Standstill. Two major episodes of construction at the site have been 
tree-ring dated to AD 1076 and 1094, both of which are years in which 
the Northern Lunar Standstill would have occurred. The Monument would 
also include a large number of smaller sites that are the residences of 
the local community that lived at Chimney Rock before and during the 
use of the great house. Present-day American Indian groups in the 
Southwest consider Chimney Rock to be an important part of their 
history and cultural heritage and especially many Pueblo Indian groups 
who trace their descent from the people who lived in the Four Corners 
area centuries ago.
    The importance of the Chimney Rock archaeological complex was 
recognized as early as the 1920s by the Colorado Historical Society, 
which carried out the first excavations there from 1920 to 1928. The 
University of Colorado collaborated with the Forest Service in the 
early 1970s to develop the site for visitor access. University of 
Colorado researchers have worked at Chimney Rock several times since 
then, including as recently as 2009.
    Chimney Rock is already under Forest Service management, and under 
the H.R. 2621 this would not change. No additional appropriations would 
be required because of a well-established and successful public-private 
partnership between the Forest Service and a local not-for-profit 
organization, the Chimney Rock Interpretive Association (CRIA). The 
Chimney Rock great house site has been open for public visitation since 
the 1970s, and since 1988 the Chimney Rock Interpretive Association has 
provided site tours and interpretive information at the site. Currently 
about 100 CRIA volunteers and 5 staff members lead two-hour walking 
tours for about 11,000 visitors a year and give interpretive 
information to another 4,000 people at a small visitors' center. The 
Chimney Rock Interpretive Association charges a fee for the tours, and 
those fees go into maintaining the site. Monument designation would not 
require any additional federal funding because visitor facilities are 
already in place, and the Chimney Rock Interpretive Association would 
continue to give tours and prepare educational materials for visitors 
in collaboration with the Forest Service.
    Chimney Rock is a hidden jewel tucked away in the San Juan National 
Forest National Forest. Providing national monument status is 
imperative at this time for two reasons. First, monument designation 
would give Chimney Rock the recognition it clearly deserves and ensure 
its protection in perpetuity. Second, establishing Chimney Rock as a 
monument would enhance economic development in southwestern Colorado. 
Monument designation has strong local support from the Archuleta County 
Commission, the Town of Pagosa Springs, the Pagosa Springs Chamber of 
Commerce, the Chimney Rock Interpretive Association, and countless 
other regional businesses and organizations such as Crow Canyon that 
would benefit from the increased tourism afforded by national monument 
status. Chimney Rock is related to other major archaeological 
attractions in southwestern Colorado and northwestern New Mexico, 
including Chaco Canyon National Historical Park, Aztec Ruins National 
Monument, and Mesa Verde National Park. These sites attract visitors 
from all over the nation and the world. With the added visibility that 
national monument status would bring, Chimney Rock would increase 
heritage tourism in Archuleta County and in the Four Corners region. 
That will translate into additional jobs in the private sector 
businesses in the region.
    H.R. 2621 lists archaeological research as one of the activities 
permitted in the new Monument, and it is important that this provision 
stay in the bill so that research and interpretation of the 
archaeological resources would continue for the benefit of the public. 
The bill does not request or require any additional federal funding for 
research, but states that well-designed research will be permitted. 
Archaeological research has been and will continue to be one of the 
sources of new information about the Monument that supports 
interpretive and educational programs.
                                 ______
                                 
    Mr. Bishop. Thank you. We appreciate the panel. We ask you 
to stay there for questions potentially from those up here on 
the dais. I will go last obviously. Mr. Lamborn, I will 
recognize you for questions if you have any.
    Mr. Lamborn. Thank you, Mr. Chairman, and thank you all for 
being here. And I want to thank the sponsors of these bills. I 
think these are all excellent pieces of legislation. And I 
particularly want to single out my friend and colleague from 
Colorado, Representative Tipton, for this Chimney Rock bill. 
And maybe I have a little bit of a vested interest. I represent 
another part of Colorado, and if people are coming to see some 
of the natural beauty of Colorado in another part of the state, 
which this will increase, then they are also going to come 
through my part of the state, Colorado Springs, and spend their 
tourism dollars there as well perhaps.
    But beyond that, this is just a good thing to do because 
Colorado has such amazing natural beauty, and this highlights a 
certain portion, and it will bring it to people's attention so 
they can enjoy the lovely creation that we have all been 
blessed with in this world, especially in our corner of the 
world in Colorado.
    So I want to thank the representative for bringing this 
legislation. And at this point, Mr. Chairman, I don't have any 
further questions. I would like to yield to my colleague from 
Colorado if he wants to use the extra time. Otherwise, I will 
just yield back to you, Mr. Chairman.
    Mr. Tipton. Well, thank you, Congressman Lamborn. I 
appreciate that, and I think you speak to something that no 
matter where we come from, we recognize particularly in this 
economic climate we are all in this together, and we 
particularly have a great resource in the State of Colorado. 
And I would like to thank the panel for being here as well and 
would like to recognize my friend and a colleague from the 
standpoint that I had the privilege of being able to serve on 
the board for Crow Canyon Archeological Center, and in my 
mind's eye, I think it is probably the most advanced 
archeological research center in the United States. Ricky was 
CEO and president of that and I think elevated that to a very 
high level, and so your opinion particularly on this is 
important.
    Ricky, can you maybe--I don't particularly recall, but 
would it be reasonably accurate to say down at Mesa Verde 
National Park that we get three-quarters of a million visitors 
a year coming into that park?
    Mr. Lightfoot. That is right, about three-quarters of a 
million a year. I think the economic impact of the monument is 
in part because of the additional attention that it gets as a 
monument rather than a Forest Service archeological area, and 
also many of those dollars are through private organizations 
that are promoting tourism throughout the entire region. The 
grand circle concept of getting people to drive around and 
visit these national parks, national monuments and 
archeological treasures are really part of how the private 
industry takes advantage of these kinds of congressional 
actions.
    Mr. Tipton. Yes. Has it been your experience working in the 
archeological field, because I know through Crow Canyon you 
have day digs, a lot of school programs, that as we create an 
awareness that we actually enhance our ability to be able to 
preserve and to be able to grow the knowledge for the rest of 
the country, for our citizenry?
    Mr. Lightfoot. Well, certainly working with educating 
children in the local area, it improves the protection for 
those sites because the archeological treasures of the 
Southwest have always been vulnerable to vandalism. And one of 
the best ways to counteract that is not through law enforcement 
because there are just too many acres of land out there that 
can't be policed but through public education and getting 
people to appreciate the value of what they have by not 
destroying sites rather than seeing people take something away 
from the American public by looting sites.
    Mr. Tipton. You know, and if I missed it, I do apologize, 
but I thought it was pretty remarkable. Chimney Rock, one of 
three locations in the world that are used to be able to follow 
this lunar event that happens every 18.6 years as the moon 
traverses from its southernmost rising point to the 
northernmost rising point, what are those other locations? Is 
it Stonehenge, and is there one in Scotland? Is that accurate?
    Mr. Lightfoot. I am not sure what those other locations 
are, but I know that it is characteristic of the Chacoan 
culture to really position sites carefully with respect to 
solar and lunar observatories or to position sites or to create 
these kinds of observatories where rare lunar phenomena as well 
as the solstices and equinoxes are just a part of integration 
of how they chose to build their sites, the locations and the 
orientations and so forth. So it is very much a part of that 
culture that is often unrecognized or underappreciated to the 
extent to which they understood the movement of the 
astronomical bodies.
    Mr. Tipton. OK. Thank you.
    Mr. Bishop. Thank you. Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. Just a couple of 
quick clarification questions and a request. And I too want to 
say that the Chimney Rock designation from the comments that I 
have heard today is something that is very important and 
needed. I would just like to tell my colleagues because it is 
such a special place, as the gentleman just talked about, let 
us hope nobody stumbles onto some uranium in the process 
because it could jeopardize the whole thing.
    Ms. Young, if I may, and if you would provide us the 
courtesy if you feel like it, if you could provide us the name 
and the service branch for your family member so that that can 
be part of the record as well.
    Ms. Young. My son was a Marine. He was in reconnaissance. 
And his name was Sergeant Jeffrey Young. He was 22 years old. 
He was killed in the Marine barracks bombing on October 23, 
1983.
    Mr. Grijalva. Thank you. I appreciate that.
    Ms. Wagner, two quick questions. H.R. 2621, the bill 
appears to include a mistaken reference to an employee of the 
Department of the Interior as manager of the monument. That 
needs to be a Forest Service designation, correct?
    Ms. Wagner. Right. That is one of the little technical 
modifications in the written testimony we are suggesting.
    Mr. Grijalva. OK. And I am assuming the next technical 
point would be can you explain how the prohibition of Federal 
funds for signs, fixtures, alterations, additions that contain 
within the bill, is that going to impact the ability to manage 
that designation properly?
    Ms. Wagner. Yes. We think the flexibility to use the great 
partnerships, the public-private partnership that has been 
cultivated, is really going to be beneficial to the long-term 
management of the site. So we would favor the ability to use 
private resources, volunteers, as well as Federal resources to 
continue the stewardship of the monument.
    Mr. Grijalva. OK. Appreciate it. Yield back.
    Mr. Bishop. Thank you, Representative Grijalva.
    Representative Tipton, do you have five minutes of 
questions for your own?
    Mr. Tipton. Thank you, Mr. Chairman. I won't use all of 
that. Ranking Member, I thank you for those questions and 
certainly appreciate your answers. You know, we do have a 
couple of tweaks that we will certainly be able to make as this 
bill advances, and I do appreciate that. And I guess I would 
just like to close again with a comment following up on Mr. 
Lightfoot's comments in regards to the uniqueness of this.
    Here in the United States we have a location that is 
probably only replicated, but in a different form across the 
oceans that was established by the Chacoan culture, a unique 
American treasure that is here that is well worthy of 
preservation.
    I know from my heart growing up down there as well, the 
love that we see locally and the commitment to be able to 
participate and to volunteer to be able to make this treasure 
protected and accessible and viewable is incredibly important. 
And a good piece of legislation, appreciate the comments from 
the committee and the support on that as well. So, with that, 
Mr. Chairman, I yield back.
    Mr. Bishop. Thank you. We are happy to have Representative 
Kildee here. Mr. Kildee, do you have questions?
    Mr. Kildee. Thank you, Mr. Chairman, but I have no 
questions at this time and would yield back.
    Mr. Bishop. Thank you. That is fine. Representative 
Johnson.
    Mr. Johnson of Ohio. Thank you, Mr. Chairman. Director 
Abbey, a lot of my questions are going to be directed to you 
obviously on my legislation. They are going to be quick because 
I have quite a few of them, and I want to make sure I get a 
chance to ask Mr. Fowler some questions as well.
    Are you aware that there are two examples of Congress 
overriding the 2003 law to allow for plaques to be placed on 
the National Mall on existing memorials?
    Mr. Abbey. I am not. And in Congressman----
    Mr. Johnson of Ohio. OK. You are not aware.
    Mr. Abbey. I am not. But if I could, Mr. Chairman, as 
Director of the Bureau of Land Management, I am not an expert 
on the Commemorative Works Act.
    Mr. Johnson of Ohio. OK.
    Mr. Abbey. But we do have an individual here that I would 
like to switch seats with so he could answer your questions, 
Peter Maye with the National Parks Service.
    Mr. Johnson of Ohio. OK. That is fine.
    Mr. Abbey. OK. Thank you.
    Mr. Johnson of Ohio. Well, I still have some questions for 
you, Mr. Abbey, so don't run off too far.
    Mr. Abbey. I will be back. I will be back.
    Mr. Johnson of Ohio. So are you aware of the two instances?
    Mr. Maye. Yes, I am.
    Mr. Johnson of Ohio. OK. You are aware. What are the first 
three words of the preamble to the Constitution of the United 
States?
    Mr. Maye. We the people.
    Mr. Johnson of Ohio. We the people. So the Congress 
represents the voice of the American people, correct?
    Mr. Maye. That is right.
    Mr. Johnson of Ohio. OK. So, if the Congress decides again 
to override that 2003 law to place a plaque at the World War II 
Memorial commemorating the President's D-Day prayer, do you 
think this Administration should oppose and prevent that 
commemorative from being added?
    Mr. Maye. We have not in the past. I don't see why we ever 
would.
    Mr. Johnson of Ohio. OK. So you would support that if 
Congress passes it?
    Mr. Maye. Yes.
    Mr. Johnson of Ohio. We will press on.
    Mr. Maye. Right.
    Mr. Johnson of Ohio. Do you think that the veterans' 
opinion on the memorial that was built to honor the 400,000-
plus men who gave the ultimate sacrifice and the 14 million who 
served during the war be given priority in this issue?
    Mr. Maye. In our actions, we respond to what the Congress 
tells us to do in terms of commemoration.
    Mr. Johnson of Ohio. OK. Well, that is very good. Mr. 
Abbey, do you know--I am relating back to your testimony. Do 
you know, what is the official motto of the United States? 
Either of you. Do either of you know what the official motto--
Mr. Abbey, I would like to hear from you first.
    Mr. Abbey. In God We Trust.
    Mr. Johnson of Ohio. OK. All right. Then you might be aware 
that the U.S. House overwhelmingly passed a resolution just 
this past Tuesday that reaffirmed the belief that In God We 
Trust is our national motto. In your testimony, you said that 
adding the President's D-Day prayer, a prayer to the God in 
whom our Nation has acknowledged that we trust and whom the 
President acknowledged in whom we trusted, that gave solace and 
comfort to a Nation and to the men and women that were going to 
fight that critical battle on that day, you said that that 
would dilute the central message of the memorial. How so?
    Mr. Maye. The memorial was very carefully planned and 
required an extensive process.
    Mr. Johnson of Ohio. I am aware of that. How will placing 
the President's prayer dilute the--what is the central message 
of the----
    Mr. Maye. It is to commemorate the servicemen who served in 
the war.
    Mr. Johnson of Ohio. OK. That is right. That is right. And 
what better way to commemorate that than to recognize what the 
commander-in-chief said on that day? Do you have a personal 
opinion on that?
    Mr. Maye. I do not have a personal opinion on it. I know 
that the memorial is a response to the specific direction of 
the Congress and was developed very carefully, both 
programmatically and design-wise.
    Mr. Johnson of Ohio. That has been waived twice, right?
    Mr. Maye. Yes, it has.
    Mr. Johnson of Ohio. So why wouldn't the Department's 
response simply be that? If the Congress says do it, we have no 
problem with it. Why is there an opposition and these words of 
diluting the central message? How can putting the President of 
the United States' message to the American people and the world 
on D-Day dilute the message of the World War II memorial? I 
don't understand.
    Mr. Maye. The----
    Mr. Johnson of Ohio. I got it. Thank you. I appreciate 
that. OK. No response. You know, and let me say, gentlemen, I 
understand that you are simply testifying on behalf of the 
Department, that you do not oversee the National Mall for the 
Bureau of Land Management. I know that. I do, however, hope 
that I can work with the Secretary to continue this work 
because I think it is so very, very important and meaningful to 
the people who served.
    I hope to get some additional time, and with that, I will 
yield back, Mr. Chairman.
    Mr. Bishop. We will welcome Mr. Gosar. I ask unanimous 
consent that he be allowed to sit on the dais and participate 
in our meetings today. Do you have questions on these 
particular bills?
    Dr. Gosar. I would like to yield my time to my colleague, 
Mr. Johnson.
    Mr. Bishop. OK.
    Mr. Johnson of Ohio. I thank my colleague for yielding.
    Mr. Fowler, is it OK if I call you Poppy?
    Mr. Fowler. Call me anything. I have been called many 
names.
    Mr. Johnson of Ohio. Can you expand a little bit on your 
experiences during World War II and how your faith helped you 
get through the war?
    Mr. Fowler. Well, I had a chance one time to go to become a 
minister, but I turned it down to go to war. Also, at that 
particular time, my minister gave me a testament. I wish I had 
brought it. It is together with duct tape. Within it is many 
things. We all had God within us when we were aboard ship, 
regardless of where it was. Before we took off on flights every 
morning, we either had mass or had a Protestant minister to 
give us a prayer.
    God took us through. God will take this Nation through. It 
said Israel went against God so many times, but he come and he 
said, if you will be my people, I will be your God. It still 
stands today. Without that, this Nation could fail. It is 
prayer today, people, that is keeping this Nation where it is 
supposed to be. If we would all pray for peace, I think it 
would come.
    Mr. Johnson of Ohio. Thank you.
    Mr. Fowler. Not only that, but God played a most important 
part not only in my life but even those who even didn't know 
God.
    Mr. Johnson of Ohio. I have heard it said that there are no 
atheists in foxholes.
    Mr. Fowler. No. And God said also, remember this, greater 
love hath no man than to lay down his life for his friends. We 
left many, many people--we lost over 50 percent of our 
squadron, original squadron, at the bottom of the Pacific Ocean 
or on those islands. Many have not been found or returned even 
yet.
    Mr. Johnson of Ohio. Thank you, Poppy. Are you worried that 
future generations might see the World War II memorial and 
think that the faith of the men and women who served there 
might not have been important to them?
    Mr. Fowler. Well, Congressman Johnson, I saw when I was 
just recently over to the World War II Memorial, when we came 
back to Columbus, there were over 400 people there. Out of that 
400, I would say 100 of them were small children. Would they 
not know why we were there?
    Mr. Johnson of Ohio. Yes.
    Mr. Fowler. And so therefore, even at the memorial visit, 
there were many, many small children asking questions and 
different things and even congratulating what I had done. But I 
did not do it. We left the heroes at the bottom of that ocean.
    Mr. Johnson of Ohio. So you are saying it would be 
important if I may interpret----
    Mr. Fowler. It was very important because it causes them to 
ask questions.
    Mr. Johnson of Ohio. It would be important for our young 
people to see the President's prayer to know the role that 
faith played in his decisions and those of the men that served.
    Mr. Fowler. Yes. Absolutely.
    Mr. Johnson of Ohio. OK. Well, that is why I think the same 
way, and that is why I think this legislation is so important 
to honor the faith of the men, not only the men who fought but 
our President, who offered that prayer. I thank you for your 
heroic service. I am enjoying getting to know you more. I 
enjoyed our trip to the memorial a couple of weeks ago as part 
of the honor flight. I thank you for your testimony today. And, 
Mr. Chairman, thank you again, and Ranking Member Grijalva, for 
holding this important hearing on this legislation. Thank you 
very much.
    Mr. Bishop. Thank you. I appreciate it. Do Members of the 
Committee have other questions? If not, I just have one for Mr. 
Lightfoot. I did not want to run you off of the panel there, 
but very quickly, if no single visitor ever came to see this, 
is there still value in preserving this area?
    Mr. Lightfoot. Well, I would hope that it will increase 
visitation. But, yes, I believe the site deserves protection 
just because of the important information that it contains.
    Mr. Bishop. Good. I appreciate that very much. I do want 
just for the record to note that there was uranium there. They 
mined it. That is why they left. It is gone.
    With that, I want to thank the panel for actually being 
here. I appreciate your testimony. Your written testimony is 
part of the record. Thank you for your time and your attendance 
here.
    We would like to call up the next panel. Mr. Abbey and Ms. 
Wagner, if you would like to stay, that would be kind of you as 
we deal with the next bill. We would also like to call up--who 
am I calling up here? I am slow. Mr. Abbey, Ms. Wagner. Oh, Mr. 
Buster Johnson, who is the Supervisor for Mohave County in 
Arizona; Dr. Karen Wenrich, the research geologist from the 
U.S. Geological Survey, who is retired from that; Mr. Mark 
Trautwein, who is the former staff consultant for the 
Environment, Energy, and Public Lands Committee with the U.S. 
Committee on Interior and Insular Affairs.
    If you would join us at the podium, I would be grateful. 
Our purpose in this panel is to discuss H.R. 3155. Once again, 
we are happy to have you here. As I explained to the second 
panel--I am sure you understand the drill. Your written 
testimony is part of the record. Right now, if there is 
anything else you want to add in addition to that written, that 
is fine as well. We would like to have your oral testimony 
here. Green light means the time is counting down. You have 
five minutes. Yellow light means you have one minute to 
conclude. Red light means we would like you to end at that 
time.
    So once again, thank you for being here as part of this 
testimony. Director Abbey, I appreciate the fact that you did 
not speak toward this bill in the prior panel, and so we would 
recognize first you and then Ms. Wagner to talk about this 
particular bill. And notice that when you go by my rules you 
actually get more time to speak to us. Thank you.
    Mr. Abbey. Thank you.
    Mr. Bishop. So, Director Abbey, if you would go first.

    STATEMENT OF ROBERT V. ABBEY, DIRECTOR, BUREAU OF LAND 
          MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Abbey. Well, thank you, Mr. Chairman, and Members of 
the Subcommittee, for the opportunity to present the 
Administration's views on H.R. 3155. This bill would prohibit 
the Secretary of the Interior from exercising his authority 
under the Federal Land Policy and Management Act to withdraw 
lands in the Grand Canyon watershed from location and entry 
under the 1872 Mining Law.
    The Administration opposes H.R. 3155. We urge the Committee 
to allow the comprehensive environmental review process, which 
was begun more than two years ago, to continue to a final 
decision. This process includes broad participation by 11 
Federal, State, tribal and county cooperators. Interested 
stakeholders in the public have sent in nearly 380,000 comment 
letters.
    We want to emphasize that a final decision on the proposed 
withdrawal has not yet been made and will not be made until 
sometime after the 30-day waiting period. I am accompanied by 
Mary Wagner, Associate Chief of the U.S. Forest Service, who 
can answer questions on management of Forest Service lands.
    The Grand Canyon has long been recognized as one of the 
Nation's most treasured landscapes. It has been a national park 
since 1919, and its cultural significance goes back thousands 
of years. It is a sacred place of origin to many Native 
Americans.
    Likewise, the Grand Canyon is a cornerstone of the region's 
economy. Over 5 million people a year visit the lands in and 
around Grand Canyon. Hunting, fishing, tourism and other 
outdoor recreation generate billions of dollars in economic 
activity. Millions of people living in seven States in the 
United States and in Mexico depend upon the Colorado River for 
water for drinking, irrigation and industrial use as well as 
for hydropower. And of course mineral resources, particularly 
high-grade uranium, are found in this area.
    There are few places in the country where the resource 
management challenges are more difficult or the stakes greater 
than the area surrounding the Grand Canyon. Underground 
aquifers and watersheds extend far beyond the boundaries of the 
national park. Land and water use management decisions affect 
the entire area.
    Science, caution and an eye to future generations must 
guide the management of the Grand Canyon and surrounding lands. 
This is why in July 2009 Secretary Salazar announced a proposed 
withdrawal of these lands from new mining claims for 20 years. 
All other existing uses of these lands continue unaffected. The 
Secretary's action prompted the Bureau of Land Management, 
along with the Forest Service, the U.S. Geological Survey, the 
National Parks Service, the U.S. Fish and Wildlife Service and 
11 other State, tribal and Federal cooperating agencies to 
start a comprehensive effort to analyze the potential impacts 
of the proposed withdrawal.
    We included a 2010 USGS report in this comprehensive 
effort. The report acknowledged uncertainty as data is sparse 
but concluded that more thorough investigation is required to 
better understand groundwater flow paths, travel times and 
contribution from mining. A draft of this comprehensive 
environmental analysis was released in February 2011 for public 
review and comments.
    Based on scientific analysis done thus far, the public 
comments received and the incomplete or unavailable information 
about impacts of chemical and radiation hazards on fish and 
wildlife, springs and waterways, the Secretary selected the 
full 1 million-acre mining withdrawal as the preferred 
alternative. A final decision on a course of action will not be 
made until the Secretary signs a record of decision.
    The Administration opposes H.R. 3155 because it cuts short 
the thorough and deliberative process in which the public and a 
wide variety of stakeholders have engaged since the Secretary's 
July 2009 announcement. As part of a comprehensive and 
responsible energy policy, we will continue to authorize 
development of uranium in northern Arizona, Wyoming and other 
places across this country. Even with a full withdrawal, we 
estimate the development of up to 11 mines in the area over the 
next 20 years, including the four mines that are currently 
authorized.
    The Grand Canyon took thousands of years to create, and the 
process of making important decisions about its future should 
not be cut short.
    Again, Mr. Chairman and Members of the Subcommittee, thank 
you for the opportunity to testify.
    [The prepared statement of Mr. Abbey follows:]
    [The joint prepared statement of Mr. Abbey and Ms. Wagner 
on H.R. 3155 follows:]

     Joint Testimony of Robert V. Abbey, Director, Bureau of Land 
Management, U.S. Department of the Interior, and Mary Wagner, Associate 
 Chief, Forest Service, U.S. Department of Agriculture, on H.R. 3155, 
             Northern Arizona Mining Continuity Act of 2011

    Good morning. Thank you for inviting the Department of the Interior 
and the Department of Agriculture to testify on H.R. 3155, the Northern 
Arizona Mining Continuity Act, which would prohibit the Secretary of 
the Interior from exercising his authority under the Federal Land 
Policy and Management Act (FLPMA) to withdraw lands in the Grand Canyon 
watershed from location and entry under the 1872 Mining Law. The 
Administration opposes H.R. 3155 and urges the Committee to allow the 
comprehensive environmental review process defined in law, begun more 
than 2 years ago, to continue to a final decision. This is a process 
that has not been undertaken by Federal agencies alone, but rather has 
involved the commitment and work of numerous federal, state, tribal, 
and county cooperators, the time of interested stakeholders who 
attended numerous tribal and public meetings, and the care and effort 
of the public, who have sent nearly 380,000 comment letters during this 
review. We want to emphasize that a final decision on the proposed 
withdrawal has not yet been made, but will be sometime after the 
current 30-day waiting period.
Background
    Crafted by the immense power of the Colorado River, the Grand 
Canyon and the greater ecosystem that surrounds it have long been 
recognized as one of the Nation's most treasured landscapes. It is an 
iconic symbol of our country's majesty. While the Grand Canyon has been 
a National Park since 1919, its cultural significance goes back 
thousands of years. The Grand Canyon and its environs are known as home 
or a sacred place of origin to many Native Americans, including the 
Havasupai, Hualapai, Navajo, Hopi, Zuni, Southern Paiute, and others.
    Likewise, the Grand Canyon is a cornerstone of the region's 
economy. Hunting, fishing, tourism, and other outdoor recreation 
generate billions of dollars in economic activity in the Grand Canyon 
area. Far beyond the majestic views of the canyon, millions of people 
living in seven states in the U.S. and in Mexico depend upon the 
Colorado River for water for drinking, irrigation, and industrial use, 
as well as for hydropower. Multiple dams provide for a significant 
portion of the electrical power needs of much of the rural Rocky 
Mountain and Desert Southwest. And, of course, mineral resources, 
particularly high-grade uranium, are found in this area. The National 
Forest System lands in the area are located in the Kaibab National 
Forest, including lands on the Tusayan Ranger District and on the North 
Kaibab Ranger District. These lands are set aside for public recreation 
and a habitat for birds and animals. The Bureau of Land Management 
(BLM) and the U.S. Forest Service take very seriously their 
responsibility to manage these public lands and its unique resources.
    There are few places in the country where the resource management 
challenges are more difficult or the stakes greater than in the area 
surrounding the Grand Canyon. For example, underground aquifers and 
watersheds extend far beyond the boundaries of the park, and as a 
result of this interconnection, land and water use management decisions 
being made throughout this desert region affect the overall ecosystem. 
Lands in this area are managed by many different entities, including 
the National Park Service, the BLM, the U.S. Forest Service, the Kaibab 
Band of Paiute Indians, the Havasupai Tribe, the Hualapai Tribe, the 
Navajo Nation, the State of Arizona, and numerous private landowners.
Analyzing Potential Impacts
    Science, caution, and an eye to future generations must guide the 
management of the Grand Canyon and surrounding lands. It is for these 
reasons that in July 2009, Secretary of the Interior Ken Salazar 
announced a proposed withdrawal of these lands from location and entry 
under the 1872 Mining Law, subject to valid existing rights, for 20 
years. During the segregation period, all other existing uses of the 
lands in question are permissible--with the exception of the location 
of new mining claims. Since the announcement, the BLM along with the 
Forest Service, U.S. Geological Survey, the National Park Service, the 
U.S. Fish and Wildlife Service and 11 other cooperating agencies have 
undertaken a comprehensive effort to analyze the potential impacts of 
the proposed withdrawal and a number of alternatives in accordance with 
the National Environmental Policy Act. As noted above, this process has 
involved a tremendous amount of public engagement, including the 
commitment and effort of the cooperating agencies, which included state 
agencies, counties, and tribes. Nearly 380,000 public comment letters 
have been received and 41 meetings with seven tribes and six public 
meetings have been held. The Draft Environmental Impact Statement (EIS) 
was released on February 18, 2011, followed by a public comment period 
that was extended until May 4, 2011. Four alternatives were analyzed 
that included:
        <bullet>  No withdrawal (which would allow new mining claims to 
        be filed).
        <bullet>  Withdrawal of approximately 300,000 acres for 20 
        years.
        <bullet>  Withdrawal of 650,000 acres for 20 years.
        <bullet>  Withdrawal of approximately 1 million acres for 20 
        years.
    The USGS is playing a substantial role in the NEPA process, and its 
2010 report was included in the Draft EIS. As part of its evaluation, 
the USGS analyzed soil and sediment samples at six sites that 
experienced various levels of uranium mining in the Kanab Creek area 
north of Grand Canyon National Park, including mined and reclaimed 
sites, approved mined sites where operations have been temporarily 
suspended, and exploratory drill sites that were drilled but not mined. 
Uranium and arsenic were two elements consistently detected in the 
areas disturbed by mining in values above natural background levels.
    Samples from 15 springs and five wells in the region contained 
dissolved uranium concentrations greater than the U.S. Environmental 
Protection Agency maximum allowed contaminant for drinking water. The 
springs and wells sampled are close by or in direct contact with 
mineralized orebodies, and the concentrations detected are related to 
natural processes, mining, or both. The USGS also looked at surface 
water in the region. The report found that floods, flash floods, and 
debris flows caused by winter storms and intense summer thunderstorms 
occur in the region and can transport substantial volumes of trace 
elements and radionuclides. The USGS report notes that fractures, 
faults, sinkholes, and breccia pipes occur throughout the area and are 
potential pathways for downward migration of surface water and ground 
water.
    The USGS report acknowledges uncertainty as data is sparse in this 
region and often limited. The timing and location of water quality 
information in the area is important because the potential effects of 
breccia-pipe uranium mining may be localized and appear rapidly or may 
be more dispersed during longer time scales. The data evaluated for 
1,014 water samples from 428 sites indicate that about 70 sites have 
exceeded the primary or secondary maximum contaminant levels for 
certain major ions and trace elements, such as arsenic, iron, lead, 
manganese, radium, sulfate, and uranium. The USGS concluded that a more 
thorough investigation is required to better understand groundwater 
flow paths, travel times, and contributions from mining.
    Based on the analysis that has been done, the public comments 
received, and the incomplete or unavailable information about impacts 
of chemical and radiation hazards on fish and wildlife, springs and 
waterways, the Secretary selected the full one million-acre mining 
withdrawal as the preferred alternative in the Final EIS. This was done 
in consultation with the BLM, the National Park Service, the USGS, and 
the U.S. Forest Service.
    On October 27, 2011 the BLM published the Final Environmental 
Impact Statement. A final decision on a course of action will not be 
made until the Secretary signs a Record of Decision.
H.R. 3155
    H.R. 3155 would prohibit the Secretary of the Interior from 
extending, renewing, or issuing a notice of segregation or withdrawal 
of the public lands and Forest Service lands described in Public Land 
Order (PLO) 7773 without the express authorization of Congress. In PLO 
7773 the Secretary exercised the emergency withdrawal authority to 
withdraw the subject lands until January 2012 to allow sufficient time 
for a final decision to be made on the proposed withdrawal. H.R. 3155 
would also void any such notice of segregation or withdrawal of the 
described lands. The Administration does not support H.R. 3155 because 
it cuts short the thorough and deliberative process in which the public 
and a wide variety of stakeholders have engaged.
    H.R. 3155 is also built on an inaccurate characterization of the 
environmental analysis conducted for the proposed withdrawal. For 
example, the bill states that the Draft Environmental Impact Statement 
(DEIS) ``determined that no conclusive evidence from well and spring 
sampling data that modern-day breccia-pipe uranium operations in the 
northern portion of the Grand Canyon region has impacted the chemical 
quality of groundwater in the regional-aquifer.'' In fact, the DEIS 
instead states that ``incomplete and unavailable information adds to 
uncertainty of analysis'' and cites the potential risks listed above.
Moving Forward
    Uranium, like oil and gas, solar, wind, geothermal, and other 
energy sources, remains a vital component of a responsible and 
comprehensive energy strategy. We will continue to authorize 
development of uranium in northern Arizona, Wyoming, and other places 
across the country. In addition, even if the Secretary ultimately 
selects the preferred alternative as the final decision on the proposed 
withdrawal, new operations can be authorized on valid existing mining 
claims in the proposed withdrawal area. The analysis in the DEIS shows 
that, even with a full withdrawal, development of up to 11 mines in the 
area over the next 20 years, including the four mines currently 
authorized, is reasonably foreseeable.
    Finally, it should be noted that a withdrawal, if determined to be 
appropriate, would not be permanent and would not stop uranium 
development or roads, or other activities typically prohibited in 
wilderness areas. Again, as stated above, all other existing uses of 
the lands in question are permissible--with the exception of the 
location of new mining claims
Conclusion
    The Grand Canyon is a unique treasure that draws tourists from all 
over the world. It is a powerful and inspiring landscape, that 
overwhelms our senses through its immense size--277 river miles long, 
up to 18 miles wide, and a mile deep. It took many millennia to create, 
and the process of making important decisions about its future should 
not be cut short. The Administration takes very seriously its 
stewardship of this iconic landscape, the quality of the region's water 
and the myriad of resources on behalf of the American public.
    Thank you again for the opportunity to testify on H.R. 3155. We 
would be glad to answer your questions.
                                 ______
                                 
    Mr. Bishop. Thank you. Ms. Wagner, do you have additional 
testimony for this particular bill?
    Ms. Wagner. I will just offer that the Bureau of Land 
Management and the Forest Service collaborated on offering 
joint testimony, which has just been delivered by Director 
Abbey. Director Abbey's remarks reflect the Administration 
position on the bill, and I am here to answer any questions 
specific to the Forest Service.
    Mr. Bishop. Thank you. We would like to recognize 
Supervisor Johnson from Mohave County, Arizona, for your 
testimony, please.

           STATEMENT OF BUSTER JOHNSON, SUPERVISOR, 
                     MOHAVE COUNTY, ARIZONA

    Mr. Johnson. Thank you, Mr. Chairman, Ranking Member 
Grijalva, Committee Members. My name is Buster Johnson. I am 
the Chair of the Mohave County Board of Supervisors in Arizona. 
I am here representing the Board of Supervisors and the 
200,000-plus people in our county.
    I also co-chair the Arizona-Utah Economic Coalition 
comprised of Mohave County, Arizona; Washington, Kane, San 
Juan, Garfield Counties in Utah; along with the town of 
Fredonia, which is in Yavapai County, Arizona, and am 
representing their interests as well. Our unemployment rate is 
currently 11 percent. My brothers in the Navajo Nation are at a 
staggering 52 percent.
    I have six resolutions from five Navajo Nation chapters and 
one Navajo township. The resolutions ask for consultation with 
the Federal Government regarding jobs for their people. Mohave 
County has a history of diverse economic opportunities ranging 
from livestock, grazing, to tourism and significantly mining. 
We respect and take a responsibility for protecting the Grand 
Canyon National Park.
    This mining will not take place in the park or anywhere 
close to the Grand Canyon. As you can see from the attached 
slide, the park currently generates over 4 million visitors and 
range from 2 million in 1970 to a high of over 4-1/2 million in 
1993. Tourism generates some $650 million annually in economic 
activity. Most of that activity is on the south rim. And as the 
slide shows, with activity in Mohave County growing 
tremendously in the last 10 years, most of the accompanying 
jobs are low-wage and seasonal jobs, which is consistent with 
the tourist industry.
    So, Mr. Chairman, Mohave County, while it benefits somewhat 
from this activity, would starve if it were dependent upon the 
tourism as a primary source of income. Our county is made up of 
hardworking, middle class Americans who rely on mining and 
service industries connected with the State, Federal and 
private lands on which we live.
    Since 1980, we have had over 260 percent growth rate. 
Fifty-five percent of our population over 25 have a high school 
education or less. Of our 19 industry sectors, mining is the 
third highest in average wage of $51,485 annually. Now compare 
that with tourism, which has the second lowest wage for all 
industries, and you get an average difference of nearly 
$36,000, right at a 70 percent loss of income.
    Our medium household income is a little less than $40,000 
and about twice the average income of a tourism job. You can 
raise a family, buy a house and pay taxes in the mining 
industry. In the tourism industry, you can rent an apartment, 
get a second job and look to the government for assistance.
    As the Federal Government controls 91.7 percent of land in 
the area, with only 5 percent in private hands, without your 
cooperation, there is no economy and no future. I believe we 
have a slide to show that.
    As you can see from the next slide, tourism and visitation 
to the park, the arguments that tourism and mining are mutually 
exclusive activities are simply not substantiated by the facts. 
In 1987, at the time of the Grand Canyon National Park's most 
dramatic visitation growth, the highest level of breccia pipe 
mining also occurred.
    Rather than seeing a drop in visitation, tourism growth 
actually tracked mining and actually increased based on the 
actual facts. Saying that the Grand Canyon will suffer because 
of mines is a bogus straw man. Tourism growth has not suffered 
because of mining and actually does better when mining is in 
full swing.
    The mining that is going to be brought into Mohave County 
and southern Utah means over 1,000 jobs and $29 billion to our 
economy. As a county supervisor for the past 15 years, my goal 
has always been to create a vibrant economy so that our 
children will be able to stay in Mohave County and raise their 
families. What this impending withdrawal will do is rip apart 
one of our economic opportunities to the detriment of the 
people I represent.
    Mr. Chairman, this is wrong. I would like the Ranking 
Member of the Subcommittee to explain to us why he believes we 
cannot protect the Grand Canyon and allow mining to occur at 
the same time. My declaration that these activities are 
compatible is not just wishful thinking. It is historically 
factual.
    The opponents of mining have chosen to ignore the fact that 
mining with environmentally sound reclamation was conducted 
from the early 1980s and that the price of uranium collapsed in 
1993. No mining at all occurred from 1993 to 2010, and the 
Denison Mine, which is now operating, is following and often 
exceeding all environmental and safety laws and has received 
awards for their safety from our Federal Government.
    At the same time, President Obama's Interior Department is 
hellbent on closing off opportunities for some of these safe 
and sound mining activities across northern Arizona. It makes 
utterly no sense, and the Ranking Member and the Secretary of 
the Interior both know it. The fact is that as soon as 
Secretary Salazar ordered these lands to be segregated in July 
2009, corporate investment and exploration flows, and the 
result was immediate.
    The withdrawal is a reckless policy, and responsibility for 
it rests with Ranking Member Grijalva and his co-conspirators, 
the Department of the Interior. I appreciate the fact that 
those who are actually elected to represent the people who live 
in this part of Arizona and Utah are willing to stand in 
support of their people, their families, their jobs. I am 
referring to Representative Franks and Gosar, Flake, along with 
our Senators Kyl and McCain. And I would be happy to answer any 
questions, Mr. Chairman.
    [The prepared statement of Mr. Johnson follows:]

  Statement of Buster Johnson, Commissioner, Mohave County, Arizona, 
      on H.R. 3155: Northern Arizona Mining Continuity Act of 2011

    The Secretary of Interior, Kenneth Salazar plans to deprive the 
people of this nation of 42 percent of all domestic source of uranium 
critical to the national defense.
    He plans to do this by withdrawing from multiple use the over 1 
MILLION ACRES in the Arizona Strip and Kaibab National Forest in 
northern Arizona from multiple use, so that he can end uranium mining 
in the area.
    In laying forth this plan, he is acting as a rogue representative 
of bureaucratic government--operating against the will of Congress, 
directions from the President, and in violation of federal law.
    His actions are those of an appointed official who believes that he 
is free of the law's restraints; he believes, obviously, that he is 
above the law that governs the rest of our American society.
    The members of the Arizona Utah Local Economic Coalition call upon 
the Congress to put a stop to the outlaw proposal by the Secretary. The 
members formed the Coalition when it became clear that the Secretary 
felt himself free to disregard the law.
    His renegade, unilateral plan to withdraw from uranium mining over 
1 MILLION ACRES in the Arizona Strip District of the Bureau of Land 
Management is:
        (1)  harmful to the United States;
        (2)  contrary to Congress' exercise of its Constitutional 
        authority to manage public lands;
        (3)  in violation of Presidential Executive Orders,
        (4)  contradictory to an energy plan led by a fellow cabinet 
        member;
        (5)  in violation of federal statutes and regulations;
        (6)  economically and socially destructive to the citizens of 
        northern Arizona and southern Utah;
        (7)  totally deceitful to citizens of the United States; and 
        contradicted by sound science and economic and social evidence.
    His plan defies the will of Congress. In the 1984 Arizona and Utah 
Wilderness Acts, Congress designated the land as multiple use so that 
Uranium mining could continue.
    Article IV, Section 3, clause 2, provides that: ``The Congress 
shall have power to dispose of and make all needful Rules and 
Regulations respecting the Territory or other Property belonging to the 
United States''
    When Congress acted to designate the Arizona Strip as multiple use 
so that mining could continue, it adopted into law an agreement made 
between ranchers, the uranium industry and environmentalist 
organizations. In exchange for designation of wilderness areas in Utah 
and Arizona, the environmentalists and the Departments of Interior and 
Agriculture, through President Reagan's Secretary of Interior William 
Clark, Secretary of Agriculture John Block and Chief of the Forest 
Service Max Peterson, agreed to leave the Arizona Strip open for 
uranium mining. The Sierra Club, which now actively urges shut down of 
uranium mining, agreed to the land use settlement by Congress.
    Now, 27 years later, the Sierra Club, the ranking member of this 
Committee and Secretary Salazar have set out to unravel the agreement 
that has allowed uranium mining to continue while land managers and 
federal and state environmental quality agencies have assured that no 
environmental harm has been done.
    This Congress has urged local governments and citizens to 
compromise, to collaborate in order to resolve land use issues. 
Congress passed the Owyhee Public Lands Management Act of 2009 which 
embodied a historic agreement by ranchers and environmentalists that 
resolved decades of bitter contention over use of the public lands.
    If the Secretary is allowed to flaunt the will of Congress, as he 
now proposes to do, every local government, every land owner--rancher, 
farmer, miner--will avoid collaborative efforts with organizations that 
lie in wait to undo agreements.
    His plan defies the orders of his superior, President Obama. In two 
Executive Orders issued this calendar year of 2011 the President 
ordered the Secretary and other cabinet members to avoid adverse 
impacts on jobs and economic stability.
    In Executive Order 13563, the President in January, 2011, directed 
that the Secretary and all other Department heads assure that the 
regulatory system was ``promoting economic growth, innovation, 
competitiveness and job creation.'' The Secretary's maverick proposal 
to withdraw the land from uranium mining terminates any possibility for 
economic growth in all of northern Arizona and southern Utah. Evidence 
received by the Coalition during a public hearing on September 7, 2011, 
proved that over 1,000 new jobs will be eliminated, over $40 MILLION in 
annual payroll will be lost, $2 BILLION in federal and state corporate 
income taxes will never be paid, and over $175 MILLION in taxes and 
fees will be lost to local governments.
    The result of the Secretary's proposal will be the exact opposite 
of what the President ordered.
    In Executive Order 13575, the President in June, 2011, directed 
that Secretary Salazar and all cabinet members ``coordinate and 
increase the effectiveness of Federal engagement with rural 
stakeholders including. . .local governments...regarding the needs of 
rural America.'' Every member of the Coalition knows that the Secretary 
did not coordinate his proposal with them as the elected governing 
bodies of the local governments affected by the proposal. Evidence 
produced at the September 7, 2011 hearing made it clear that the 
Secretary's proposal is contrary to the economic and social needs of 
rural northern Arizona and southern Utah.
    The arrogance of Secretary Salazar may be unparalleled in modern 
history; it is hard to believe that a member of the President's own 
cabinet would set out to deliberately violate the orders of the 
President. But, believe it or not, the Secretary acts in defiance of 
the President, the Congress and the people--in order to serve anti-
mining environmental interests.
    His plan defies the energy policy of the nation, declared by his 
superior, President Obama, and led by his fellow Cabinet member 
Secretary of Energy, Dr. Steven Chu. The energy goal is to develop 
clean energy, including nuclear energy. The land Secretary Salazar has 
chosen to withdraw from uranium mining supplied 42 percent of our 
nation's domestic uranium.
    Congress has set an energy policy that calls for expanding nuclear 
generation of electricity. The Secretary's proposal is counter-
productive to that policy. As an executive appointee he is creating a 
severe road block to implementation of Congressional policy set by the 
Energy Policy Act of 2005.
    In line with its pursuit of vigorous development of nuclear energy, 
Congress directed a study by the Congressional Budget Office as to the 
future needs for nuclear generation.
    In its study ``Nuclear Power Roles in Generating Electricity'', May 
2008, the CBO said that the Act ``provides incentives for building 
additional capacity to generate electricity using innovative fossil 
fuel technologies and an advanced generation of nuclear reactor designs 
that intended to decrease costs and improve safety.''
    The CBO study points out that by the end of ``the next decade 
[2020] demand for electricity in the United States is expected to 
increase by about 20 percent, according to the Energy Information 
Administration. That projected increase--coupled with concerns about 
the effects of greenhouse gas emissions on the environment--has 
encouraged policymakers to reassess the role that nuclear power might 
play both in expanding the capacity to generate electricity and in 
limiting the amount of greenhouse gases produced by the combustion of 
fossil fuels.''
    The study concludes that ``prospects that new nuclear power plants 
will be planned and financed in the next decade are greater than at any 
time since the 1970s...''
    In March of this year, Secretary Chu testified to the House 
Subcommittee on Appropriations on Energy and Water Development that the 
nation ``must rely on a diverse set of energy sources including 
renewables like wind and solar, natural gas, clean coal and nuclear 
power. We look forward to a continued dialogue with Congress on moving 
that agenda forward.''
    So, while Secretary Chu wants to work with Congress to further 
nuclear power, Secretary Salazar defies Congress by proposing to over-
ride the designation of land for uranium mining that will make it far 
more expensive and difficult to develop nuclear energy.
    His plan defies sound public policy. At a time when the President 
urges freedom from reliance on foreign sources of fuel, the Secretary 
increases the reliance on foreign nations, including Russia, for 
uranium critical to the already existent reactors in this country.
    In his state of the Union address, President Obama urged the need 
to become more independent of foreign nations for supply of energy. 
Secretary Salazar's proposal increases our dependence on foreign 
uranium--with Russia being one of the major nations on which we would 
be dependent.
    Congress too has expressed the danger of relying on foreign nations 
for production of minerals critical to our energy, defense and 
production interests. Just five months ago, twenty two bipartisan 
members of the United States House of Representatives introduced H.R. 
2011, the National Strategic and Critical Minerals Policy Act of 2011 
which the House press release said ``as part of the American Energy 
Initiative. . .will help strengthen and improve our national mineral 
policy by requiring a government wide survey of American mineral 
resources, demands and factors impacting mineral development. . .''
    Warning of the danger resulting from the fact that the nation 
imports a majority of minerals needed for renewable energy projects, 
the House announcement pointed out that H.R. 2011 ``directs the 
Secretary of the Interior to coordinate a government wide assessment of 
the Nation's mineral resources and availability to meet current and 
future strategic and critical mineral needs.''
    Yet, at a time when this House has pending a Bill directing him to 
address the dangers of the imbalance of import-export of necessary 
minerals, Secretary Salazar proposes to drastically increase our 
reliance on foreign uranium.
    Section 4 of the Bill requires the Secretary to submit a report 
within six months of passage that includes an assessment ``of the non-
fossil-fuel mineral potential of lands under the jurisdiction of the 
Bureau of Land Management and the Forest Service and an identification 
of all such lands that have been withdrawn, segregated and otherwise 
restricted from mineral exploration and development.''
    Representative Gosar of Arizona and Representative Bishop of Utah 
who have spoken in support of retaining the Arizona Strip in multiple 
use, are co-sponsors of H.R. 2011.
    Just one week ago today, Representative Harris of Maryland told a 
joint hearing by the House subcommittees on Energy and Environment and 
Investigations and Oversight that ``nuclear energy is an integral 
component of America's energy portfolio. One hundred and four currently 
operating commercial nuclear reactors deliver a clean, affordable and 
reliable energy source that supplies 20 percent of America's 
electricity.''
    How in good conscience, and in the name of sound public policy, can 
a member of the cabinet propose to eliminate mining of uranium in an 
area rich with deposits of high quality, inexpensive, usable uranium 
that makes up 42 percent of our domestic supply?
    The members of the Coalition are counting on the Congress to 
prevent implementation of the Secretary's rogue actions that are 
contrary to the will of Congress, the directions from the President, 
and inconsistent with national policy.
    His plan ignores the facts and endangers the economic stability and 
social cohesiveness of northern Arizona and southern Utah.
    The Secretary claims that his proposal will not eliminate domestic 
jobs and will not harm the local economy for the citizens within the 
territory governed by members of the Coalition.
    The Secretary claims that tourism jobs are the backbone of the 
economy of northern Arizona and southern Utah. He is dead wrong, and he 
knows it.
    The Secretary knows the facts. No one in his position could be so 
naive as to believe what he says. The data is clear and is evident for 
anyone to see. His agent, the Arizona Strip District Manager sat during 
the September 7, 2011 hearing and heard evidence that belies the 
Secretary's statements. We know the Manager well; he is a professional 
and a man of his word. He said that he would make sure that the 
decision makers heard what he heard at the hearing. We take him at his 
word.
    We know that the Secretary was furnished all the information that 
was produced as testimony and documentary evidence at the hearing.
    The economic evidence came from economic development managers of 
each of the members of the Coalition. To a person they testified that 
tourism jobs are among the lowest paid jobs in the states of Arizona 
and Utah. The Coalition heard evidence that mining jobs are at worst, 
the second highest salaries in the states, and that they are the best 
jobs available for high school graduates who make up the majority of 
workers in the area impacted.
    The Coalition heard evidence of the economic blight that has 
occurred since mining jobs dried up when prices went down several years 
ago, and evidence that tourism did not replace, did not even begin to 
replace, the mining incomes as a resource upon which the communities 
could rely. One witness testified that the type of visa issued to and 
for tourism, or hospitality, workers caused a drain on the economy 
rather than a boost. The reason is that the tourism workers do not buy 
and own property that is the source of property taxes, and they do not 
spend their money in the local area.
    The Coalition heard evidence that as families move away when mining 
jobs dry up, the social cohesiveness of the communities dissolves. The 
communities rely on family members to serve as volunteer emergency 
services technicians, teachers aides, coaches, firefighters, search and 
rescue workers, parent-teacher workers, service club members, and other 
public outreach positions that local governments in the area cannot 
afford to hire.
    The Secretary knows that the economy and the social cohesiveness of 
the area will be harmed virtually beyond repair if mining is 
foreclosed.
    The only reasonable hope for any economic and social resurgence in 
the areas that once were plush with mining incomes is that mining be 
available when the prices prompt vigorous operations. But, with the 
specter of withdrawal hanging over the land, there will be no such 
operations of even existing mines.
    The Secretary and his employees urge that the withdrawal will not 
affect existing mining or present mining claims. But that is 
disingenuous as this Committee knows. No company will risk exploration 
and implementation costs when there is the specter hanging in the air 
that all mining may be shut down once the withdrawal has taken place.
    We know, as you do, that once the bureaucracy shuts down or locks 
down public land, there never is a relaxation of those regulations and 
restrictions. Rather, the restrictions expand beyond what the 
government committed at the time of lock-down. We know, as you do, that 
our experience with the Grand Escalante Monument in our area 
demonstrates that fact. When the Monument was designated, the 
government committed that there would be no change in livestock 
grazing, hunting and recreation use. Quite the contrary, grazing has 
been drastically reduced, hunting has been severely reduced to the 
point of virtual elimination, and motorized recreation is non-existent.
    The Coalition heard the following testimony as to the economic harm 
that will result, in spite of what the Secretary says:
        1.  Justin Fischer is in a good position to observe the changes 
        and adverse impacts that occur with the restriction of land use 
        on federal lands by the government. He pointed out first that 
        Garfield County is not one time mentioned in the DEIS analysis. 
        He has studied the transition of communities from the natural 
        resource production economy of the 70s to the current day. 
        Wages in Garfield County have gone down to the point at which 
        they are either the lowest or next to lowest, average wise, in 
        the State of Utah. It has the highest unemployment, its school 
        populations have nose-dived, and all of these conditions have 
        resulted from federal land use changes through wilderness and 
        monument lock-downs. He pointed out further that the only 
        reason that employment is as high as it is rests with the use 
        of H2B Visas used by foreign nationals coming in to the County 
        to hold tourism jobs. Most of the money earned by such workers 
        is not spent in the County. H1B Visas that allow technical 
        workers to come into the Country are rare. The NEPA study does 
        not even consider this aspect of the job market in Garfield 
        County. He testified that the EIS focuses on the bottleneck of 
        having only one mill operating in Blanding; it did not even 
        consider, perhaps the writers did not even know of, the 
        potential for output by the mill in Kickapoo in Garfield 
        County. The Coalition finds that the EIS analysis is completely 
        flawed and deficient when it ignores an entire County that is 
        impacted heavily by the withdrawal, and ignores a mill that 
        exists in the County, contending that production is 
        bottlenecked because there is only one mill available.
        2.  Bremner also pointed out that there is no consideration in 
        the DEIS analysis given to the fact that mining jobs are the 
        highest paying jobs that high school graduates can get in the 
        area, and that most of the available workers are high school 
        graduates. The town of Escalante is surrounded by monuments and 
        wilderness, and it should be the most plush community in the 
        land if there were truth to the myth that tourism dollars do 
        effectively fill the economic void resulting from natural 
        resource production termination. But, instead school 
        populations are down because families have departed because 
        there are no jobs. The socio-economic study in the DEIS does 
        not even refer to the bonding of citizens in rural communities 
        like Garfield County and its towns, or to the social structure 
        that is decimated by the removal of families from that bonding 
        cohesiveness.
        3.  Commissioner Leland Pollock of Garfield County testified as 
        to the importance of mining and mining jobs to local 
        communities and their citizens. When coal mining was allowed, 
        Garfield County's economy boomed. When the Federal Government 
        took away the coal industry, local officials were told that 
        tourism would replace the economic support previously given by 
        the coal industry. That did not obviously happen. 300 million 
        tons of some of the cleanest coal available anywhere in the 
        world are locked down by Federal Regulations in the County, and 
        the County has an unemployment rate of 17 percent. The evidence 
        as to the coal mining impact on the economy is relevant to the 
        issue now before the Coalition because it shows the pattern of 
        federal control being expanded over all economic resources 
        throughout the area covered by the members of the Coalition. 
        Commissioner Pollock pointed out that next, the timber industry 
        was taken from Garfield County. The reasons given of course 
        were that the loggers were ruining the forests, but without 
        logging the forests are sick, infested by Bark Beetles and 
        subject to devastating forest fires that have destroyed many 
        elements of the natural environment including wildlife and 
        natural scenery. So, the policy of shutting down logging 
        backfired on the natural environment in Garfield County, 
        leaving the forests in deplorable condition. All the adverse 
        impacts from coal and timber shut downs are coming again 
        through the withdrawal of mining which will impact jobs now and 
        in the future.
    His plan violates the Federal Land Policy Management Act, NEPA, and 
federal regulations issued by the Bureau of Land Management and the 
Council on Environmental Quality
        1.  FLPMA requires in 43 U.S.C. 1712 that the Secretary 
        coordinate all federal plans, policies and management decisions 
        with local government. The withdrawal provisions of FLPMA, 43 
        U.S.C. 1714 do not exempt the withdrawal decisions from the 
        coordination mandate, and the provisions of 1714 make it clear 
        that coordination is required prior to the act of withdrawal. 
        For example, Section 1714 requires that after making a 
        withdrawal, the Secretary must submit a report to Congress that 
        contains all of the following regarding local governments:
                ``. . .the Secretary shall furnish to the committees 
                [of Congress]:

                ``(2) an inventory and evaluation of the current 
                natural resource uses and values of the site and 
                adjacent public and nonpublic land and how it appears 
                they will be affected by the proposed use, including 
                particularly aspects of use that might cause 
                degradation of the environment, and also the economic 
                impact of the change in use on individuals, local 
                communities, and the Nation;

                . . .

                (7)  a statement of the consultation which has been or 
                will be had with other Federal departments and 
                agencies, with regional, State, and local government 
                bodies, and with other appropriate individuals and 
                groups;

                . . .

                (8)  a statement indicating the effect of the proposed 
                uses, if any, on State and local government interests 
                and the regional economy;

        2.  The Secretary did not consult with or coordinate with the 
        local governments that are members of the Coalition as to 
        issuance of the Order of Segregation or the proposed 
        withdrawal. In fact, when given an invitation to meet with the 
        members of the Coalition prior to the first meeting of the 
        Coalition, he sent the District Manager but neither came 
        himself nor sent the Arizona State Director.
        3.  The Secretary failed to provide early notice to the members 
        of the Coalition or, to the knowledge of Coalition members, any 
        other local government in southern Utah or Northern Arizona. 
        The members of the Coalition were afforded no opportunity 
        whatsoever to participate with ``meaningful'' involvement in 
        the ``development'' of the decisions to Segregate or to notify 
        the proposal to withdraw.
        4.  In simple terms the Secretary violated the terms of FLPMA.
His plan is deceitful in that claims that it is based upon concerns for 
environmental harm that might occur as a result of uranium mining.
    For the reasons set forth in the Findings and Conclusions issued by 
the Coalition at the conclusion of its public hearing, it is clear that 
the Secretary is deceiving or attempting to deceive the public by 
claiming there is concern about environmental harm that might be done 
by uranium mining. Even his own land managers in the District admit 
that there is no environmental harm being caused by mining.
                                 ______
                                 
    Mr. Bishop. Thank you. Dr. Wenrich, a retired member of the 
USGS, we appreciate you being here. We also appreciate the 
honor you helped with this country in being part of the group 
that won the Nobel Prize. So thank you for being here. We are 
ready to have your testimony.

STATEMENT OF KAREN WENRICH, RESEARCH GEOLOGIST, U.S. GEOLOGICAL 
                        SURVEY, RETIRED

    Dr. Wenrich. Thank you, Chairman Bishop and Ranking Member 
Grijalva.
    Mr. Bishop. Can I ask you to pull that closer to you?
    Dr. Wenrich. OK. My testimony is based on data from many of 
the 160 publications which I authored and co-authored as an 
employee of the U.S. Geological Survey and the International 
Atomic Energy Agency. I will also talk about a vital geological 
component of the district that has not been addressed in the 
withdrawal. That is value added by rare earth elements and 
other strategic metals that are in the deposits.
    First, it is imperative to address the staggering 
geological importance of northern Arizona uranium. According to 
USGS studies, the proposed withdrawal area contains an 
estimated uranium endowment in excess of 326 million pounds, 
which is 40 percent of the U.S. uranium resources. Despite such 
conclusive government-authored statements, both the draft 
environmental impact statement and the recently released final 
EIS have failed to recognize the significance of this enormous 
uranium district of polymetallic deposits.
    Through bureaucratic sleight of hand, these two documents 
have erroneously and dramatically minimized the significance of 
the resource, both the size of the endowment and its impact on 
domestic energy production. Additionally, the EIS totally fails 
to address the vast resource of an additional 40 energy 
strategic metals that are rich in this vast valuable mineral 
deposit.
    All of the northern Arizona withdrawal parcel lies within a 
corridor 45 miles wide and 110 miles long that essentially 
contains all of the known uranium deposits. It is almost as 
though the government located the area with the most mining 
claims and divined it to be worthy of withdrawal. As a former 
U.S. Geological Survey employee, it is my recollection that the 
objective of the withdrawals was to select an area to preserve 
that minimized the loss of mineral wealth to our Nation, not to 
maximize it.
    This corridor to be withdrawn is in the heart of 
essentially the total resource of the northern Arizona breccia 
pipe uranium district, and therefore any withdrawal 
alternatives B, C, or D would destroy future development of 
this world class resource and the United States' major uranium 
reserves, with the byproduct rare earth elements and base 
metals that could fulfill our goal of uranium independence as a 
major step in our road to energy independence.
    The Secretary says that a 20-year withdrawal is in order 
because we need to evaluate the impacts of a handful of 
additional mines that are currently exempt from the withdrawal. 
However, we just finalized an EIS that evaluated eight mines 
that were mined in the 1980s, and wasn't that enough of a 
handful already? Why is it necessary? Is it because the 
Secretary didn't find the results he wanted because there was 
no contamination deemed to have been caused by these mines?
    First of all, the Secretary's EIS shows no environmental 
impacts that cannot be readily mitigated. Second, the 
Department of the Interior's EIS fails to honestly recognize 
the many environmental attributes of breccia pipe mining. This 
is the kind of clean mining any serious pro-environmental 
advocate should be promoting that can be held up to countries 
throughout the world as a model to emulate in the goal to 
clean, safe and environmentally friendly mining.
    Third, the Secretary chooses to ignore the research work 
that has already been done both inside the Department of the 
Interior, USGS results, and the preliminary findings of the 
University of Arizona that much of the uranium in the Colorado 
River is naturally occurring, a key indication that the 
industrial activity does not harm the water quality for 
drinking water and agricultural activities that depend on the 
river for water.
    The fact that environmental groups engaged in fearmongering 
with downstream water users in Las Vegas and southern 
California does not make the case for prohibiting breccia pipe 
uranium mining. That such fears are scientifically ungrounded 
is demonstrated by research by the Arizona Geological Survey in 
their calculations of the non-effect of a hypothetical truck 
spill on the drinking water quality of the Colorado River.
    Four, knowing that no breccia pipe uranium tailings are 
produced or left onsite in northern Arizona and deliberately 
trying to confuse the Moab tailings issue next to the Colorado 
River with breccia pipe mining is grossly misleading. There is 
no relationship between the Moab tailings and breccia pipe 
mining and no tailings will be left onsite in the breccia 
pipes.
    Similar to the way the BLM has downplayed the significance 
of uranium resources, it has vastly overstated the 
environmental harm caused by past and potential uranium 
development. A case in point is the danger to the region's 
watershed, particularly the Colorado River, caused by rare and 
inconsequential oil spills.
    In response to concerns about the contamination of the vast 
and enormously valuable water resource, John Spencer of the 
Arizona Geological Survey and I calculated just how much damage 
could be done by such a hypothetical oil spill, calculations 
that a high school student could do and certainly the BLM and 
other Department of the Interior agencies should have done.
    These calculations are presented as a published report by 
the Arizona Geological Survey and conclude that although the 
Colorado River water and the Grand Canyon contains 4 ppb, 
approximately 60 metric tons of dissolved uranium derived by 
natural weathering of rock over the Colorado River drainage 
basin are carried annually by the Colorado River through the 
Grand Canyon.
    We considered a hypothetical worst-case accident which a 
truck hauling 30 metric tons of 1 percent uranium was 
overturned by a flash flood in Kanab Creek and its entire load 
is washed 60 kilometers down Kanab Creek into the Colorado 
River, where it is pulverized and dissolved over one year to 
become part of the dissolved uranium content of the river.
    This addition of 660 pounds of uranium over one year would 
increase uranium in the Colorado River water from 4 ppb to 4.02 
ppb. Given that the EPA maximum level for uranium in drinking 
water is 30 ppb, this increase would not only be trivial but 
undetectable against much larger natural radiation and river 
water content.
    Mr. Bishop. Dr. Wenrich, can I ask you to quickly sum up 
there.
    Dr. Wenrich. Sure. I just want to conclude that when 
calculations are done, if six mines are produced as according 
to the EIS, there would be a value added of $17 million to the 
$475 million from the uranium mining, and that 17 million would 
be from rare earth element mining and another 10 million from 
additional metals, strategic base metals. And this is a 
savings, an economic savings of our foreign debt. Retaining our 
own sources of energy and strategic metals is critical to our 
economic and security survival.
    And by the wave of the executive wand, these huge metal 
resources will be stricken from the United States' strategic 
metals stockpile just when our jobless rate is huge and China's 
strong arm is reaching globally to control the world's 
strategic metals.
    [The prepared statement of Dr. Wenrich follows:]

      Statement of Karen Wenrich, PhD, CPG, Concerning H.R. 3155, 
             Northern Arizona Mining Continuity Act of 2011

    Chairman Bishop and Ranking Member Grijalva, thank you for giving 
me the opportunity to voice my support of H.R. 3155, the Northern 
Arizona Mining Continuity Act of 2011. The northern Arizona proposed 
withdrawal is a subject of great importance to me, as well as to the 
uranium mining industry, the nuclear energy industry, the residents of 
Arizona and southern Utah who are eager to work, and to all who operate 
on our nation's public lands. I will focus my comments today primarily 
on the geologic and economic significance of northern Arizona uranium 
ore deposits and the previous successes of the regulatory system in 
monitoring and protecting the environment from any harm by mining. I 
will refer to some of the numerous studies which I authored and co-
authored as an employee of the U.S. Geological Survey, the 
International Atomic Energy Agency, and as a certified professional 
consulting geologist. Additionally, I will be referring to reports 
produced by experts in the uranium industry who have spent most of 
their careers in the northern Arizona uranium district with years of 
hands on experience mining and protecting the environment. I will also 
present a new vital geological component of the district that has not 
been publically disclosed to-date.
Significance of Northern Arizona Uranium
    First, it is imperative to address the staggering geological 
importance of northern Arizona uranium. According to two USGS studies 
(Otton, et.al. 2010 and Finch, Wenrich, et.al. 1987--Attachment D), the 
proposed withdrawal area contains an estimated uranium endowment in 
excess of 326 million lbs, and has ``the potential of becoming the 
second most important uranium-producing region in the United States''. 
Despite such conclusive government-authored statements, both the Draft 
Environmental Impact Statement and the recently released Final EIS have 
failed to recognize the significance of this enormous district of 
uranium and polymetallic ore deposits. Through bureaucratic slight of 
hand, these two documents have erroneously and dramatically minimized 
the significance of the resource--both the size of the endowment and 
its impact on domestic energy production. But numbers don't lie. 
According to the Nuclear Energy Institute, the 326 million lbs of 
uranium present in this district is the equivalent to enough electric 
power for the 8 million people of New York City for 57 years. 
Additionally, the Environmental Impact Statement (EIS) totally fails to 
address the vast resource of an additional 40 energy strategic metals 
that are rich in this vast valuable mineral district. As Gene Spiering, 
V.P. of Exploration, Quaterra Resources, explains the reason for the 
EIS's gross understatement of the uranium resource:
        The major error. . .is the assumption that mineralized uranium 
        breccia pipes are uniformly distributed throughout the region 
        and that the potential loss of uranium is directly proportional 
        to the number of acres withdrawn, not which lands are 
        withdrawn. Exploration has demonstrated that nearly all the 
        known mineralized pipes and all of the economically viable 
        uranium deposits in northern Arizona have been found in a N-S 
        trending mineralized ``corridor'' that is approximately 45 
        miles wide by 110 miles long. (Spiering, et.al. 2010, 
        Exploration and discovery of blind breccias pipes: the 
        potential significance to the uranium endowment of the Arizona 
        Strip District, Northern Arizona--Presentation to SME Annual 
        Meeting-Phoenix, AZ.) (Attachment B)
    The 800 to 1,000 breccia pipes drilled outside of this corridor 
have been barren of ore. All of the northern Arizona withdrawal parcel 
lies within this uranium-rich corridor because the government simply 
located the area with the most mining claims and divined it to be 
worthy of withdrawal. As a former U.S. Geological Survey employee it is 
my recollection that the objective of wilderness and other land 
withdrawals was to select an area to preserve as wilderness that 
minimized the loss of mineral wealth to our nation, not to maximize it. 
The corridor to be withdrawn is the heart and essentially the total 
resource of the northern Arizona breccia pipe uranium district, and 
therefore, any withdrawal (Alternatives ``B'', ``C'' or ``D'') would 
restrict indefinitely future development of this world-class resource 
and the United States' major uranium reserves that could significantly 
fulfill our domestic uranium needs as a major step in our road to 
energy independence.
    Why are northern Arizona breccia pipe uranium mines so desirable? 
The Secretary says that a 20-year withdrawal is in order because we 
need to evaluate the impacts of the handful of additional mines that 
are currently exempt from the withdrawal. Yet the Secretary has not 
laid out a process in his EIS that would give hope to the nation's 
electricity consumers that this fuel for electricity would ever be 
available in the future. It is the Secretary's clear intention with 
this EIS not to impose just a ``temporary'' 20-year ban, but, in fact, 
to forever close off access to this fuel supply. (1) First of all, the 
Secretary's EIS shows no environmental impacts that cannot be readily 
mitigated. (2) Secondly, the Department of the Interior's EIS fails to 
honestly recognize the many environmental attributes of breccia pipe 
uranium mining. This is the kind of clean mining any serious pro-
environmental advocates should be promoting that can be displayed to 
countries through the world as a model to emulate in the goal to clean, 
safe, and environmentally friendly mining. (3) Thirdly, the secretary 
chooses to ignore the research work that has already been done, both 
inside the Department of the Interior's USGS results and the 
preliminary findings by the University of Arizona in its ongoing study 
which according to the Environmental Working Group shows ``. . .that 
much of the uranium in the (Colorado)River is naturally occurring, a 
key indication that the industrial activity does not harm the water 
quality for drinking water and agricultural activity that depends on 
the River for water.'' (February 23, 2009, Environmental Working Group, 
``Study May Hamper Fears over Uranium Mines Effects on Colorado 
River'') (attachment C) The fact that environmental groups engaged in 
fear mongering with downstream water users in Las Vegas and southern 
California does not make the case for prohibiting breccia pipe uranium 
mining. That such fears are scientifically ungrounded is demonstrated 
by research by the Arizona Geological Survey in their calculations of 
the non-effect of a hypothetical ore-truck spill on the drinking water 
quality of the Colorado River (attachment A). (4) Fourthly, knowing 
that no breccia pipe uranium tailings are produced or left on site in 
northern Arizona and deliberately trying to confuse the Moab, Utah mill 
tailings issue next to the Colorado River with breccia pipe mining is 
grossly misleading. There is no relationship between the Moab mill 
tailings and breccia pipe uranium mining. (5) Finally, recognizing the 
weakness of his environmental arguments, in football terms, the 
Secretary called an ``audible'' between the Draft EIS and Final EIS and 
switched the ``emergency'' away from the environment (the original 
justification for the withdrawal) to ostensible social and cultural 
reasons in a crass attempt to use Native Americans and the injustices 
the Federal government committed against them in the 1950s under a 
totally different set of circumstances. At that time the issue was 
national defense and the Soviet threat. Today's environmental laws 
imposed upon industry safeguard the public against any such social, 
cultural or environmental impacts. It's a shame those same laws were 
not in effect in the 1950s to protect the public against its own 
government. Of the three legs the Secretary chose to build his stools 
foundation, none of them stand as a reason to deny this source of fuel 
to the nation's electricity consumers.
    The Secretary says that a 20-year withdrawal is in order because we 
need to evaluate the impacts of the handful of additional mines that 
are currently exempt from the withdrawal. Yet the Secretary has not 
laid out a process in his EIS that would give hope to the nation's 
electricity consumers that this fuel for electricity would ever be 
available in the future. It is the Secretary's clear intention with 
this EIS not to impose just a ``temporary'' 20-year ban, but, in fact, 
to forever close off access to this important energy supply. Our 
economy needs the jobs and energy self-sufficiency today, not 20 years 
down the road.
Inciting Fear through Emotional Hysteria
    Similar to the way the Bureau of Land Management (BLM) has 
downplayed the significance of the uranium resources, it has vastly 
overstated the environmental harm caused by past and potential uranium 
development. A case in point is the ``danger'' to the region's 
watershed--particularly the Colorado River--caused by rare and 
inconsequential ore spills. In response to concerns about contamination 
of the vast and enormously valuable water resource, Jon Spencer of the 
Arizona Geological Survey and I calculated just how much damage could 
be done by such a hypothetical ore spill--calculations that a high 
school student could do and certainly the BLM and other Department of 
Interior agencies should have done. These calculations are presented as 
a published report by the Arizona Geological Survey (attachment A) and 
conclude the following:
    ``Colorado River water in the Grand Canyon region contains about 4 
mg/l (micrograms per liter) of uranium (equivalent to 4 parts per 
billion by mass), with approximately 15 cubic km annual discharge. 
Thus, approximately 60 metric tons of dissolved uranium, derived by 
natural weathering of rock over the Colorado River drainage basin, are 
carried annually by the Colorado River through the Grand Canyon. We 
considered a hypothetical, worst-case accident in which a truck hauling 
thirty metric tons (66,000 lbs) of 1%-uranium ore is overturned by a 
flash flood in Kanab Creek and its entire load is washed 60 km down 
Kanab Creek into the Colorado River where it is pulverized and 
dissolved over one-year to become part of the dissolved uranium content 
of the river (such a scenario is extremely unlikely, if not 
impossible). This addition of 300 kilograms (660 lbs) of uranium over 
one year would increase uranium in Colorado River water from 4.00 ppb 
to 4.02 ppb. Given that the EPA maximum contaminant level for uranium 
in drinking water is 30 ppb, this increase would be trivial. 
Furthermore, it would be undetectable against much larger natural 
variation in river-water uranium content.'' (cited from Spencer & 
Wenrich, 2011), Breccia Pipe uranium Mining in the Grand Canyon Region 
and Implications for Uranium levels in Colorado River Water, Arizona 
Geological Survey Open-File Report OFR-11-04, Version 1.0, 13 p.--
Attachment A.)
    Anyone in a decision-making role over the withdrawal of the 
northern Arizona lands should review the new PBS documentary that was 
just televised called ``Radioactive Wolves of Chernobyl''. Chernobyl 
was unquestionably the world's worst nuclear disaster with radioactive 
emissions equivalent to 400 Hiroshima bombs and understandably created 
worldwide emotional concern. Yet, even here perhaps things are not 
quite as bad as expected. Because there are no people within 1100 
square miles around the reactor, a lush wilderness has been 
regenerated. The wolves, beavers, eagles, falcon, bison, and moose are 
thriving. Radiation levels in the animals are high, but still after 25 
years there are no signs of mutations in any of the creatures with the 
possible exception of door mice living right at the site of the nuclear 
accident. The abundant eagles are a sign that the eco-system is in 
robust health. This is a good example of how the emotional hype has 
portrayed this disaster as a barren wasteland that could never recover. 
Northern Arizona contains natural uranium that cannot even remotely be 
compared to Chernobyl--yet, one would think from the emotional hysteria 
that people expect Chernobyl-style contamination. The worst that can 
happen is what is happening naturally in the Grand Canyon today--
millions of tons of high-grade uranium are eroding naturally into the 
Colorado River and it's tributaries. If anything, mining will help 
remove this natural river water ``contaminant''.
An Attempt to Dismiss Scientific Facts by Invoking a Smoke Screen
    Accusations of conflict of interest have been asserted for my 
ownership and sales agreement of 61 mining claims that I have held on 
the Arizona Strip since 2009. The research on which this report is 
based was begun in 1978 and 95% of it was completed by 2002. I 
challenge anyone to find errors in this testimony, specifically any 
that could even remotely be impacted from my claim ownership during the 
past two years. For Mr. Grijalva to attempt to dismiss 30 years of 
solid scientific data from a renowned, certified researcher in this 
urnaium district for a recent agreement that is 6 months old is nothing 
more than smoke and mirrors and is not in the very spirit from which he 
insists this withdrawal is based--to save a natural resource for the 
American people by presenting all available data. Minerals are also a 
natural resource and just as the American tourist should have the 
opportunity to view the beauties of northern Arizona so should the 
American consumer have the opportunity to benefit their lifestyle from 
mining of the minerals from northern Arizona. Previous mining of this 
wealth from 1980-1990 has proven that the two goals are not mutually 
exclusive and can successfully coexist.
    Furthermore if there is any conflict of interest, it is with 
ranking member Representative Grijalva who sits on the board of 
directors for the Center for Biodiversity, one of the organizations 
that has been the driving force for this land withdrawal. Because of 
this conflict of interest Mr. Grijalva should be excusing himself from 
any committee deliberations on this withdrawal or any lobbying of the 
executive branch of government to complete this withdrawal.
Value Added to the Breccia Pipe Ore with the Recovery of Energy 
        Strategic Rare Earth Metals
    This unique Arizona polymetallic-rich uranium, breccia-pipe 
district is known for its large reserves of high-grade uranium that 
have been estimated by the U.S. Geological Survey to comprise over 40% 
of the U.S. domestic uranium resources, and the highest-grade in the 
U.S. Up until the past 5 years the price of most metals had been 
sufficiently depressed so that little was done to explore or study the 
presence of the polymetallic ores, rich in the district's uranium 
deposits. In just 3 years since 2008, the price of most rare earth 
elements (REE) has increased over 10-fold. This is true of all Energy 
Critical Elements, including Co and Cu, also heavily enriched in the 
breccia pipe ore. These important metals commonly comprise over 1% of 
the ore.
    Rare earth elements (REE) are significantly enriched in the breccia 
pipe ores. However, last month REE research completed in Nancy, France 
by Wenrich, Lach and Cuney by Laser Mass Spectroscopy and the Electron 
Microprobe proved that within the breccia pipes these energy strategic 
and critical metals are enriched in the actual uraninite crystal, the 
ore mineral found in the breccia pipes. This is significant because it 
facilitates the economic removal of these strategic energy metals. The 
current supply of REE will not be able to keep up with the new and ever 
growing global demand. This potential shortage could seriously impact 
U.S. renewable energy sources, communications, and defense industries, 
leaving the US, currently with no operating REE mines, and very 
vulnerable to control by REE-rich China. These strategic, multi-use 
elements are known to occur only in very few economic deposits around 
the world. With over 97% of the world's supply presently produced by 
China, and with the Chinese demand soon matching, if not eclipsing, its 
own internal supply, the U.S. could soon be left in the cold. Currently 
China has export taxes on REE of 15-20% and has put restrictions on the 
amount exported. We are already feeling the pinch in the skyrocketing 
price of terbium (a heavy REE)-needy compact fluorescent bulbs, bulbs 
that new government restrictions are requiring the average American to 
replace their incandescent bulbs with. Forecasts now predict a critical 
shortage of REE for the rest of the world outside of China by as early 
as 2012. In 2008 China produced 97% of the worlds REE, India 2.2%, 
Brazil 0.5% and Malaysia 0.3%.
    REE are indispensable in a wide variety of clean energy 
technologies. They are used in the advanced nickel-metal hydride (NiMH) 
batteries, which are found in most modern hybrid cars. Powerful 
neodymium (Nd, a light REE) magnets enable the new generation of wind 
turbines, electric and hybrid electric cars (Prius), and generators. 
REE phosphors illuminate compact fluorescent light bulbs (Tb), and 
elements such as cerium (Ce) and neodymium (Nd) have been used for 
decades as coloring agents in synthetic gemstones and glass, and Ce has 
been used as a polishing compound for over a half century. In the 
defense sector REE are required for military electronics, 
communications and surveillance equipment, and missile guidance 
systems. Tomahawk cruise missiles use REE magnets in tail control fins; 
and samarium (Sm)-cobalt(Co) magnets are used for flight control 
surfaces on missiles, Sidewinders, Phoenix, etc. Cerium has been used 
to treat water, particularly arsenic-rich waters. In essence, it can be 
safely said that with the past decade of advanced technology U.S. 
energy and national security are heavily dependant on REE.
    The U.S. has these REE at their fingertips in the Arizona breccia 
pipe province. To recover the REE from the breccia pipes would not 
require new techniques to be developed. Removal of the REE from the 
uraninite has previous precedence. REE were extracted as a by-product 
of uranium mining in Canada during 1966-1970 and 1973-1977. ``For a 
short period of time heavy REE were extracted from the rafinate fluids 
that emanated from the chemical processing of uraninite at Blind River, 
Ontario'' (Mariano and others, 2010). ``At Elliot Lake an yttrium 
concentrate [including REE] was obtained from the residual ion-exchange 
solutions after leaching uranium ores with sulfuric acid. . .The 
filtered and dried product graded 60-70% REO including 30-35% 
Y<INF>2</INF>O<INF>3</INF>.'' (Lucas and Ritcey, 1975, cited in 
Henderson, 1984, p.441).
    The analyses of the REE in the breccia pipe uraninites have shown 
that they are rich in some of the rarer and more expensive of the REE, 
such as dysprosium, europium, neodymium and terbium. For example, below 
is a graph of neodymium, essential to the super strong magnets needed 
in wind turbines, versus uranium for over 60 bulk rock breccia pipe 
analyses. The actual Nd in the uraninite lattice is significantly 
higher than that shown in the graph. The correlation between neodymium 
and uranium is evident from the trend of this graph, which follows from 
the concentration of neodymium, as well as all of the REE. in the 
uraninite crystal structure.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Summary
    The northern Arizona EIS assumes that 6 mines producing 1800-2400 
tons of uranium ore/day could be operating. Assuming an average grade 
of 0.65% U<INF>3</INF>O<INF>8</INF> this district would produce 
approximately 9.5 million lbs of U<INF>3</INF>O<INF>8</INF> per year. 
Uraninite studied by Wenrich, Lach, and Cuney in France showed the 
total REE content of the uraninite to be 0.43%. Therefore, 40,850 lbs 
of REE could be produced from the 9.5 million pounds of 
U<INF>3</INF>O<INF>8.</INF>. Yttrium, commonly considered to be a REE 
since it is associated with them, makes up another 0.25% bringing the 
total REE to 0.68%. The REE by-products would have a value added of $15 
million dollars based on today's REE prices and the individual element 
concentrations in the uraninite. Another $1.8 million from yttrium 
brings the total to $16.8 million annually. Finding domestic sources of 
REE would be an enormous boost to our economy--this is $16.8 million 
that will remain in our country rather than increasing our foreign 
debt. Additionally, the amount of copper, cobalt, nickel, silver, lead 
and zinc that constitute over 1% of the ore can, and will, also be 
mined as by-product metals at today's prices. They will add another 
approximate $10 million dollars to the economic savings of our foreign 
debt. Retaining American jobs to mine and process domestic sources of 
energy strategic metals is critical to our economic and security 
survival.
    By the wave of the executive wand these huge metal resources will 
be stricken from the United States strategic metal stock pile just when 
our jobless rate is huge and China's strong arm is reaching globally to 
control the world's strategic metals. We won't have to worry about 
invaders marching into our country with guns, they won't need to, we 
will be conquered by loss of our economic strength and our inability to 
produce our domestic mineral wealth. How can we turn our back on 
domestic uranium to fuel our 20% energy source in nuclear power? At the 
same time we will be denying the American consumer rare-earth elements 
needed for wind turbines, solar panels and our new energy efficient 
compact fluorescent light bulbs, batteries and critical military 
components.
    This submitted testimony presents to the Committee sound historical 
and scientific data that underscores the importance of energy resources 
in these Arizona breccia pipe deposits that contain natural, metal-
bearing ore deposits that have a safe record of production to meet 
domestic energy needs. These ore deposits are now also recognized to 
contain an important and essential source of energy critical elements 
(REE, copper and cobalt) for the continued progression of American 
diversification of industry, employment opportunities, national 
security, and elevated living standard for its citizens today and its 
children tomorrow. These deposits should be available to be developed 
to the fullest and safe extent for the American consumer.
                                 ______
                                 
    Mr. Bishop. All right. Thank you very much. We appreciate 
your testimony. Mr. Trautwein.

     STATEMENT OF MARK TRAUTWEIN, FORMER STAFF CONSULTANT, 
   ENVIRONMENT, ENERGY, AND PUBLIC LANDS, U.S. COMMITTEE ON 
                  INTERIOR AND INSULAR AFFAIRS

    Mr. Trautwein. Mr. Chairman, I appreciate the opportunity 
to be back where I was privileged to work for more than 15 
years as the full Interior Committee's staff consultant on 
Environment, Energy, and Public Lands for Chairman Mo Udall and 
Chairman George Miller. It is in that capacity that I appear 
today, representing only myself and no organization. And, Mr. 
Chairman, I note with pleasure that while a lot of things have 
changed around here since I left that the House's attitude 
about the Senate remains the same, and that is a good thing to 
note.
    I am here to address assertions that Secretary Salazar's 
withdrawal order on the Arizona Strip is incompatible with the 
Arizona Wilderness Act of 1984. I am intimately familiar with 
that law because Chairman Udall designated me as the lead 
staffer responsible for all aspects of that legislation. Mr. 
Chairman, there is no basis for the claim that the Arizona 
Wilderness Act contains a promise that uranium mining would 
proceed unfettered indefinitely on lands not designated 
wilderness and that the Secretary's order breaks that promise.
    The Arizona Wilderness Act was essentially a statewide 
Forest Service wilderness bill. However, on the strip, BLM was 
years from completing its wilderness review, and extensive 
wilderness study areas with inter-wilderness protections of 
indefinite duration were an obstacle to a company anxious to 
develop certain valuable mineral deposits.
    Title 3 of the Act short-circuited the BLM process and 
settled this issue. Those lands not designated in wilderness 
were simply relieved of their interim wilderness protection, 
restoring them to general multiple use management. Both the 
statute and the committee report make clear that on BLM lands, 
that is all the so-called release provision does, remove 
interim protections that preserve the land's suitability for 
wilderness designation. The Secretary has acted well within 
this realm.
    A few salient facts to highlight. The lands covered in the 
Secretary's withdrawal order are mostly not the same lands that 
are released in 1984. Many of them were incorporated into the 
two national monuments established a decade later and 
permanently withdrawn from new mineral entry, the same thing 
the Secretary has done, only temporarily. Other released lands 
are not covered by the Secretary's order. Those that are 
constitute a decided minority of the lands released in 1984, 
and Congress never reviewed for anything the majority of lands 
covered in the order.
    For those lands, the Secretary's withdrawal order does not 
amount to a de facto wilderness declaration. Wilderness is 
permanent. The Secretary's order is temporary. Wilderness 
affects many potential activities. The Secretary's order covers 
only one thing, new mining claims under the 1872 Mining Law, 
and leaves intact existing mining claims, and there are 
thousands, so that claimants can develop their rights.
    There is no rational basis for saying that the Secretary's 
order stops mining or for calling it de facto wilderness. In 
the case of the strip lands, the 1984 wilderness review never 
assessed the impact of uranium mining on the hydrology of the 
Grand Canyon ecosystem. This was completely beyond the scope of 
wilderness review. To argue now that a 27-year-old wilderness 
statute precludes the Secretary from assessing that impact and 
taking even limited action on non-wilderness lands by 
mislabeling it as de facto wilderness is perverse.
    Even if the Secretary were proposing wilderness, it 
wouldn't be contrary to the Arizona Wilderness Act because by 
design, it fully contemplates that lands on the strip and 
elsewhere will be subject to periodic wilderness review. On 
Forest Service lands, this is explicit. The agency would 
conduct new wilderness reviews with every forest plan revision. 
The Committee report discusses this in excruciating detail.
    On BLM lands, the expectation is implicit in the 
affirmation of the land management process. In any case, the 
Act and Committee report are clear that the only thing Title 3 
ended was the immediate wilderness issue before Congress in 
1984, namely the conflict between interim wilderness 
protections of indefinite duration and two contemporary uranium 
mining concerns.
    Release and its meaning were debated in great detail 
throughout the 1980s, and Chairman Udall was adamant in 
opposing successfully the many versions of no-more amendments, 
that this was it for wilderness, that lands released must be 
developed and so on. It is frustrating to hear this argument 
disinterred when it was decisively defeated long ago.
    Even if we focus strictly on lands the statute and the 
Committee said in effect would now be managed for multiple use, 
the Secretary has acted fully within the meaning of that term. 
Multiple use doesn't mean singular use or any use or every use. 
It means the managing agency considers many competing uses and 
attempts to balance its often conflicting mandates. It can't 
permit all uses everywhere all the time. It has to make choices 
in a dynamic way on the basis of new facts and goals over time.
    So when the committee report says lands are released to the 
land management process, it expects the Secretary to use its 
discretion to make these choices and seek this balance. That is 
very much what the Secretary has done here. And while it is 
perfectly legitimate to argue the merits of his action, in no 
way has he violated either the Arizona Wilderness Act or 
congressional intent expressed in the Committee report.
    Mr. Chairman, in conclusion, I think it is not only wrong 
to read the Act as a limitation on the Secretary's power to 
manage new lands in new ways based on new evidence to meet new 
challenges decades after its passage, it is dangerous. Thank 
you very much.
    [The prepared statement of Mr. Trautwein follows:]

 Statement of Mark Trautwein, Former Staff Consultant on Environment, 
 Energy and Public Lands, U.S. House Committee on Interior and Insular 
 Affairs, on H.R. 3155, The Northern Arizona Mining Continuity Act of 
                                  2011

    Mr. Chairman, it is a great pleasure to be back where I was 
privileged to work for more than 15 years. From 1979 until 1991, I had 
the honor of serving Mo Udall and, from 1991 to 1995, George Miller, as 
the full committee's staffer responsible for its jurisdiction over 
public lands, wilderness and national parks.
    I am here today, representing myself only, to address certain 
assertions made in an October 12 letter signed by 12 Members of the 
House and Senate in which they argue that Secretary Salazar's mineral 
withdrawal order on the Arizona Strip breaks a promise made in Arizona 
Wilderness Act of 1984. The legislative history, it is argued, 
establishes that the Act was a final disposition of all land status on 
the Strip and that uranium mining issues would proceed forever without 
restriction outside designated wilderness. I am intimately familiar 
with that Act because Chairman Udall made me responsible for managing 
it, including gathering information, negotiating with all interested 
parties, and drafting bill and committee report language. I strongly 
disagree with the October 12 letter's broken promise theory and know of 
nothing implicit or explicit in the Arizona Wilderness Act, Mr. Udall's 
sponsorship of it, or the events leading to its passage, to support it. 
I have no useful expertise on any threat posed by uranium mining to the 
Grand Canyon ecosystem and offer no opinion on it. However, I am 
confident that the actions of Secretary Salazar are entirely consistent 
with both the letter of the Arizona Wilderness Act of 1984 and 
Congressional intent behind it.
    Mr. Chairman, the 1984 Arizona Wilderness Act was essentially a 
Forest Service RARE II wilderness bill. On the other hand, BLM was 
still in the middle of its wilderness review process. It had created 
WSA's on the Strip and elsewhere in Arizona that had interim 
protections of indefinite duration and was years away from 
recommendations on which lands to designate as wilderness and which to 
release from those protections. This was a problem for a particular 
mining company--Energy Fuels Nuclear--that believed it had discovered 
valuable uranium deposits called Brescia pipes inside some of those 
WSAs and was anxious to develop them. So the company initiated 
negotiations with environmental and other interest groups for an 
agreement to short-circuit the BLM process and go directly to Congress 
with a stakeholder settlement. Eventually, that agreement became Title 
III of the Arizona Wilderness Act.
    Neither the history nor the provisions of Arizona Wilderness Act 
support the idea that these events settled issues addressed by 
Secretary Salazar's order. On the contrary, the two are entirely 
different in scope and purpose. The Arizona Wilderness Act is a 
wilderness act. It considered whether certain lands met the conditions 
set forth in the 1964 Wilderness Act for inclusion in the wilderness 
system. The withdrawal order addresses the hydrology of the Grand 
Canyon ecosystem and the impact of one particular activity, uranium 
mining, on water quality. Watershed issues were never considered or 
addressed anywhere in the process leading to passage of the Arizona 
Wilderness Act and are beyond the scope of wilderness review.
    In addition, the 1984 law and the withdrawal order do not even 
cover the same inventory of lands. The Arizona Wilderness Act 
considered only those lands in BLM and Forest Service wilderness study 
areas. It never examined at all vast tracts affected by the order 
because those lands did not meet the criteria required to receive 
interim protection while they were studied for their wilderness 
suitability. And the plain facts are that land status on the Arizona 
Strip already has changed, and profoundly so, since passage of the 
Arizona Wilderness Act and in ways that affect mining. ACEC's have been 
designated and two large national monuments proclaimed, and implicitly 
if not explicitly ratified by Congress, all without any objections that 
Congressional intent of 1984 had been abused.
    In fact, many of the lands released in 1984 were incorporated into 
the Vermillion Cliffs and Grand Canyon-Parashant monuments in 2000 and 
2001 and consequently withdrawn from new mineral entry. Other released 
lands are not covered by the Salazar order. While it is true that some 
released lands are included, the majority are not. Most of the lands 
that are covered in the order were never reviewed at all by Congress 
for anything, not even for wilderness, in 1984.
    Even if Secretary Salazar were proposing to designate more 
wilderness, which he is not, his order would not violate the alleged 
promise of the Arizona Wilderness Act. That act, by its own language, 
is not the final disposition even of the wilderness question on the 
Strip, much less land use questions of entirely different scope and 
impact. The statute's release language clearly requires the Forest 
Service to reconsider in subsequent planning cycles, supposedly every 
ten years, the wilderness suitability of all lands not already 
designated. This is no accident. Release language was an extremely 
contentious issue throughout the wilderness debates of the 1980s. 
Opponents argued persistently that lands not designated wilderness 
should be barred from future wilderness consideration. Some went even 
further with proposals that amounted to a Congressional directive that 
multiple use lands are free of any conservation protections or that no 
more wilderness ever be designated. Mr. Udall was the prime opponent of 
this argument and he defeated every `no more'-type amendment he ever 
confronted. The bill as enacted adopted his position--that released 
lands should be eligible for reconsideration as wilderness--as did all 
other RARE II wilderness bills.
    BLM lands are not subject to the same statutory cyclical planning 
process as Forest Service lands. Therefore, they did not require any 
comparable release language. Had it been necessary, however, Mr. Udall 
obviously would have taken the same position, that future reviews of 
land status are necessary and proper and that no Act of Congress, 
either implicitly or explicitly, ought to foreclose the possibility 
that future citizens, future agencies and future Congresses might 
propose additional protections on these lands. To see the defeated 
argument of so many years ago returning as if it had won is 
discouraging to say the least, especially when it has been stretched to 
argue against an action that is not wilderness, that addresses lands 
not even considered in the formulation of the Arizona Wilderness Act 
and protects those lands to an entirely different object and in an 
entirely different way.
    It is true, of course, that lands released from wilderness study 
areas by the Act lost their interim protections, to be managed for 
multiple use under applicable law. It is also true that the committee 
report accompanying the Arizona Wilderness Act contains language 
generally laying out the desires of the interested parties and 
specifically describing how uranium mining might proceed with respect 
to lands outside BLM's Grand Wash Cliffs Wilderness and the Forest 
Service's Kanab Creek Wilderness. But the language makes it clear that 
even on those two sites and certainly elsewhere on all released lands, 
potential development was subject to the agency's full complement of 
land management tools and requirements. Those tools would include the 
ones Secretary Salazar has deployed. The report language cited by the 
October 12 letter provides no evidence at all that a promise has been 
made and broken.
    To release lands back to multiple use, as the Arizona Wilderness 
Act did, only meant that exploration and development could take place 
as determined by the relevant agencies acting in accordance with 
applicable law, not that it must. The Secretary's order is entirely 
consistent with that position as his authority to withdraw lands 
temporarily from new mineral entry is a recognized part of his land 
management options. Even if Secretary Salazar were proposing wilderness 
on lands already considered by the Arizona Wilderness Act, he would not 
be violating either its language or its spirit. He is not, and both the 
Act and its legislative history belie the notion that it was intended 
to be some kind of barrier against potential new protections, freezing 
lands use decisions made in 1984 for all time, despite new facts and 
new evidence or new values.
    I am utterly confident that this is exactly what Mr. Udall would 
have hoped would happen, that the Arizona Wilderness Act would be the 
catalyst for continuing concern and attention to protection of the 
Grand Canyon ecosystem, not less.
    If there is a promise implicit in the Arizona Wilderness Act that 
Mr. Udall's work would be the final word on the Arizona Strip not to be 
rewritten by those who came after him, I am quite certain Mr. Udall did 
not share it. In fact, I can think of no idea more contrary to Mo's 
most fundamental beliefs about the work he cared about so deeply.
    Mo was proud of his legacy as the greatest conservation legislator 
in American history. Thanks to his leadership, the national park 
system, the national wildlife refuge system, and the national 
wilderness preservation system were all more than doubled in size. The 
Alaska Lands Act was the single greatest stroke of conservation in the 
history of man. At every step of assembling that legacy, Mo's work was 
informed by what he often referred to as his `love of the land'. He 
believed it was the duty of every generation to exercise its own love 
of the land to meet future challenges he could never anticipate. The 
suggestion that he would have thought that any citizen or group of 
citizens, the Secretary of the Interior or the Congress of the United 
States was precluded by some deal or some judgment he had made a 
generation earlier from taking new action to express that love, on the 
basis of new information and new evidence in an entirely different 
context, is just utterly antithetical to everything he believed.
    Mo was Jeffersonian in his belief that every generation has the 
right and the duty to create its own world. He saw conservation as a 
dynamic process across time, an ongoing story to be written and 
rewritten every generation. He often talked about how as a younger man 
the mountains that ring Tucson were distant things, and that the city 
limits didn't even reach a ring of parks and wilderness areas that 
nearly surround it. But in his lifetime, Tucson had grown up to and 
beyond those mountains. The natural areas that used to be so distant 
are now islands in an urban sea. For him, it was evidence that you 
could never be visionary enough when it came to the land and you could 
never deny any generation its opportunity and its responsibility to 
take care of it.
    I don't know what Mo would have thought about the impact of uranium 
mining on the hydrology of the Grand Canyon ecosystem nor do I have a 
worthwhile opinion on that question. But I do know the charge Mo would 
have given me. He would have wanted to know two things--is there 
credible evidence of a problem that requires action, and is the 
solution proposed reasonable and effective. In the matter before you 
today those are the questions members of this subcommittee and this 
Congress, in the House and the Senate, should address.
    Mo's legacy is and always will be an enduring one. But Mo did not 
legislate on stone tablets. And he did not protect lands to prevent 
others from loving the land but to inspire them to carry on the great 
work. In the end, that is his true legacy, and if his work is to be 
invoked, let that be the cause it serves.
    Mr. Chairman, I am grateful for the opportunity to testify on this 
important matter.
                                 ______
                                 
    Mr. Bishop. Now beginning our questioning process for this 
panel. I know there is going to be multiple requests for 
rounds, so Mr. Grijalva, go ahead. Have at it. We will come 
back to you a couple of times I believe.
    Mr. Grijalva. Thank you very much, and let me thank the 
witnesses for being here today. In a partial I think for the 
record response, earlier we heard the issue of national 
security and to be able to produce our own uranium so that we 
don't import as much as we are importing now and that would 
enhance our national security.
    It should be noted, a Russian company within that 1 million 
acres that is being talked about controls 642 claims. And 
Members of the House, including Representative Bachus, Peter 
King, Mr. McKeon, Ros-Lehtinen, all wrote to the Obama 
Administration concerned about that, and to quote them, ``We 
remain concerned that Iran could receive uranium supplies 
through direct or secondary proliferation.'' The House Members 
wrote in opposition to those claims, about the claims from a 
Russian company that bought out an American company. National 
security.
    The issue of who is representing who in the area, you know, 
Coconino Board of Supervisors is on record supporting the 
withdrawal, the City of Flagstaff. The Navajo Nation in 2005 
not only banned uranium mining on their land but banned all 
processing on their land, on Navajo Nation land.
    So, in this debate about what to do with this withdrawal, 
the opposition is not isolated to one or two people I would 
add, and those 300,000-plus comments in the withdrawal, the 
vast majority of them favorable. While it is not a popularity 
contest, one should not claim purity of opinion because they 
represent an area that happens to support opening those areas 
up.
    Central Arizona project is opposed to it. Metropolitan 
Water District of Southern California, Southern Nevada Water 
Authority. And so let us not narrow the scope of the 
opposition. It is wide and it is deep.
    Mr. Abbey, is it correct that even with the full million 
acre withdrawal, uranium mining on existing valid claims will 
still be permitted?
    Mr. Abbey. That is true.
    Mr. Grijalva. OK. And even with the withdrawal, mining will 
be permitted on over 1.2 million acres of the Arizona Strip, is 
that correct?
    Mr. Abbey. Those acres would still be available for mining, 
yes.
    Mr. Grijalva. And the U.S. Geological Survey said this 
withdrawal, the million acres, would affect approximately 12 
percent of available uranium in Arizona. That is correct as 
well?
    Mr. Abbey. I don't know that, Congressman.
    Mr. Grijalva. And, Mr. Trautwein, thank you for your 
testimony again reemphasizing the point, but was the Arizona 
Wilderness Act of 1984 a wilderness act or a mining act?
    Mr. Trautwein. It was a wilderness act. It obviously 
considered some concerns of interest to the mining industry. 
But the purpose of the act was to designate wilderness and 
resolve issues regarding interim wilderness protections.
    Mr. Grijalva. And the 1984 Wilderness Act doesn't contain 
any language that discusses mining at all with regard to the 
Arizona Strip.
    Mr. Trautwein. The Act itself does not discuss mining per 
se, no.
    Mr. Grijalva. And so is it your understanding that when 
enacted, the 1984 Act, that was going to be the final word on 
future mining in the Arizona Strip?
    Mr. Trautwein. Not at all. As I said in my testimony, we 
were resolving a particular issue unique to that time of an 
immature BLM wilderness review process on the strip that was an 
obstacle to uranium mining by one particular company I might 
add at that time. It was fully expected that the Act itself and 
the Committee report make clear that these lands that were not 
designated as wilderness--and again, this is a minority of the 
lands that are being withdrawn by the Secretary, and a majority 
of the lands that were released have since been withdrawn for 
mineral entry.
    Mr. Grijalva. Thank you.
    Mr. Bishop. Mr. Johnson, do you have questions?
    Mr. Johnson of Ohio. I do. Thank you, Mr. Chairman.
    Mr. Abbey?
    Mr. Abbey. Yes, sir.
    Mr. Johnson of Ohio. Last week the Secretary announced that 
you will now be the head of a merged BLM and OSM. I have a few 
questions around that merger. First, can you tell me when and 
how you first learned of the Secretary's plans to merge the two 
agencies?
    Mr. Abbey. Well, first, Congressman Johnson, I am not the 
head of the OSM or the Bureau of Land Management merger.
    Mr. Johnson of Ohio. Are you going to be the head of the 
resulting agency?
    Mr. Abbey. Not necessarily.
    Mr. Johnson of Ohio. But you are aware of it.
    Mr. Abbey. I am aware of the proposal to consolidate the 
Office of Surface Mining with the Bureau of Land Management.
    Mr. Johnson of Ohio. OK. Are you aware, have any 
assessments or analysis been conducted in the past that 
evaluated the impacts of merging all or part of OSM statutory 
responsibilities with BLM or what is now ONRR?
    Mr. Abbey. We have underway right now steps to do just 
that, to assess the consequences of moving forward in a 
consolidated fashion so that we can share some of our 
similarities between the Office of Surface Mining and the 
Bureau of Land Management as well as the respect--the SMCRA, 
the authorities of SMCRA, which requires----
    Mr. Johnson of Ohio. So are you saying that the 
announcement was to consider merging? Because what I have heard 
is that an announcement has been made that the two agencies 
will be merged. What you are testifying to now sounds more like 
you are evaluating the implications of that and how it complies 
with existing law. Which is it?
    Mr. Abbey. The secretarial order announced a consolidation 
of the Office of Surface Management with the Bureau of Land 
Management.
    Mr. Johnson of Ohio. OK. All right. How can we merge or how 
can the Secretary merge the regulatory functions of OSM with 
the coal-leasing functions of BLM into a single agency when 
SMCRA, as you just mentioned it, specifically prohibits this?
    Mr. Abbey. Well, the consolidation is part of the 
Department's ongoing efforts to make government work better by 
increasing efficiencies and all that.
    Mr. Johnson of Ohio. OK. I understand that.
    Mr. Abbey. You understand that.
    Mr. Johnson of Ohio. But to do that requires congressional 
approval because there are existing laws on the books, right?
    Mr. Abbey. The proposed consolidation will honor the intent 
and requirements of SMCRA.
    Mr. Johnson of Ohio. No. You told me it wasn't a proposed 
merger. You told me that the Secretary had announced the merger 
of the two departments. So is it proposed or is it announced?
    Mr. Abbey. It is an announced consolidation of the two 
bureaus.
    Mr. Johnson of Ohio. OK. So it is not a proposal. The 
Secretary has decided to merge these two agencies, correct?
    Mr. Abbey. That is true.
    Mr. Johnson of Ohio. OK. All right. Well, so then it is a 
violation of SMCRA, would you not agree?
    Mr. Abbey. I do not.
    Mr. Johnson of Ohio. You do not?
    Mr. Abbey. I do not.
    Mr. Johnson of Ohio. You pick and choose which laws we 
comply with and which ones we don't? You want me to read it to 
you?
    Mr. Abbey. The consolidation has not occurred yet, 
Congressman Johnson.
    Mr. Johnson of Ohio. But you said it is going to.
    Mr. Abbey. At the conclusion of assessment and reviews and 
consultation.
    Mr. Johnson of Ohio. Has the Solicitor issued an opinion or 
anything in writing in support of the Secretary's order?
    Mr. Abbey. The Office of the Solicitor has been involved in 
these discussions.
    Mr. Johnson of Ohio. Has he issued a report?
    Mr. Abbey. They have not issued a formal opinion.
    Mr. Johnson of Ohio. OK. All right. You know, to be 
brutally honest, Mr. Abbey, I am confused because not more than 
just a few minutes ago you testified on behalf of the Secretary 
that you would deny placing a commemorative on the World War II 
memorial because there is existing law that prohibits that. Yet 
we have on the books an existing law that says that these two 
agencies, that the Office of Surface Mining and Reclamation 
cannot assume the responsibilities of another agency that has 
authority over coal mining and minerals and such.
    I am confused. The Department is citing a 1950s era law to 
justify the action and ignoring the 1970s law that I believe 
prohibits the merging. How do you justify that?
    Mr. Abbey. My testimony previously was based upon our 
feeling that your bill was inconsistent with the Commemorative 
Works Act.
    Mr. Johnson of Ohio. That is not my question. How do you 
justify violating the 1970s law that superseded the 1950s law 
that said that these two agencies can't be merged? How do you 
justify that?
    Mr. Abbey. Our actions will not violate that law. The 
actions that we take----
    Mr. Johnson of Ohio. If you merge the two agencies, it will 
without congressional relief from that law.
    Mr. Abbey. Under the consolidation, the Office of Surface 
Mining will continue to have a--it will be a separate entity 
within the Bureau of Land Management responsible for 
implementing SMCRA.
    Mr. Johnson of Ohio. Well, that is not what the law says. 
That is not what the law says. You know, if you are a simple, 
two-wheel wagon rut mule farm boy like me, I can tell you I am 
confused, and I guarantee you the American people are confused 
as well.
    Mr. Chairman, my time has expired, but if we have a chance 
for a second round, I have some additional.
    Mr. Bishop. There will be a chance for a second round. The 
gentleman from California, Mr. Garamendi.
    Mr. Garamendi. The proposed action of withdrawal is not yet 
complete. The decision, the final decisions, have not been 
made. Yet this legislation would terminate the process and keep 
these areas open, presumably for some national security 
reasons, that is, we need the uranium. Is that why? The 
advocate, the author of the bill is not here, but I presume 
that must be why he wants to do it. Or maybe it is for the jobs 
that could occur if there were unlimited opportunities for 
exploration.
    I understand that there are 11 claims that exist that are 
not yet in production. Is that correct, Mr. Abbey?
    Mr. Abbey. We project that even with a full withdrawal if 
that is the Secretary's decision that there would likely be up 
to 11 mines developed.
    Mr. Garamendi. And those must be based upon some existing 
claims.
    Mr. Abbey. They would be based upon valid, existing rights 
of the existing claims.
    Mr. Garamendi. So presumably there is some significant 
opportunity since there are only four mines in existence now to 
more than double the number of mines that are in the area, 
almost triple them. Also, it is not testimony that has been 
received, but I will assert, having studied this matter for 
some time, that there is ample uranium fuel available today to 
really power the entire world for about 1,000 years if we were 
to utilize the full recycling of existing uranium stocks.
    The uranium that would be mined here would be used in low 
light-water reactors that consume about 3 percent of the power, 
the energy in uranium. With the AREVA or the reprocessing 
system, you can consume another 3 percent, leaving something 
like 94 percent of the power of the energy in uranium behind to 
be disposed of in places like Yucca Mountain, which are 
controversial.
    The U.S. Government between 1960 and 1994 developed a 
recycling mechanism that would consume 90 percent of that 
energy. It was set aside even though it had proved itself to be 
viable with some 30 years of operation in what is known as an 
integral fast reactor and a pyroprocessing system. If the 
United States were to pursue what it has spent some 12 to $15 
billion perfecting, we could consume the existing used nuclear 
material, which is now called waste, and not need to mine 
another ounce of uranium.
    We have chosen not to do that for reasons that are obscure 
and incorrect, but if we would do it, we would not need to 
mine. So this is not a national security issue at all. This is 
an issue of choices that have been made. Now, if you want to 
promote some mining opportunities and some jobs, then go ahead 
and do this and see what the result would be. Additional 
contamination, additional problems that have already existed. 
There is a reason why the Navajo Nation has decided not to 
allow any more exploration in mining on the Navajo Reservation, 
because they have found it to create health hazards as well as 
contamination problems.
    So I would suggest that the argument that is being made 
that the Nation needs this material for the nuclear energy 
industry is incorrect. In fact, we have more than enough if we 
chose to recycle what we already have. And I would suggest we 
ought to do that and not do more mining in these particular 
areas that are potentially withdrawn when the Secretary comes 
to make his final decision.
    I have a question for the witness that was previously with 
the USGS. Are you now employed, or are you just retired? This 
would be Professor--rather Dr. Karen Wenrich.
    Dr. Wenrich. I am a private consultant. I did work after 
the USGS for the International Atomic Energy Agency for three 
years as their senior uranium geologist, but I am a private 
consultant right now.
    Mr. Garamendi. And who employs you now?
    Dr. Wenrich. I was doing some consulting work for some of 
the people putting together the EIS because they were basing it 
on a lot of my publications.
    Mr. Garamendi. OK. So you are employed by those who are 
advocating this piece of legislation.
    Dr. Wenrich. Not just them. I also have been employed by 
the BLM actually. I was hired to teach a class.
    Mr. Garamendi. But you are employed by those who are 
advocating the legislation?
    Dr. Wenrich. I work for whoever would like to pay me to do 
some uranium research and answer their questions.
    Mr. Garamendi. I am afraid I am out of time, but thank you.
    Mr. Bishop. Representative Gosar, do you have questions?
    Dr. Gosar. Yes. Director Abbey, I know my colleague 
preceded me kind of going about this same discussion. In 
Secretary Salazar's October 19 letter to me, the Secretary 
states that even with a full withdrawal, development of up to 
11 mines in the area over the next 20 years is reasonably 
foreseeable, including the four mines that are currently under 
approved operating plans. A Bureau of Land Management press 
release announces the release of the final draft environmental 
statement, the FEIS, a similar claim that has as many as 11 
uranium mines that could be operational over the next 20 years 
under the preferred alternative, including the four mines 
currently approved.
    I would like to expand on this. The Secretary's preferred 
decision withdraws over a million acres subject to valid 
existing rights. Can you define how the agency defines valid 
existing rights? Because a lot of different language has been 
used over the past two years on what specifically is not 
subject to withdrawal, and I know that all of us are concerned 
about the ever-changing landscape by the Federal Government. 
Can you give me a definition?
    Mr. Abbey. Well, valid existing rights is based upon rights 
that are possessed under the 1872 Mining Law that exists for a 
subject mining claim. What this means is if there is a 
discovery, a verification of discovery at the time of the 
withdrawal and the existence of a valuable mineral deposit, 
then that right will be honored.
    Dr. Gosar. So at what timeframe does something have to be 
defined as a valid existing right?
    Mr. Abbey. It would have to be a discovery, and that 
discovery would have to have the existence of a valuable 
mineral deposit at the time of the withdrawal. Now a validity 
exam would not be performed until we received a mining plan of 
operation from a proponent. At that point in time, we would 
move forward with the validity examination.
    Dr. Gosar. So that would be at the final decision?
    Mr. Abbey. It would result in a final decision, whether or 
not there was valid existing rights.
    Dr. Gosar. But that could be determined at that final 
decision.
    Mr. Abbey. Once a determination was made, that would be a 
final decision.
    Dr. Gosar. But are we talking--at the release of the final 
environmental impact study--two years ago, when the temporary 
withdrawal was first announced--so all of these would follow 
through?
    Mr. Abbey. The existing mines? We have over 3,000 mining 
claims.
    Dr. Gosar. Oh, I understand. I am more worried about----
    Mr. Abbey. About a million acres.
    Dr. Gosar. I am worried about this aspect because it seems 
like we are forever changing the mantra of how we define that. 
So it is not subject to the final discussion or the final 
claim. It is just about the discovery of that mining ore, that 
ore, and coming to a final decision.
    Mr. Abbey. At the point in time that we conducted a 
validity exam, we would look at those two criteria: was there a 
discovery at the time of the withdrawal and whether or not it 
was an economic recovery or discovery.
    Dr. Gosar. So out of these 11 sites the Department claims 
could come to fruition are deemed valid existing rights by the 
Department today? Would all 11 be deemed that?
    Mr. Abbey. No. No. This is just a projection.
    Dr. Gosar. Just a projection. Where does the Department get 
this 11 number?
    Mr. Abbey. It would be based upon historic mining, it would 
be based upon our knowledge of various claims. It would be 
based upon information that has been shared with us by the 
companies themselves. But we have not conducted a formal 
validity exam of any proposal that are likely to come forth.
    Dr. Gosar. Are you aware of the FEIS proposal that there 
were 30 proposed mine sites?
    Mr. Abbey. We are aware in the EIS that if there is not a 
full withdrawal that we project up to 30 mines would be 
developed.
    Dr. Gosar. So now we are moving this number again. The BLM 
has regulations addressing when to require a valid existing 
rights determination for lands that have been segregated or 
withdrawn on, 43 C.F.R. 3809-100, right?
    Mr. Abbey. Yes.
    Dr. Gosar. Specifically, the law states that th BLM can 
allow exploratory operations in order to collect information 
from a mineral exploration point if such a report was not 
completed before the withdrawal goes into effect, but a claim 
was put in. Why wouldn't all 30 of these potential mines be 
subject to the special provisions under Federal code?
    Mr. Abbey. Because we have not conducted a valid existing 
right determination of any of those claims. What we have 
projected in the final EIS or even in the draft EIS is that if 
there is no withdrawal that there would likely be up to 30 
mines to be developed in this area. That is not based upon a 
recognition of valid, existing rights. That is based upon what 
we project to occur in the next 20 years. They could be based 
upon new mining claims being filed out there.
    Dr. Gosar. But isn't it existing based upon what we defined 
in the determination that these are existing mining claims? The 
30, not 11, the 30.
    Mr. Abbey. Well, what we do know, Congressman, is that 
there are over 3,000 mining claims today in this area.
    Dr. Gosar. But in this area that we are talking about and 
which this bill is talking about, there are 30 claims, not 11.
    Mr. Abbey. In this area that the bill is talking about, 
there are over 3,000 mining claims.
    Dr. Gosar. What we are talking about in regards to this 
determination is 30, not 11, in this withdrawal.
    Mr. Abbey. What we are talking about in our analysis is 
that we project based upon valid existing rights that there 
would likely be 11 mines developed even with a full withdrawal.
    Dr. Gosar. Thirty potential though.
    Mr. Abbey. The 30 represents the likelihood of 30 mines 
being developed if the withdrawal was not in effect.
    Mr. Bishop. All right. There will be time for additional 
questions here from everybody. Let me take my chance to do a 
few here. Supervisor Johnson, if I could deign to ask questions 
from somebody else here, what have the local BLM officials said 
about this proposed withdrawal?
    Mr. Johnson. Mr. Chairman, we were told at one of our 
meetings of the Arizona-Utah Coalition by Scott Florence--he is 
the Arizona Strip district manager--that the regular resource 
planning process basically wasn't followed. What that means is 
at the lower level, when they see a problem or they have a 
concern, they work it from the bottom up.
    This came from Secretary Salazar from the top down. So I am 
not aware that Secretary Salazar has ever set foot on our land, 
so it must have come as a vision.
    Mr. Bishop. OK. So there was some disconnect between what 
those on the ground are saying with what those here in 
Washington are saying in this, right?
    Mr. Johnson. Yes.
    Mr. Bishop. Your slides were very interesting. What is the 
conclusion that you made from the slides about tourism in the 
Grand Canyon when mining was its peak in the eighties?
    Mr. Johnson. That they both grew at the same time. When 
mining was at its peak, the tourism was at its peak. They go 
hand in hand.
    Mr. Bishop. So these horrible mines are not driving people 
away out of fear of glowing in the dark from the Grand Canyon.
    Mr. Johnson. No, not at all. And I think they actually 
enhance it because we have more people there who actually can 
go to the Grand Canyon and enjoy it.
    Mr. Bishop. They are apparently not driving away your 
constituency either at the same time?
    Mr. Johnson. No, no. The only thing driving away our 
constituency is lack of jobs, sir.
    Mr. Bishop. Dr. Wenrich, you did a couple of hypothetical 
surveys, i.e., as to a truck accident. And I appreciate your 
comments that this stuff is not going to be kept onsite, so 
obviously some of the considerations that were being made in 
the EIS are making assumptions that are not practical in 
reality. But you said that when you found there would be no 
significant increase in uranium in the Colorado River if a 
couple of truckloads were to actually be dumped in the river, 
how many truckloads of ore would it take to see an elevation in 
contamination that goes above EPA's safe standards?
    Dr. Wenrich. Well, the EPA safe standard is 30 parts per 
billion. To get the level up to 32 parts per billion, it would 
take 8,000 trucks each hauling 66,000 pounds of ore.
    Mr. Bishop. OK. I am sure we can find that many drunk truck 
drivers to actually accomplish that for you. Director Abbey in 
his statement said that the EPA standards found levels of 
uranium in 15 springs and five wells in his EIS that are higher 
than the EPA standard. First of all, is that a logical 
justification, and is that a justification for closing uranium 
mining?
    Dr. Wenrich. Well, first of all, he said that they were 
from natural sources or from mines, and I don't know of any 
more than one that could even possibly be related to mines. 
Most of them are from the natural uranium erosion in the Grand 
Canyon. And I am actually quite terrified that we would mix 
mining with natural erosion. I am not sure I understand why we 
would penalize the mining industry because of natural erosion. 
In fact, you could even make the statement that the mining 
industry would remove some of the uranium that is getting into 
the system naturally.
    Mr. Bishop. The uranium mines could be presented. Is there 
enough rainfall that takes place on the strip to assume that it 
could actually erode down to that area and run it into the 
Colorado River or the Grand Canyon?
    Dr. Wenrich. Well, if a mining company was sloppy with 
their ore piles, it could be a problem, but they haven't been. 
There was one very, very minor mishap, but the ore didn't go 
anywhere, and it was all picked back up within a few feet. That 
was a flash flood. For the most part, the groundwater table is 
down 2,000 feet, and the ore is well above that. And there has 
been really no evidence of any contamination into the water 
system. There have been all kinds of studies done subsequent to 
the mining, and the mines that were done in the 1980s and early 
1990s, you can't even find where the mines used to be.
    Mr. Bishop. Thank you. That seems consistent with the 
testimony we have had at other hearings on this particular 
issue at the same time.
    Mr. Trautwein, I am troubled by your testimony. While it is 
technically correct, it is technically correct in a way that 
gives me some kind of concern or heartburn at the same time. 
For example, when in your written testimony you say that the 
designation of the two large national monuments proclaimed and 
implicitly if not explicitly ratified by Congress, all without 
any objection, that the congressional intent of 1984 had been 
abused. That is technically correct.
    It is also an inaccurate statement at the same time because 
that is not necessarily what people were saying about it at the 
time. It is true that the Act itself did not have some of the 
prohibitions you mentioned or talk about them. But the report 
did and the agreement did. I find it troubling when Senator 
McCain, former Senator DeConcini, Senator Hatch all come here 
and have a different opinion of what was happening at the time 
than you have given and so does the BLM district director who 
was there at the time.
    In his statements, after some 27 years, it seems that those 
negotiations and agreements have been forgotten. A withdrawal 
from the mining entry is in direct conflict with the good-faith 
efforts put forth by the stakeholders and a mockery of the 
stakeholders' negotiation process.
    Now what you said is technically accurate, but this is the 
spirit of what happened at that particular time. Now, Mr. 
Abbey, this is one of the things for which we have difficulty. 
If you recall in the 30 seconds that I am going to lose because 
I can't say this and then ask you a question, so I am going to 
quit and come back to you in the next round. Be ready for me.
    Mr. Grijalva, do you have other questions?
    Mr. Grijalva. Yes. Thank you, Mr. Chairman.
    Mr. Trautwein, in the proposed withdrawal that the 
Administration put forth designating the area as wilderness, is 
there a difference between wilderness and a simple withdrawal 
from mining? Because I think we are getting----
    Mr. Trautwein. Well, they are totally not the same thing. 
As I said, wilderness covers many, many activities. The 
withdrawal order covers this single activity. To call this a 
wilderness, a de facto wilderness, is tantamount to saying that 
anytime the Secretary or the agency chose to close a road for 
public safety reasons or declined to open a road, anytime it 
declined to issue an oil and gas or coal lease, anytime it 
refused to site a solar power plant or a wind farm on multiple 
use lands that he was turning those lands into de facto 
wilderness when they are not comparable at all.
    Mr. Grijalva. Thank you. Director Abbey?
    Mr. Abbey. Yes.
    Mr. Grijalva. My understanding, 300,000-plus public 
comments were submitted to the draft environmental impact 
statement that your agency prepared. Are you able to tell the 
Committee what percent of the comments were in favor of the 
full million acre, or are we at that point yet?
    Mr. Abbey. Yes. Well over 90 percent of the comments we 
received were favorable of the entire withdrawal.
    Mr. Grijalva. And in terms of the amount of public 
comments, how would you categorize them compared to other 
processes that----
    Mr. Abbey. A little higher than most, even though many of 
our issues today are becoming more and more controversial. The 
fact is that we received close to 380,000 submissions during 
scoping as well as the public review process. It is not just 
the numbers that we received. It was the substance of the 
responses that we received and the data and the information 
that they provided and the passion that they had relative to 
protecting these areas.
    Mr. Grijalva. And if you could briefly describe the nature 
of the comments that you received from tribal governments, 
native peoples during your consultations.
    Mr. Abbey. Well, the tribes who did comment, and there were 
many, were unwavering in their support for the full withdrawal 
right from the beginning. When the issue was first surfaced 
during scoping, the tribes that participated, and we had 
actually two tribes serve as cooperating agencies as part of 
the planning process, but all of the tribes were very 
supportive of a full withdrawal to protect their heritage and 
to protect the areas that they most value.
    Mr. Grijalva. And let me thank you and your agency for the 
government-to-government consultations you have had with the 
various tribal governments. It is a practice that I would hope 
more agencies undertook here. But I appreciate that. I know the 
tribal government does as well.
    Ms. Wenrich, let me ask you a couple questions. Do you 
stand to benefit personally if the Department's proposed 
withdrawal is terminated? In other words, would you benefit 
financially if the bill you are testifying on were enacted and 
became law?
    Dr. Wenrich. Just like everybody in northern Arizona, I 
stand to benefit from having a job. But if you are thinking 
that that is going to affect my testimony, I might point out to 
you that I am a research scientist with a Ph.D. I have done 
almost all of this research prior to this.
    Mr. Grijalva. OK. But I am asking if--well, Mr. Chairman, 
let me just submit for the record copies of a Securities and 
Exchange Commission filing by American Energy Fields, 
Incorporated that states that the witness will receive at least 
$225,000 for selling 61 uranium claims that she currently owns 
in northern Arizona once, once the withdrawal is terminated. Is 
that SEC filing correct, Ms. Wenrich?
    Dr. Wenrich. I think you need to give me the courtesy of 
explaining the fact----
    Mr. Grijalva. The courtesy is all yours.
    Dr. Wenrich.--that everything that I have done in this 
research was prior to me owning those claims that I started two 
years ago. All research is based on previous work that was done 
long prior to this when I was a government scientist and when I 
worked for the International Atomic Energy Agency. As a 
scientist, I believe in giving all the facts, and I challenge 
you to find where my facts are erroneous. So I think whatever 
my career opportunities are, it is irrelevant to what I am 
presenting here.
    Mr. Grijalva. The question, is the filing correct or not?
    Dr. Wenrich. I just said it was correct.
    Mr. Grijalva. It was?
    Dr. Wenrich. Yes, it is correct.
    Mr. Grijalva. Thank you. Out of time, sir.
    Mr. Bishop. Mr. Gosar.
    Dr. Gosar. Mr. Chairman, I would like to officially--I know 
that before I got here, we had a statement presented by Mr. 
Grijalva that is incorrect. I want to submit for the record a 
letter from the CAP Board dated May 3, 2011. It officially 
talks about the CAP water has not officially taken any stance 
on regards to Mr. Franks' bill. But in their letter they submit 
that clearly states that they are not opposed but just 
encourage compliance with environmental law.
    Mr. Bishop. OK. I will allow for the separate filing.
    [The letter from the CAP Board follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






    Dr. Gosar. Mr. Abbey, let us go back here to our previous 
discussion.
    Mr. Abbey. Please. Yes.
    Dr. Gosar. OK? If the withdrawal is finalized to date, 
right now----
    Mr. Abbey. Yes.
    Dr. Gosar.--how many claims are defined as to have valid 
existing rights?
    Mr. Abbey. I could not give you that answer because we have 
not conducted validity exams.
    Dr. Gosar. So then, you know, in regards to if this 
withdrawal is necessary, wouldn't all of this analysis be done, 
all compliance with Federal land development be done with or 
without the withdrawal?
    Mr. Abbey. The number of mines that would exist under a 
withdrawal versus without a withdrawal would be different.
    Dr. Gosar. But according to this, as of today, it should be 
30 based upon what is defined in this law, what we have cited 
earlier on 3809-100. There should be 30. If I am reading this 
right, it should be 30 as defined.
    Mr. Abbey. No. Congressman, again, we are not in the 
position of telling you exactly how many valid existing rights 
exist within the 3,300 mining claims that are out there today.
    Dr. Gosar. So let me ask you this. At what point can the 
agency deem these invalid in your administration or any other 
administration in the future? Are we talking about 20 years 
from now? Can they no longer utilize the special provisions to 
this?
    Mr. Abbey. No. What we would normally do is wait until we 
receive a specific proposal before conducting a validity exam. 
Now this is the Bureau of Land Management. We would wait for a 
mining plan of operation to come forward, and at that point in 
time, if the area was withdrawn, we would conduct a validity 
exam.
    Dr. Gosar. OK. Ms. Wagner, isn't most of the problems with 
the Native Americans actually indicated by the government's 
role in uranium mining?
    Ms. Wagner. To me or to Ms. Wenrich?
    Dr. Gosar. Wait a minute. I am sorry. Isn't the Native 
Americans' problem with uranium mining predominantly based upon 
what has happened--I mean Karen, I am sorry--problems with 
government mining of uranium?
    Dr. Wenrich. Yes, that is correct. Unfortunately we are 
mixing apples and oranges. The modern mining is so different 
from what was done in the 1950s, and they are basing all of 
their emotion on what was left over in the 1950s when nobody 
thought to clean up piles of tailings and waste rock. Nobody 
ventilated the mines and nobody worried about miners who smoked 
being irradiated 10 times more than somebody who didn't smoke. 
So, yes, that is correct. All of this is based on old mining.
    Dr. Gosar. And I know a lot of this. I mean, I am citing 
October 20, 2011, Thursday, The Daily Sun out of Flagstaff 
talks about EPA wraps up uranium mine cleanup on the Navajo 
Nation. And that is not really true, is it? We got lots more 
problems because of government mines, don't we?
    Dr. Wenrich. There are still some, but they have done a 
pretty good job of cleaning most of it up. But there are still 
some.
    Dr. Gosar. Well, what about the Tuba City Mine, the dump 
site?
    Dr. Wenrich. I think most of that has been pretty well 
cleaned up because as I drove by about a year ago, it was very 
different than it had been 10 years ago.
    Dr. Gosar. Well, not really.
    Dr. Wenrich. Oh, OK.
    Dr. Gosar. We have a problem, OK? This is overseen by the 
Department of the Interior, and we have a huge plume that is 
moving into water supplies all the way around that dump, 
implicating not only Tuba City but the Hopi Tribe as well. But 
once again, this was under the government, and so there is a 
very different type of a rules scenario and process than was 
before.
    Dr. Wenrich. I might point one thing out though. In that 
area, the uranium is right at the surface in a chimney 
formation, and it is very difficult to determine what is 
naturally occurring and getting into the water system from what 
is left over from the old mining. Granted, there is enormous 
contamination from the old 1950s mining and mill site.
    Dr. Gosar. Mr. Chair, just for the record, a petition where 
187 Navajos are opposed to withdrawal for economic benefits for 
the record as well.
    [The petition submitted by Dr. Gosar has been retained in 
the Committee's official files:]
    Dr. Gosar. You know, and that is our biggest problem is we 
are finding a source of problems is the Federal Government 
itself, and there is no bigger critic than my family of uranium 
mining in the past from western Wyoming. But what we have to 
deal is facts, not hearsay, not scare tactics but the facts. 
And I am seeing it very clouded and misrepresented. So my time 
is up, and I thank you.
    Mr. Bishop. Mr. Garamendi.
    Mr. Garamendi. I think the gentleman should add to it that 
these were private mines that were operated during that period 
of time in the fifties and that the operators abandoned the 
mines and the Federal Government was left to clean it up. And 
whether the cleanup is complete or not or whether it was done 
as well as it should have been done is a question, but again, 
it was private mines. My understanding is there are some 3,000 
claims, mining claims, in the area that is going to be 
withdrawn. Is that correct?
    Mr. Abbey. That is correct.
    Mr. Garamendi. OK. And the analysis made by the Bureau of 
Land Management is that of those 3,000 there is a probability 
that some 11 would, could prove to be actual mines, is that 
correct?
    Mr. Abbey. That is correct.
    Mr. Garamendi. Now the process of proving up a claim is 
quite different than filing a claim, is that correct?
    Mr. Abbey. That is correct.
    Mr. Garamendi. So what we are talking about here is the 
3,000 claims have been filed. It is up to the claimant to then 
prove that an actual mine can exist, and that does require that 
there be a mining plan and the various environmental things go 
forward. And based upon the analysis done by the Department, by 
the Bureau, is that of the 3,000, perhaps 11 would prove to be 
actual mines. Is that correct?
    Mr. Abbey. That is the projection that we made based upon 
an assessment.
    Mr. Garamendi. But the other 2,989 could also prove to be 
mines, is that correct?
    Mr. Abbey. We would conduct a validity exam to determine 
whether or not they had valid existing rights.
    Mr. Garamendi. But it is up to the claimant to pursue it, 
correct?
    Mr. Abbey. It would be up to the claimant to pursue it.
    Mr. Garamendi. OK. So there is some potential for an 
enormous number of mines here, but the odds are there is likely 
to be only 11. That is two and a half times more than exists 
today I think by rough mathematics. So we are talking about 
here an area that is to be withdrawn that nonetheless has some 
3,000 existing claims on it, unproven but existing claims. So 
what is the problem here? What is the problem? I think the 
problem is one of politics and perception rather than reality.
    The reality is that a good deal of mining could take place 
in these areas that are going to be withdrawn, and therefore, 
we are down to a perception problem. Let us beat up the Bureau 
of Land Management and the Secretary because that seems to be a 
pretty good sport now here in this capital when in reality 
there is the potential already existing in this area of a whole 
lot of mining to go on.
    Whether it should or should not we can debate. But the fact 
is that the withdrawal does not change the reality on the 
ground that there are 3,000 existing claims that the claimant 
could if they chose to prove up and get a mine underway. Now 
there are environmental issues and there are mining laws and 
all the rest that need to be done.
    And by the way, what does the Federal Government get out of 
this? Is there a royalty? No, there is not a royalty. It is 
our, our, the American public's, uranium. And the American 
public, operating through the Secretary, has decided no more 
claims. There are already 3,000, no more needed. Thank you. 
Enough already. And by the way, the U.S. taxpayer has been left 
to clean up the old mines in this area. We don't need anymore. 
The withdrawal is appropriate. The Secretary will make a final 
decision when the time comes. This bill is totally 
inappropriate. I yield back.
    Mr. Bishop. Thank you. Let me engage I guess in politics 
for a second here. The 3,000 mine claims that are still out 
there, Dr. Wenrich, what would have to be the condition before 
any of those could actually be identified or move forward?
    Dr. Wenrich. Thank you for the opportunity. I think there 
is a lot of misunderstanding here over the mining law and the 
process. First of all, as Mr. Abbey has said, each holder of 
the claims has to prove that they have valid uranium on those 
claims. It is impossible for 95 percent of those claims to 
prove that because they have been denied the opportunity to 
drill on those claims and make a discovery. Without a 
discovery, they cannot fulfill the Bureau of Land Management's 
validation of these claims. And so it is very misleading to say 
that.
    So basically every one of the claim holders out there is 
going to lose its money. Also to say that the Federal 
Government gets nothing is erroneous. Just ask me every time I 
have to write a check for those claims I have been accused of 
having to the Bureau of Land Management. It is significant. We 
pay hundreds of thousands of dollars in maintenance fees.
    Mr. Bishop. Let me see if I can restate that in words that 
I understand by myself.
    Dr. Wenrich. I am sorry. OK.
    Mr. Bishop. It simply means that those 3,000 claims could 
have been done were they allowed to drill in there, produce the 
ore, make the statement, all of which have been precluded by 
the Secretary's withdrawal.
    Dr. Wenrich. Correct.
    Mr. Bishop. So, if they had done that before 2009, it would 
be possible to do that. That is why we are going to end up with 
around 11 mines----
    Dr. Wenrich. Exactly.
    Mr. Bishop.--because those are the only ones that have 
actually done that before 2009 when Secretary Salazar made his 
very precipitous action. Ms. Wenrich, I have one last question 
to you, and I think it is only fair to ask you this. Do you 
stand by the data you have submitted to this group?
    Dr. Wenrich. I absolutely do. And whether I hold any mining 
claims that I have had since only two years has absolutely no 
bearing on all the research and everything I have stated in 
here. I would like to think that I have the utmost of 
scientific integrity.
    Mr. Bishop. Thank you. Mr. Abbey, did the EIS reveal 
damage, direct damage, substantiated damage to the Grand Canyon 
watershed as a result from uranium mining?
    Mr. Abbey. The draft EIS stated that there was incomplete 
and unavailable information that added uncertainty to the 
analysis and cited potential risk of mining.
    Mr. Bishop. Thank you. And I appreciate that. That is one 
of the things that worries us on why we are proceeding to make 
some final statements with, you know, incomplete data at that 
particular point. I do have some concern though. You know, if 
the Department is willing to allow 11 mines to go forward with 
the great risk that this would bring to the Grand Canyon and to 
all the people in Los Angeles and Las Vegas who would be 
drinking the water, where is the humanity if you actually are 
going to allow 11 mines to go forward?
    Mr. Abbey. It is based upon the rights that were conveyed 
to miners by the 1872 Mining Law.
    Mr. Bishop. But those 11 mines won't destroy people and 
destroy all the visitors that are going to come to the Grand 
Canyon?
    Mr. Abbey. Mr. Chairman, the question that is before the 
Secretary at this point in time is not whether to stop cautious 
and moderate uranium development but whether to allow 
unprecedented levels of uranium mining in this area without 
knowing the full consequences of that action.
    Mr. Bishop. And your data so far is not close to that. But 
I have to say this. And you notice I was maybe saying something 
with sarcasm, which I am not known to do. But if you are 
willing to go forward with 11 mines, that says something about 
the overall concept that is going along here and some of the 
rhetoric that is taking place in this entire debate, in the 
entire debate.
    Now does anyone happen to know how much uranium we import 
into this country? If you don't, that is not unacceptable. I 
think the next panel will go into that in some detail. Does 
anyone happen to know that?
    Mr. Johnson. I believe, Mr. Chairman, we import 90 percent 
of it.
    Mr. Bishop. OK. And yet somebody testified that 40 percent 
of all our resources are actually here in this particular area 
in the United States.
    Mr. Johnson. Yes, sir. And also, because of the high grade, 
it will make other uranium sites around the United States 
useful again as far as mining.
    Mr. Bishop. All right. I appreciate all of you, and I am 
ready to move on. But, Mr. Abbey, I have to ask you three last 
questions.
    Mr. Abbey. Please.
    Mr. Bishop. And I know you are going to be ready for these. 
Is the BLM doing any work on potential Antiquities Act 
designations?
    Mr. Abbey. No.
    Mr. Bishop. Has the Secretary or anyone in the Department 
asked BLM for input on any potential designations?
    Mr. Abbey. Under the Antiquities Act?
    Mr. Bishop. Yes.
    Mr. Abbey. No.
    Mr. Bishop. OK.
    Mr. Abbey. Mr. Chairman, could I make one statement though?
    Mr. Bishop. I have 37 seconds. Go for it.
    Mr. Abbey. In response to an allegation that was raised. 
The integrity of the BLM's planning process and NEPA analysis 
has not been jeopardized. I think where the local field 
manager, in this case a district manager, made a statement is 
that the decision whether or not to withdraw this area is a 
decision of the Secretary of the Interior. It is not his 
decision to make.
    When the Secretary selected the preferred alternative as 
the full withdrawal, it was based upon a recommendation that 
came from me, from the Director of the National Parks Service, 
from the Chief of the U.S. Forest Service and the Director of 
the U.S. Geological Survey. That is normal when it is a 
secretarial decision and not a decision to be made by the 
district manager.
    Mr. Bishop. Mr. Abbey, I will conclude here. And I don't 
have any--do you have any other questions before I ramble on 
here, if we are ready--do you have any for these witnesses 
before--let me just close this panel out then and make this 
last rambling comment.
    It is frustrating to me that the preferred alternative from 
the Interior Department matches the original withdrawal 
concept, especially based on the data that has been presented 
by Interior versus the data that has been presented by other 
groups so far.
    Mr. Abbey, there was a time when you and the Secretary, 
Representative Hastings, Representative Simpson and I had some 
private conversations. And I said that there were some 
frustrations we felt in moving forward with wildlands, which 
was the topic at that point, because we did not trust what 
would happen in the future. You made accommodations with that 
and I want to publicly acknowledge that, and I appreciate those 
accommodations. Even though you didn't withdraw the order, I 
still trust your accommodations on that.
    This is the same kind of situation in which a prior 
Congress, the Members sat down and they made accommodations. 
Maybe not technically within the bill, but the accommodations 
were clearly there. And all those who were involved in it 
understood it. And now once again we are going back on those 
accommodations, which means looking forward to the future, I 
hope you can understand why some of us want to always insist 
there is hard-release language everywhere because we don't have 
a whole lot of faith in what can happen in the future. And this 
is a classic example of that.
    Anyway, I appreciate it. Now, Mr. Abbey, Ms. Wagner, if you 
would like to stay for the other panel, you are welcome to. If 
you don't want to, you are welcome to do whatever you want to 
do at this stage. I would even invite you up on the dais 
because no one else has accepted that offer from me so far. We 
will see what happens. But I appreciate that.
    With that, this panel is excused with expression of 
gratitude for your willingness to come here and speak to us. I 
would like to now invite another panel. And once again, 
Director Abbey and Ms. Wagner, if you would like to stay, you 
are welcome to. If you don't, that is your choice.
    I would like to invite Mr. Harold Roberts, who is the 
Executive Vice President of Denison Mines; Mr. Richard Myers, 
who is Vice President of the Nuclear Energy Institute; and Mr. 
Stephen Verkamp, who is the President of Verkamp's, 
Incorporated. If they would come and join us.
    Gentlemen, we appreciate you being here. I think you heard 
the drill on every other panel before. You still know the bit. 
Your written record is already--oh, good grief. Your written 
statement is already in the record. And this is the oral 
portion to it, five minutes before you, green go, yellow get 
ready to stop, please stop at red if possible. And with that, 
we would like to turn first to Mr. Roberts from the Denison 
Mines for your comments to the Committee if you would, please.

                 STATEMENT OF HAROLD ROBERTS, 
            EXECUTIVE VICE PRESIDENT, DENISON MINES

    Mr. Roberts. Thank you, Mr. Chairman, Ranking Member 
Grijalva, Members of the Committee. I appreciate the 
opportunity to speak to the Committee today. Again, my name is 
Harold R. Roberts. I am Executive Vice President, U.S. 
Operations, for Denison Mines USA Corp.
    Denison is a publicly traded company with uranium recovery 
operations in the Western U.S. as well as properties in Canada, 
Mongolia and Zambia. Our holdings in the U.S. include three 
operating uranium mines in Utah, two operating mines in 
northern Arizona and the only operating uranium mill in the 
U.S., located in southeastern Utah. We currently directly 
employ over 350 people in our U.S. mining and milling 
operations.
    I am here today to voice our support for H.R. 3155, the 
Northern Arizona Mining Continuity Act of 2011, and to express 
our concerns about the negative impact from the Department of 
the Interior's plan to withdraw from mineral entry over 1 
million acres in northern Arizona. This action will have long-
lasting, negative effects on our company, other exploration and 
mining companies and most importantly will negatively impact 
the long-time residents and citizens of the Arizona Strip.
    On the Arizona Strip, Denison currently employs 60 people 
earning from $35,000 to $115,000 per year plus benefits. The 
company also hires an additional 15 subcontractors. In addition 
to our two operating mines on the Arizona Strip, the company 
has plans to open mines on three additional ore deposits in the 
next two years. While the withdrawal will not affect the 
currently operating mines, it will potentially jeopardize the 
plans for the three additional ore deposits controlled by 
Denison and possibly takes those property from us and 
eliminates the future jobs.
    The two current mines in the Arizona Strip will be mined 
out in one to three years, and the new mines are critical to 
maintaining and growing the current workforce. The uranium 
deposits in northern Arizona called breccia pipes are unique in 
that the ore grades are some of the highest in the U.S. The 
surface disturbance for a fully developed mine is relatively 
small, less than 20 acres or about the size of a WalMart 
parking lot. The mines are generally dry, and the timespan from 
development through full reclamation is less than six to eight 
years.
    Once fully mined out, the reclaimed sites exhibit no 
evidence of past activity and are returned to the original land 
use. The Bureau of Land Management's own draft environmental 
impact statement on the withdrawal stated that there is no 
contamination of the Colorado River watershed, and that quote 
is in my testimony. I won't repeat it here. It has been talked 
about enough today already. Denison acquired the Arizona mines 
from my former employer, Energy Fields Nuclear, who discovered, 
permitted, operated and successfully reclaimed five breccia 
pipe mines in northern Arizona in the 1980s and early nineties.
    The reclaimed sites demonstrate that these deposits can be 
developed with little or no impact to the environment while 
still providing high-paying jobs to local and state economies 
in Arizona and Utah. The current perception that uranium mining 
is detrimental to the environment of northern Arizona is not 
supported by the history of similar operations. In the 1980s, 
at the time Energy Fields was operating on the Arizona Strip, 
similar cries for protection of the area were heard.
    Working with environmental groups and Federal and State 
legislators, a landmark compromise between the environmental 
and mining communities resulted in the Arizona Wilderness Act 
of 1984. This also added more than a million acres of land to 
the national wilderness preservation system and provided that 
mining and grazing be allowed in those areas released for 
multiple use and not designated as wilderness if conducted in a 
responsible and sustainable manner.
    The Act specifically directed that nearly half a million 
acres of Bureau of Land Management lands and 50,000 acres of 
Forest Service lands be released from wilderness study area 
status with the understanding and intention that uranium mining 
would be allowed on the Arizona Strip and in the Kaibab 
National Forest.
    Since the passage of the Act, uranium mining activities in 
northern Arizona have a proven track record of production and 
reclamation that has not impacted the Grand Canyon. Rather than 
respect a longstanding and carefully crafted compromise agreed 
to by all parties, the current Administration would rather 
march forward with their goal of locking up even more Federal 
lands to responsible authorized multiple use in the West.
    The Administration is effectively eliminating high-paying 
local jobs instead of stimulating job growth in the local 
depressed economy of northern Arizona and southern Utah. The 
proponents of the Arizona Strip withdrawal talk of stopping 
uranium mining in the Grand Canyon. This is a convenient, self-
serving distortion of the truth. There currently is no mining 
in the Grand Canyon, nor are there plans for future mining in 
the Grand Canyon National Park.
    The ore from Denison's Arizona Strip mines is shipped for 
processing to the White Mesa Mill located near Blanding, Utah. 
The mill currently employs 150 people, approximately 60 percent 
of whom are Native American. Ore from the Arizona Strip mines 
currently supplies approximately 25 percent of the conventional 
ore feed to the mill and because of the high grade provides 
approximately 45 percent of the uranium production. Loss of 
this production will have a significant impact on the White 
Mesa Mill operations. In the long-term, Denison is counting on 
our Arizona Strip production as well as other companies' future 
mines on the Strip to continue to provide a significant volume 
of feed to the White Mesa Mill.
    The proponents of the withdrawal promote the erroneous 
theory that the withdrawal will not impact the long-term 
exploration potential of the area. This could not be further 
from the truth. The withdrawal area was carefully chosen by the 
Department of the Interior and environmental groups to 
encompass all of the proven breccia pipe uranium deposits and 
to cover all of the area of the highest known occurrences of 
mineralized braccia pipes. The withdrawal area covers the 
largest percentage of mining claims in the region, which is not 
surprising in that the mining companies only stake claims in 
areas of highest potential.
    Mr. Bishop. Can I ask you to quickly summarize?
    Mr. Roberts. As a reasonable person, I find it incredible 
that the Secretary of the Interior would announce earlier this 
year that the final environmental impact statement would have 
the full withdrawal area as the preferred alternative before 
the final document was published and without regard to any of 
the no-impact findings on the historical mining activities.
    The Secretary has essentially made his decision on the 
withdrawal that day. As an individual taxpayer and businessman, 
I also find it incredible that the Secretary and this 
Administration would spend possibly millions of dollars on an 
environmental impact statement and then totally ignore its 
findings and the hard work put forth by the employees of the 
Bureau of Land Management and the U.S. Geological Survey. This 
action results in a total waste of taxpayer dollars and is an 
outright slap in the face to those hardworking employees.
    Mr. Bishop. Thank you.
    Mr. Roberts. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Roberts follows:]

Statement of Harold R. Roberts, Executive Vice President, Denison Mines 
 (USA) Corp., Concerning H.R. 3155, Northern Arizona Mining Continuity 
                              Act of 2011

    Mr. Chairman, members of the committee, I appreciate the 
opportunity to speak to the Committee today. My name is Harold R. 
Roberts. I am Executive Vice President, U.S. Operations for Denison 
Mines (USA) Corp. Denison is a publicly traded company with uranium 
recovery operations in the western U.S., as well as properties in 
Canada, Mongolia, and Zambia. Our holdings in the U.S. include three 
operating uranium mines in Utah, two operating mines in northern 
Arizona, and the only operating uranium mill in the U.S., located in 
southeastern Utah. We currently directly employ over 350 people in our 
U.S. mining and milling operations. I am here today to voice our 
support for H.R. 3155, the Northern Arizona Mining Continuity Act of 
2011 and to express our concerns about the negative impact from the 
Department of Interior's plan to withdraw from mineral entry over one 
million acres in northern Arizona. This action will have long lasting 
negative effects on our company, other exploration and mining 
companies, and most importantly will negatively impact the long time 
residents and citizens of the Arizona Strip.
    On the Arizona Strip, Denison currently employs 60 people, earning 
from $35,000 to $115,000 per year, plus benefits. The Company also 
hires an additional 15 subcontractors. In addition to our two operating 
mines, the company has plans to open mines on three additional ore 
deposits in the next two years. While the withdrawal will not affect 
the currently operating mines, it potentially jeopardizes plans for the 
three additional ore deposits controlled by Denison, and possibly takes 
those properties from us and eliminates future jobs. The two current 
mines will be mined out in one to three years, and the new mines are 
critical to maintaining and growing the current work force.
    The uranium deposits in northern Arizona, called breccia pipes, are 
unique in that the ore grades are some of the highest in the U.S., the 
surface disturbance for a fully developed mine is relatively small, 
less than 20 acres, the mines are generally dry, and the time span from 
development through full reclamation is less than six to eight years. 
Once fully mined out, the reclaimed sites exhibit no evidence of past 
activity and are returned to the original land use. In fact, the Bureau 
of Land Management's own Draft Environmental Impact Statement on the 
withdrawal stated that there is no contamination of the Colorado River 
watershed from uranium mining, stating:
    ``It is also important to recognize that,. . .. there is currently 
no conclusive evidence from well and spring sampling data that (modern) 
breccia pipe uranium operations in the north Parcel have impacted the 
chemical quality of groundwater in the regional R-aquifer.''
    Denison acquired the Arizona mines from my former employer, Energy 
Fuels Nuclear, who discovered, permitted, operated, and successfully 
reclaimed five breccia pipe mines in northern Arizona in the 1980s and 
early 1990s. The reclaimed mine sites demonstrate that these deposits 
can be developed with little or no impact to the environment, while 
still providing high paying jobs to the local and state economies in 
Arizona and Utah. The current perception that uranium mining cannot be 
conducted with little or no impact to the environment of northern 
Arizona is not supported by the history of similar operations. In the 
1980s, at the time Energy Fuels was operating on the Arizona Strip, 
similar cries for protection of the area were heard. Working with 
environmental groups and federal and state legislators, a landmark 
compromise between the environmental and mining communities resulted in 
legislation designating nearly 300,000 acres of Bureau of Land 
Management lands and more than 800,000 acres of National Forest lands 
as wilderness. The Arizona Wilderness Act of 1984 (P.L. 98-406) also 
added more than a million acres of land to the National Wilderness 
Preservation System, and provided that mining and grazing be allowed in 
those areas released for multiple use and not designated as wilderness, 
if conducted in a responsible and sustainable manner. The Act 
specifically directed that nearly half a million acres of Bureau of 
Land Management Lands and 50,000 acres of Forest Service lands be 
released from wilderness study area status with the understanding and 
intention that uranium mining would be allowed on the Arizona Strip and 
in the Kaibab National Forest.
    Since the passage of the Act, uranium mining activities in Northern 
Arizona have a proven track record of production and reclamation that 
has not impacted the Grand Canyon. Rather than respect a longstanding 
and carefully crafted compromise agreed to by all parties, the current 
Administration would rather march forward with their goal of locking up 
even more federal lands to responsible, authorized multiple use in the 
West. The Administration is effectively eliminating high paying local 
jobs instead of stimulating job growth and the local depressed economy 
of northern Arizona and southern Utah.
    The proponents of the Arizona Strip withdrawal talk of stopping 
uranium mining in the Grand Canyon. This is a convenient, self serving 
distortion of the truth. There currently is no mining in the Grand 
Canyon, nor are there plans for future mining in the Grand Canyon 
National Park.
    The ore from Denison's Arizona Strip mines is shipped for 
processing to the White Mesa Mill located near Blanding, Utah. The Mill 
currently employees 150 people, approximately 60% of who are Native 
American. Ore from the Arizona Strip mines currently supplies 
approximately 25% of the conventional ore feed to the Mill, and because 
of the high grade, provides approximately 45% of the uranium 
production. Loss of this ore production will have a significant impact 
on the White Mesa Mill operations. In the long term Denison is counting 
on our Arizona Strip production, as well as other companies' future 
mines on the Arizona Strip to continue to provide a significant volume 
of the feed to the White Mesa Mill.
    The proponents of the withdrawal promote the erroneous theory that 
the withdrawal will not impact the long term exploration potential of 
the area. This could not be further from the truth. The withdrawal area 
was carefully chosen by the Department of Interior, and environmental 
groups, to encompass all of the proven breccia pipe uranium deposits, 
and to cover all of the area of the highest known occurrences of 
mineralized breccia pipes. The withdrawal area covers the largest 
percentage of mining claims in the region, which is not surprising in 
that the mining companies only staked claims in the areas of highest 
potential.
    As a reasonable person, I find it incredible that the Secretary of 
Interior would announce earlier this year that the Final Environmental 
Impact Statement would have the full withdrawal area as the preferred 
alternative, before the final document was published and without regard 
to any of the no impact findings on the historical mining activities by 
the Departments experts. This is clearly in conflict with the intent of 
the National Environmental Policy Act, and in conflict with the 
Department's procedures. I also find it curious that the Secretary 
would choose to ignore the wishes of his own BLM Resource Advisory 
Council whose members voted in August to overwhelmingly oppose the 
withdrawal. The withdrawal decision should be based on sound science 
and factual findings, not on the baseless claims of environmental 
groups, special interests and their vote-seeking elected officials.
    As a taxpayer and businessman, I also find it incredible that the 
Secretary and this Administration would spend possibly millions of 
dollars on an Environmental Impact Statement, and then totally ignore 
its findings and the hard work put forth by the employees of the Bureau 
of Land Management and the U.S. Geological Survey. This action results 
in a total waste of taxpayer dollars and is an outright slap in the 
face to those hard working employees.
    Mr. Chairman, I would be pleased to answer any questions from the 
Committee.
                                 ______
                                 
    Mr. Bishop. I appreciate it. Mr. Myers.

     STATEMENT OF RICHARD MYERS, VICE PRESIDENT OF POLICY 
 DEVELOPMENT, PLANNING, AND SUPPLIER PROGRAMS, NUCLEAR ENERGY 
                           INSTITUTE

    Mr. Myers. Chairman Bishop, Ranking Member Grijalva, 
Members of the Subcommittee, thank you for the opportunity to 
join you today. My name is Richard Myers. I am Vice President 
for Policy Development with the Nuclear Energy Institute.
    NEI is the U.S. nuclear energy industry's Washington-based 
policy organization. Just by way of context, America's 104 
nuclear power plants represent approximately 10 percent of our 
generating capacity. However, because they operate at such high 
levels of reliability and efficiency and safety, they produce 
20 percent of this country's electricity supply, and they 
represent nearly three-quarters of our emission-free, carbon-
free generation.
    Worldwide, more than 150 new nuclear projects are in the 
licensing and advanced planning stage, with 65 reactors 
currently under construction. In the United States, the U.S. 
Department of Energy projects that U.S. electricity demand will 
rise by 24 percent by 2035, which means our Nation will need 
hundreds of new power plants to provide electricity to meet 
rising demand and replace aging infrastructure.
    Nuclear energy is the only proven technology that can 
provide emission-free, affordable baseload electricity. As a 
result, our industry will see sustained growth in demand for 
materials, components, services and fuel. The forecasts 
generally agree that world uranium production by 2030 must rise 
by at least two-thirds from the current level and possibly 
double.
    NEI's primary goal is to ensure a diverse, competitive and 
reliable supply of uranium to bolster America's energy 
security. Given that uranium supply is a strategic priority, we 
fully support H.R. 3155 and the companion legislation in the 
Senate.
    U.S. nuclear plants consume approximately 50 million pounds 
of uranium a year. More than 90 percent of that comes from 
foreign sources. In 2010, nearly one-quarter of U.S. uranium 
requirements were met by down blended Russian high enriched 
uranium extracted from nuclear weapons. This weapons-grade 
material is converted into low-end rich uranium fuel. This 
arrangement expires in 2013, however, and will leave a gap in 
U.S. demand that must be filled from other supply sources.
    Additional U.S. uranium supply like the breccia pipe 
uranium deposits in northern Arizona are strategically 
important. The draft environmental impact statement on the 
northern Arizona land withdrawal generally found either no 
impact or minor temporary impacts that could be readily 
mitigated. This conclusion was validated by the Arizona States 
agencies responsible for environmental protection and 
management of State lands. Let me quote from the comments filed 
by the Arizona Department of Environmental Quality: ``The 
environmental risks posed by mining in Arizona have been 
successfully managed by both State and Federal environmental 
requirements. Modern technologies and permits ensure that new 
and reactivated mining claims can be safely worked with minimal 
environmental impact. A broad withdrawal of Federal lands is 
unwarranted. Rather than a blanket prohibition, proposed new 
mining facilities should continue to be evaluated on a case-by-
case basis.''
    In our preliminary analysis of the Interior Department's 
final EIS, NEI has found nothing that would appear to justify 
an extreme action like the proposed withdrawal of one million 
acres. In both the draft EIS and the final EIS, we believe both 
documents are extremely well done and in fact make a compelling 
case for the so-called no-action alternative under which mine 
development would be allowed subject to the extensive Federal 
and State regulatory requirements that exist.
    A recent analysis by Tetra Tech, an environmental 
consulting firm, found that development of northern Arizona's 
uranium would have a major economic benefit, direct and 
indirect economic benefit of 29.4 billion during the period in 
which the mines would be in operation. Tax revenues from the 
mining companies could reach $2 billion in Federal and State 
corporate income taxes and $168 million in severance taxes to 
the State.
    The proposed land withdrawal is designed to protect against 
situations, circumstances and practices of the 1950s and 1960s 
when uranium was mined at the Federal Government's behest and 
on the Federal Government's account, principally for nuclear 
weapons purposes.
    Mr. Chairman, we could spend all afternoon sitting here 
listing practices and actions that were taken in the 1950s and 
1960s that were inappropriate and would never be taken in 
today's environment. Those situations in the uranium area, 
those situations and practices simply no longer exist.
    Thank you, Mr. Chairman. I would be happy to answer any 
questions.
    [The prepared statement of Mr. Myers follows:]

Statement submitted for the record by Richard J. Myers, Vice President, 
  Policy Development, Planning and Supplier Programs, Nuclear Energy 
                               Institute

    Chairman Bishop and Ranking Member Grijalva, thank you for the 
opportunity to testify today. My name is Richard Myers. I am Vice 
President for Policy Development, Planning and Supplier Programs for 
the Nuclear Energy Institute (NEI). NEI is responsible for establishing 
nuclear industry policy on matters affecting the nuclear energy 
industry, including regulatory, financial, technical and legislative 
issues. NEI's 375 members include all companies licensed to operate 
commercial nuclear power plants in the United States, nuclear plant 
designers, major architect/engineering firms, suppliers of fuel, 
materials licensees, and other organizations and individuals involved 
in the nuclear energy industry.
    America's 104 nuclear power plants represent approximately 10 
percent of our electricity generating capacity. However, because they 
operate at such high levels of reliability, safety and efficiency--they 
provide 20 percent of this country's electricity supply and nearly 
three-quarters of our emission-free generation. When ranked by 
performance over the last three years, the U.S. has the top three best-
performing nuclear reactors in the world, seven of the top 10 and 16 of 
the top 20.
    Nuclear power plants operate in 31 states and produce substantial 
economic value in revenues from electricity sales--$40 billion to $50 
billion each year--and employ over 100,000 workers. Nuclear energy 
companies buy over $14 billion each year in materials, fuel and 
services from domestic suppliers in all 50 states.
    Worldwide, more than 150 new nuclear plant projects are in the 
licensing and advanced planning stage, with 65 reactors currently under 
construction. In addition, the U.S. Department of Energy projects that 
U.S. electricity demand will rise 24 percent by 2035, about one percent 
each year. That means our nation will need hundreds of new power plants 
to provide electricity to meet rising demand and replace aging 
infrastructure. Nuclear energy is the only proven technology that can 
provide emission-free, affordable baseload electricity.
    As a result, our industry will see sustained growth in demand for 
materials, components, services and fuel. The World Nuclear 
Association's 2011 Market Report \1\ shows that world uranium 
production in the reference scenario must rise by at least two-thirds 
by 2030 from the current level and, under some circumstances, uranium 
supply must double. Bringing new uranium mines into production requires 
careful, time-consuming planning and permitting well in advance of 
exploration and production of uranium, and we cannot afford to remove 
high-quality reserves from consideration without good cause.
---------------------------------------------------------------------------
    \1\ The Global Nuclear Fuel Market: Supply and Demand 2011-2030, 
World Nuclear Association, September 2011.
---------------------------------------------------------------------------
    NEI's primary goal is to ensure a diverse, competitive and reliable 
supply of uranium to bolster America's energy security. Given that 
uranium supply is a strategic priority, NEI fully supports H.R. 3155, 
The Northern Arizona Mining Continuity Act of 2011, and S. 1690, the 
companion legislation in the Senate. The Administration has proposed 
that approximately one million acres of federal land in the Arizona 
Strip be withdrawn and unavailable for uranium mining for 20 years, and 
this legislation would block that withdrawal.
    My testimony today will cover two major areas:
        <bullet>  NEI's perspective on world uranium supply and demand, 
        and the importance of U.S. uranium supply, including potential 
        future supply from northern Arizona.
        <bullet>  NEI's preliminary assessment of the final 
        environmental impact statement (EIS) on the northern Arizona 
        land withdrawal, which was published last week by the Interior 
        Department's Bureau of Land Management. We are unable to find 
        any impacts identified in the final EIS that would justify the 
        proposed withdrawal.
Uranium Supply and Demand
    The uranium resources in the Arizona Strip represent some of the 
highest-grade ores located in the United States. In fact, according to 
the Interior Department's final EIS, these uranium resources are higher 
grade than 85 percent of the world's uranium resources. These resources 
could represent as much as 375 million pounds of uranium, approximately 
40 percent of U.S. reserves, twice current world demand and more than 
seven times current U.S. annual demand.
    A recent analysis by Tetra Tech, Inc., an environmental consulting 
firm, found that development of northern Arizona's uranium resources 
would have a significant economic benefit. Tetra Tech's analysis showed 
a direct and indirect economic benefit of $29.4 billion \2\, or an 
average annual impact of $700 million during the period in which mines 
would be in operation. Federal, state and local governments would 
receive tax revenues from the mining companies, including $2 billion in 
federal and state corporate income taxes, and $168 million in severance 
taxes to the state. Since the ore from northern Arizona mines would 
likely be taken to the White Mesa Mill in Blanding, Utah, for 
processing, trucking companies could expect revenues of approximately 
$1.6 billion during operation of the mines.
---------------------------------------------------------------------------
    \2\ Economic Impact of Uranium Mining on Cocino and Mohave 
Counties, Arizona, Tetra Tech Inc., September 2009. The $29.4 billion 
economic impact consists of $18.9 billion in direct sales and $10.5 
billion in indirect impact. The analysis assumed a conservative uranium 
price of $50 per pound.
---------------------------------------------------------------------------
    The uranium market is an international market, and will continue to 
be so, with commercial uranium mining on six continents. History and 
recent events make it clear, however, that maintaining U.S. capability 
in uranium production must be a strategic part of our domestic energy 
supply strategy.
    The world's nuclear power plants currently consume more uranium 
than is produced. Current worldwide uranium demand is approximately 180 
million pounds per year. Worldwide production is approximately 140 
million pounds per year, with the balance coming from secondary sources 
of supply, including inventories held by the U.S. and Russian 
governments. U.S. uranium production in 2010 was approximately four 
million pounds.
    U.S. nuclear power plants consume approximately 50 million pounds 
of uranium per year. More than 90 percent of that comes from foreign 
sources. In 2010 nearly a quarter of U.S. uranium requirements were met 
by downblended Russian high-enriched uranium extracted from nuclear 
weapons. This weapons-grade material is converted into low-enriched 
uranium fuel in what is popularly called the ``megatons to megawatts'' 
program. This arrangement expires in 2013, however, and will leave a 
gap in U.S. demand that must be filled from other supply sources. In 
that context, even relatively small additions to U.S. uranium supply--
such as might be achieved by producing the breccia pipe uranium 
deposits in northern Arizona--are strategically important.
    In addition, approximately 55 percent of world uranium supply comes 
from the 10 largest mines: Four in Kazakhstan, two in Africa, two in 
Australia, and one each in Russia and Canada. This heavy dependence on 
uranium production from a relatively small number of large mines 
represents a supply vulnerability: Any interruptions in production can 
cause disruption in the market. These interruptions do occur: From 
fires (at Olympic Dam in Australia in 2001); from mine flooding (as at 
the Rabbit Lake, Cigar Lake and McArthur River mines in Canada in the 
2003-2008 period); from floods caused by cyclones (as at the Ranger 
open pit mine in Australia in 2006, 2007 and 2011); from in situ 
leaching supply shortages (as at the Beverley mine in Australia in 
2010); and from leaching acid supply shortages (as in Kazakhstan in 
2007).
    U.S. nuclear energy companies manage this potential vulnerability 
by diversifying their sources of supply. Additional U.S. uranium 
supply, including future supply from the high-grade deposits in 
northern Arizona, is an important part of a diversified supply 
portfolio.
The Northern Arizona Land Withdrawal
    There is no current or proposed uranium mining inside the Grand 
Canyon National Park, which encompasses 1.2 million acres and includes 
a buffer zone to protect the Grand Canyon. The one million acres 
proposed for withdrawal lie outside the park boundaries.
    Withdrawing one million acres from future mining would upset a 
longstanding and carefully crafted compromise developed in 1984 between 
the mining industry and the environmental community, and supported by 
the Arizona congressional delegation led by former House Interior 
Committee Chairman Mo Udall, Sen. Barry Goldwater, and then-Congressman 
John McCain. In the early 1980s, legislation was crafted that 
designated approximately 300,000 acres of Bureau of Land Management 
land and approximately 100,000 acres of National Forest Service lands 
as wilderness. The Act added over one million acres of land to the 
National Wilderness Preservation System, and provided that mining and 
grazing be allowed in those areas not designated as wilderness, if 
conducted in an environmentally responsible and sustainable manner. The 
Act also specifically directed nearly half-a-million acres of Bureau of 
Land Management lands and 50,000 acres of Forest Service lands be 
released from wilderness study with the understanding and intention 
that this would allow uranium mining on the Arizona Strip and Kaibab 
National Forest. Since the passage of the Arizona Wilderness Act of 
1984 (P.L. 98-406), there is no evidence that uranium mining and 
reclamation have impacted the Grand Canyon.
    During the 1980s, seven mines in the Arizona Strip produced 
approximately 19 million pounds of uranium, with a temporary surface 
disturbance of approximately 20 acres per mine--about the size of a 
Wal-Mart parking lot. A statement by the Arizona State Legislature 
notes that ``in the 1980s, uranium mining operations existed that have 
now been so well reclaimed that it is difficult to discern where these 
mines existed.''
    The Draft Environmental Impact Statement. The Draft EIS (DEIS) on 
the northern Arizona land withdrawal was published for public comment 
in February. The DEIS considered potential impacts on air emissions, 
water resources, soil resources, vegetation, fish and wildlife, 
wilderness resources, and recreation and tourism. In general, the DEIS 
found either no impact or minor, temporary impacts that could be 
readily mitigated. This conclusion was validated by the Arizona state 
agencies responsible for environmental protection and management of 
state lands.
    The high-grade uranium resources in northern Arizona are found in 
``breccia pipe'' formations. These are compact formations that can be 
developed with minimal environmental impact. In its comments on the 
Interior Department's draft EIS, the Arizona Land Department said: 
``[T]he DEIS reveals nothing in the recent history of mining the 
breccia pipes in northern Arizona. . .that would appear to justify any 
withdrawal. Going back to the start of the Hack Mine complex in 1981, 
there has been no incident or event during this 30-year period that 
would. . .warrant a withdrawal.''
    In its comments \3\ on the draft EIS, the Arizona Department of 
Environmental Quality (ADEQ) noted that the draft EIS ignored state and 
federal programs designed to protect the environment, and saw no basis 
for a blanket withdrawal. ``As the lead regulatory agency responsible 
for the protection of Arizona's environment, ADEQ closely regulates 
uranium mining activities in northern Arizona. The environmental risks 
posed by mining in Arizona have been successfully managed by both state 
and federal environmental requirements currently in place. The State of 
Arizona has adopted the Aquifer Protection Permit program specifically 
designed to protect its precious groundwater resources. This State 
program provides added protection to the federal environmental laws. It 
is important that the BLM consider not only the federal programs, but 
also Arizona's unique environmental requirements when making its 
decision.'' (Emphasis added.)
---------------------------------------------------------------------------
    \3\ Arizona Department of Environmental Quality, comment letter to 
BLM, May 4, 2011
---------------------------------------------------------------------------
    ADEQ continued: ``The DEIS does not give full consideration to 
modern uranium mining technology or ADEQ-issued permits that require 
environmental controls, financial assurance, and reclamation. These 
modern technologies and permits ensure that new and reactivated mining 
claims can be safely worked with minimal environmental impact. A broad 
withdrawal of federal lands in response to concerns that new mining 
operations will pose unacceptable environmental risk is unwarranted. 
Rather than a blanket prohibition of new claims, proposed new mining 
facilities should continue to be evaluated on a case-by-case basis 
under existing federal and state environmental permitting programs.'' 
(Emphasis added.)
    The Arizona Geological Survey conducted an analysis of possible 
contamination of water resources as a result of uranium mining and 
found no cause for concern. In an April 28, 2011, letter to Governor 
Janice Brewer, the state geological survey stated: ``We conclude that 
even the most implausible accident would increase the amount of uranium 
in the Colorado River by an amount that is undetectable over amounts of 
uranium that are normally carried by the river from erosion of geologic 
deposits. Even if the entire annual uranium production from an 
operating mine were somehow implausibly dumped into the river, the 
resulting increase in uranium concentration in river water would 
increase from 4.0 to 12.8 parts per billion (ppb) for one year, which 
is still far below the 30 ppb EPA Maximum Contaminant Level.''
    The Arizona Geological Survey told the governor that ``we believe 
the fears of uranium contamination of the Colorado River from mining 
accidents are minor and transitory compared to the amounts of uranium 
that are naturally and continually eroded into the river. . .. Uranium 
has been eroding out of these deposits into the Colorado River and 
other streams and creeks for millions of years and will continue to do 
so for millions more.''
    The Final Environmental Impact Statement. In its preliminary 
analysis of the Interior Department's final EIS, published on October 
26, NEI has found nothing that would appear to justify an extreme 
action like the proposed withdrawal of one million acres.
    The EIS identifies four alternative courses of action, but only two 
alternatives are of significant interest. Alternative A is the so-
called ``no action'' alternative, under which continued uranium mining 
would be allowed, subject to the safeguards and requirements of federal 
and state laws and regulations. Alternative B is the proposed one-
million-acre land withdrawal. It is commonly assumed that there would 
be no mining under Alternative B, but that is not the case. Uranium 
mining would occur under both alternatives, because a number of mines 
are already operating or permitted as valid existing claims in the 
proposed withdrawal area and would, therefore, not be subject to the 
land withdrawal proposed.
    Under Alternative B (the withdrawal scenario) the final EIS 
estimates 11 uranium mines would operate in the withdrawal area over 
the 20-year period. Under Alternative A, the number of mines increases 
to 30, an increase of 19 mining projects above Alternative B. The true 
measure of environmental impact, therefore, is the difference between 
11 and 30 mining projects.
    It is instructive to compare the differences between Alternative A 
and Alternative B from various perspectives. For example, under 
Alternative A, the total acres disturbed for exploration and 
development over 20 years would be 1,364 acres; under Alternative B, 
164 acres--a difference of 1,200 acres over 20 years or 60 acres per 
year.\4\ Sixty acres per year in a one-million-acre tract of land is a 
relatively trivial difference--certainly not large enough to justify a 
draconian step like a 20-year, one-million-acre land withdrawal.
---------------------------------------------------------------------------
    \4\ U.S. Interior Department Bureau of Land Management, Final 
Environmental Impact Statement on the Northern Arizona Land Withdrawal, 
October 2011, 2:35.
---------------------------------------------------------------------------
    In terms of water usage, according to the final EIS, Alternative A 
would consume 316 million gallons; Alternative B, 116 million gallons. 
The difference is 200 million gallons over 20 years or 10 million 
gallons per year. This seems relatively insignificant in a nation where 
residential water consumption is 26 billion gallons per day, and water 
for consumed for irrigation was 134 billion gallons per day.
    Land Disturbance. The Administration proposes to withdraw 1,006,545 
acres, divided among three parcels: the North Parcel with 549,995 acres 
(the area likely to see the highest level of development); the South 
Parcel (134,454 acres) and the East Parcel (322,096 acres).
    Because breccia pipe deposits of uranium are so compact, the amount 
of land disturbed temporarily by mining is relatively small--less than 
0.2 percent of the one million acres proposed to be withdrawn.\5\ The 
final EIS states: ``Even if the entire anticipated disturbance occurred 
in one sub-basin or area, which is not likely based on locations of 
past uranium mines, the impact to overall soil productivity and 
watershed function would be small because the level of disturbance 
represents a very small fraction of the respective parcel areas. In 
addition, the magnitude of the direct impact would be somewhat less 
than the total anticipated disturbed area because not all the 
disturbance would occur at once: some areas would be reclaimed prior to 
disturbance related to other sites. Thus, disturbance impacts would be 
minor because of the small amount of relative disturbance and would 
generally be of short duration, about 5 years, which is the average 
lifespan of a mine from development through reclamation activities.'' 
\6\ (Emphasis added.)
---------------------------------------------------------------------------
    \5\ About 945 acres out of about 550,000 acres for the North 
Parcel, 107 acres out of about 134,000 acres for the East Parcel, and 
312 acres out of about 322,000 acres for the South Parcel
    \6\ Ibid, 4:111.
---------------------------------------------------------------------------
    Water Resources. The final EIS provides an exhaustive body of data 
on potential impacts on water resources. None of it seems to justify 
the proposed land withdrawal.
    On the impact on Colorado River water quantity and quality, the 
final EIS asserts that ``water quantity impacts could vary between 0% 
and 0.002% of the average minimum flow in the Colorado River. . .. 
Water quality impacts could vary from no mine to at least one mine 
which might contribute impacted water to the R-aquifer. If any impact 
would occur, the resultant concentration of uranium or arsenic would 
not be expected to exceed estimated ambient levels.'' \7\ (Emphasis 
added.)
---------------------------------------------------------------------------
    \7\ U.S. Interior Department Bureau of Land Management, Final 
Environmental Impact Statement on the Northern Arizona Land Withdrawal, 
October 2011, 2-40.
---------------------------------------------------------------------------
    On the water quality in deep aquifer springs, the FEIS finds 
nothing that would threaten drinking water standards:
        ``North Parcel: From no to 11 mines might contribute impacted 
        water to the R-aquifer. If any impact would occur, the 
        resultant concentration of uranium or arsenic might exceed 
        ambient levels (4.9 mg/L uranium and 2 mg/L arsenic), but not 
        drinking water standards (30 mg/L uranium or 10 mg/L arsenic) 
        at the Kanab and Showerbath spring complex. If as many as 11 
        mines contribute impacted water to the R-aquifer, the projected 
        maximum resultant concentration is 14 mg/L for uranium and 4 
        mg/L for arsenic.
        ``East Parcel: From no to 1 mine might contribute impacted 
        water to the R-aquifer. If any impact would occur, the 
        resultant concentration of uranium or arsenic might exceed 
        ambient levels (1.7 mg/L uranium and 10 mg/L arsenic), but not 
        drinking water standards (30 mg/L uranium or 10 mg/L arsenic) 
        at the Fence Fault spring complex. If as many as 1 mine 
        contributes impacted water to the R-aquifer, the projected 
        maximum resultant uranium concentration is 1.8 mg/L; resultant 
        maximum arsenic concentration would not be expected to exceed 
        ambient levels.'' \8\
---------------------------------------------------------------------------
    \8\ Ibid, 2:37.
---------------------------------------------------------------------------
    In part, the lack of impact on water resources reflects the local 
geology. As the final EIS notes,\9\ the ``modern (post-1980) breccia 
pipe uranium mine sites in the study area are. . .characterized by 
well-cemented, very low permeability breccias and adjacent formation 
rocks. . .. In each case, these ore deposits are on the order of 1,000 
feet or more above the R-aquifer system and are underlain by the poorly 
permeable breccias and siltstones/mudstones of the Hermit Formation and 
Supai Group. Therefore, conditions are not favorable for downward 
migration of leached minerals and constituents (such as uranium and 
arsenic) from the ore deposits to the R-aquifer.'' (Emphasis added.)
---------------------------------------------------------------------------
    \9\ Ibid, 3:62-63.
---------------------------------------------------------------------------
    Air Quality Impacts. The final EIS finds \10\ that ``[n]one of the 
proposed mines would have potential emissions in quantities large 
enough to trigger a PSD [prevention of significant deterioration] 
review....Therefore, each mine would be considered a minor source 
relative to the PSD permitting process and would only require a State 
of Arizona Class II Non-Title V air quality permit. Compliance with the 
permit and the applicable state regulations would minimize the air 
quality impacts of mine operation. . ..
---------------------------------------------------------------------------
    \10\ Ibid, 4:17-18.
---------------------------------------------------------------------------
    ``Mining operations related to all of the alternatives would be 
expected to result in increases in ambient air pollutant 
concentrations. Use of the unpaved and paved roads by the ore haul 
trucks would result in potential increases in fugitive dust and vehicle 
exhaust emissions. However, these impacts would be localized and 
temporary when they did occur and would be minimized by speed limit 
restrictions on unpaved roads. However, exceptional wind events have 
the potential for fugitive dust to be transported beyond several 
kilometers. The extent of the impact is dependent on the proximity of 
the mining activity to the Grand Canyon National Park boundary. Areas 
of the Park that are closer to mining operations could be impacted 
greater than areas that are farther away.'' (Emphasis added.)
    When considering the relative impacts of various industrial 
activities, it is instructive to compare emissions. For example, the 
Salt River Project's Navajo Generating Station in Page, AZ, produces 
these pollutants (in tons per year):\11\
---------------------------------------------------------------------------
    \11\ U.S. Interior Department Bureau of Land Management, Final 
Environmental Impact Statement on the Northern Arizona Land Withdrawal, 
October 2011, 3:23.
---------------------------------------------------------------------------
        CO -- 2,010
        NO<INF>x</INF> -- 33,221
        PM<INF>10</INF> -- 3,943
        PM<INF>2.5</INF> -- 2,817
        SO<INF>2</INF> -- 3,944
        CO<INF>2</INF> -- 20.1 million
    By comparison, Denison Mines' Arizona 1 Mine in the North Parcel 
has the potential to emit these pollutants (in tons per year):\12\
---------------------------------------------------------------------------
    \12\ Ibid, 3:29
---------------------------------------------------------------------------
        CO -- 0.28
        NO<INF>x</INF> -- 1.3
        PM<INF>10</INF> -- 324
        PM<INF>2.5</INF> -- 5.7
        SO<INF>2</INF> -- 0.08
    Even multiplying the emissions from operation of the Arizona 1 Mine 
by 30 times (the number of potential mines in the withdrawal area), 
total emissions from uranium mining in northern Arizona are trivial and 
incidental compared to emissions--which are judged acceptable under air 
quality control regulations--from a large coal-fired power plant in the 
same region. (The sole exception would be PM<INF>10</INF>, and only if 
all 30 mines were operating at the same time and that, of course, would 
not occur.)
    The Uranium Legacy. NEI concludes that the proposed land withdrawal 
is not justified by any information in the Interior Department's 
environmental assessment. The proposed land withdrawal is designed to 
protect against situations and circumstances that no longer exist--
specifically, the uranium mining practices of the 1950s and 1960s, when 
uranium was mined at the federal government's behest and on the federal 
government's account, principally for nuclear weapons purposes. Uranium 
mining in those days was conducted in ways that would not be acceptable 
today--without National Environmental Policy Act reviews, without air 
quality and water quality permits, absent any requirement for 
reclamation and financial bonds to ensure that reclamation occurs, with 
none of the multiple protections required today to protect public and 
worker health and safety and the environment.
    It is a grievous mistake to judge today's uranium mining activities 
by practices and standards from 50 to 60 years ago. Yet that, 
apparently, is what the Interior Department has done in its final EIS. 
The final EIS' preoccupation with the past appears early in the 
document \13\: ``There is a history of hardrock mining activities in 
the Grand Canyon watershed dating back to the 1860s. In some cases, 
these mining activities have left lasting impacts within the watershed, 
primarily associated with older copper and uranium mines. . .. These 
historical impacts and the recent increase in the number and extent of 
mining claims located in the area have raised concerns that future 
hardrock mining activities in the Grand Canyon watershed, particularly 
for uranium, could result in adverse effects on resources. . .'' 
(Emphasis added.)
---------------------------------------------------------------------------
    \13\ Ibid, 1:5.
---------------------------------------------------------------------------
    ``Could result in adverse impacts'' is a long distance--and many 
decades--from ``will result in adverse impacts.''
    Arizona Gov. Brewer raised this issue in an October 30, 2009, 
letter to Interior Secretary Ken Salazar, in which she objected to the 
proposed land withdrawal. ``Most environmental concerns raised by the 
legacy of uranium mining in Arizona and the southwest United States are 
the result of activities that occurred prior to the existence of modern 
environmental laws and generally resulted from detonation, disposal, 
ore-processing (milling) and weapons manufacturing sites--activities 
not associated with modern uranium extraction,'' she said. ``In the 
Colorado Plateau region of northern Arizona that includes the proposed 
withdrawal area, ore extraction and production at existing uranium 
mines has minimal environmental impact on the surrounding land, water, 
and wildlife because of modern environmental laws.''
                                 ______
                                 
    Dr. Gosar [presiding]. Thank you. First of all, Mr. 
Verkamp, thank you for being here. We may disagree on a variety 
of issues, but to see a constituent travel all the way to D.C. 
is certainly a pleasure, and I hope that you reward us with 
good weather forward. So you are recognized for five minutes.

                 STATEMENT OF STEPHEN VERKAMP, 
                   PRESIDENT, VERKAMP'S INC.

    Mr. Verkamp. Thank you, Mr. Chairman. So I want to thank 
the Committee and the Chairman, Acting Chairman. I am here to 
speak in support of H.R. 855, the Grand Canyon Watersheds 
Protection Act sponsored by Congressman Grijalva, and in 
opposition to H.R. 3155.
    My name is Stephen Verkamp, and I spent my entire childhood 
living within 50 yards of the edge of the South Rim of the 
Grand Canyon. My grandfather, John G. Verkamp, built a souvenir 
and handicrafts store in 1906, 13 years prior to the area 
becoming a national park. Until closing the store in 2008, we 
were the longest, continuous family owned business in the 
entire national parks system of the United States.
    When we speak of the Grand Canyon, it must be understood 
that the canyon does not start at the edge of the rim, nor is 
it an arbitrary line on a map but rather is the sum total of 
the entire area surrounding those edges. Wildlife is not 
concerned with man's arbitrary map-making. The public lands 
surrounding the national park are likewise critical to the 
integrity of the wild nature of the environment. They must be 
protected.
    As a kid living on the rim of the canyon, I recall playing 
on a dirt football field where the underlay for the field was 
constructed from orphan mine, the uranium mine, tailings. I can 
further recall chunks of uranium ore falling off the truck on 
the road below our residence. Naturally, being kids, we would 
pick up these pieces of ore with our hands and examine them.
    These mining practices were life-threatening and a total 
outrage. Later in my adult life, I was privileged to be the 
first full-time Federal judge with jurisdiction over Grand 
Canyon National Park and the national forests that surround the 
canyon and are the subject matter of H.R. 855. These 
experiences strongly deepen my understanding of this area.
    I mention these personal experiences to express my grave 
concern about what could be the outcome if Congressman Franks' 
bill is passed and new uranium claims are developed around the 
Grand Canyon. A major impact on the areas in question will be 
the dust pollution that will certainly create an enormous 
problem. The actual and potential mines in the South Rim are 
bounded on the east by state highway 89 and on the west by 
highway 64.
    These two highways are both single-lane and heavily 
burdened with tourist vehicle traffic to the Grand Canyon. The 
area we are talking about is all within what can best be 
described as a dust bowl due to the extremely dry conditions of 
northern Arizona. The ore trucks would have to use dirt roads 
to reach these highways, in this case, apparently Blanding, 
Utah.
    There is simply no way that a relentless parade of ore 
trucks could do anything except seriously create safety and air 
quality issues. It is my personal experience, any single 
vehicle in this area, whether it is hunter, casual user or 
other people just visiting the area, create an enormous cloud 
of dust that can literally be seen for miles and which hovers 
in the area for an unbelievably long time.
    I can only imagine what huge ore trucks will create. There 
are no other ways to transport ore to its destination other 
than by use of the two highways I mentioned. This is all on the 
South Rim where a large majority of the claims have been 
located.
    The prevailing southwest to northeast winds in that area 
will carry the truck dust directly into the national park and 
surrounding area. The impacts I have described do not begin to 
touch on the economic costs of allowing new uranium mining. It 
is estimated that the regional economy centered on the Grand 
Canyon exceeds $700 million each year.
    According to the 2010 National Park statistics, more than 
1.4 million vehicles entered one or the other of the two roads 
I have mentioned. At a conservative two persons per vehicle, 
nearly 3 million tourists visited the park by vehicle alone in 
2010.
    The cost to taxpayers of restoring mined-out areas amount 
to millions of dollars paid by taxpayers, like the case of the 
orphan mine. These companies frequently walk away or file 
bankruptcy after they have taken the ore. In my personal 
experience, the effect of major and minor changes in the park 
and surrounding forests affect tourist visitation and small 
businesses in very real ways.
    For example, several years ago there was not enough 
entrance stations into the Grand Canyon park. This fact spread 
on the internet like wildfire. Sales in our store were greatly 
reduced by this seemingly small issue. The New York Times and 
other media ran these stories because everyone in the country 
has a special love for this incredible place. The tourists went 
other places, such as Las Vegas, rather than wait the long 
entrance lines.
    Another example involved the closing of the national park 
in the mid-nineties when Congress shut down the government. The 
economic impact on our family business was so great that my 
father actually wrote a check to the Grand Canyon Park Service 
to try to help keep the park open. Once again an outside event 
created an economically devastating impact on businesses within 
the park and surrounding areas, such as Tusayan, Williams, 
Flagstaff, Belmont and other areas in the area.
    In closing, I would like to submit a letter signed by me 
and the many Arizona business owners and others who support 
Secretary Salazar's ban on new uranium claims surrounding the 
Grand Canyon. I want to thank you, the Committee, the 
Subcommittee and the Chairman for allowing me to testify today.
    [The prepared statement of Mr. Verkamp follows:]

       Statement of Stephen Verkamp, President, Verkamp's Inc., 
                           Flagstaff, Arizona

    Mr. Chairman I appreciate the opportunity to testify before the 
members of this subcommittee. I am here to speak in support of H.R. 
855, the Grand Canyon Watersheds Protection Act, sponsored by 
Congressman Grijalva, and in opposition to H.R. 3155.
    My name is Stephen Verkamp and I spent my entire childhood living 
within 50 yards of the edge of the south rim of the Grand Canyon.
    My grandfather John G. Verkamp built a souvenir and handicraft 
store in 1906, 13 years prior to the area becoming a national park. 
Until closing the store in 2008 we were the longest, continuous family-
owned business in the entire national park system in the United States.
    When we speak of ``The Grand Canyon'' it must be understood that 
the Canyon does not start at the edge of the precipice. Nor is it an 
arbitrary line on a map, but rather it is the sum-total of the entire 
area surrounding those edges. Wildlife is not concerned with mans 
arbitrary map making.
    The public lands surrounding the national park are likewise 
critical to the integrity of the ``wild' nature of the environment and 
must be protected!
    As a kid living on the rim of the Canyon, I recall playing on a 
dirt football field where the under-lay was constructed from Orphan 
uranium mine tailings.
    I can recall chunks of uranium ore falling off the truck on the 
road below our residence. Naturally, being kids we would pick up these 
pieces of ore with our hands and examine them. These mining practices 
were life threatening and a total outrage.
    Later in my adult life, I was privileged to be the first full time 
federal judge with jurisdiction over Grand Canyon National Park and the 
National Forests that surround the Canyon and are the subject matter of 
H.R. 855 These experiences, I believe, strongly deepens my 
understanding of this area.
    I mention these personal experiences to express my grave concern 
about what could be the outcome if Congressman Franks' bill is passed 
and new uranium claims are developed around the Grand Canyon.
    A major impact on the areas in question will be the dust pollution 
that will inevitably create an enormous problem.
    The actual and potential mines on the South Rim are bounded on the 
east by Highway 89 and on the west by Highway 64. These two highways 
are all single-lane and heavily burdened with tourist vehicle traffic 
to the Grand Canyon. The area we are talking about is all within what 
can best be described as a ``dust bowl'' due to the extremely dry 
conditions of northern Arizona. The ore trucks would have to use dirt 
roads to reach these highways.
    There is simply no way that a relentless parade of ore trucks could 
do anything except create serious safety and air quality issues.
    It's my personal experience any vehicle creates an enormous cloud 
of dust that can be seen for miles. I can only imagine what huge ore 
trucks will create. There are no other ways to transport ore to its 
destination other than by use of the highways I mentioned. The 
prevailing southwest to northeast winds will carry the truck dust 
directly into the national park and surrounding area.
    The impacts I have described do not begin to touch on the economic 
costs of allowing new uranium mining.
    It is estimated that the regional economy centered on Grand Canyon 
exceeds $700,000,000.00 each year. According to the 2010 national park 
statistics more than 1,440,234 vehicles entered one or the other of the 
roads in the park we have discussed. At a conservative 2 persons per 
vehicle nearly three million tourists visited the park by vehicle 
alone.
    The costs to taxpayers of restoring mined out areas amount to 
millions of dollars paid by taxpayers like the case of the Orphan Mine.
    In my personal experience the effect of major and minor changes in 
the park and surrounding forests affect tourist visitation and small 
businesses in very real ways.
    For example, several years ago there were not enough entrance 
stations into the park. This fact spread on the Internet like wildfire. 
Sales in our store were greatly reduced by this seemingly small issue. 
The New York Times and other media ran these stories because everyone 
in the country has a special love for this incredible place. The 
tourists went other places such as Las Vegas rather than wait the long 
entrance lines.
    Another example involved the closing of the National Park in the 
mid 90's when congress shut down the government. The economic impact on 
our family business was so great that my father wrote a check to the 
Grand Canyon Park Service to try to help keep the park open. Once 
again, an outside event created an economically devastating impact on 
businesses within the park.
    In closing, I would like to submit a letter signed by me and the 
many Arizona business owners who support Secretary Salazar's ban.
    I want to thank the Chairman and members of the subcommittee for 
allowing me to testify at today's hearing.
                                 ______
                                 
    Dr. Gosar. Thank you, Mr. Verkamp. In keeping with 
tradition, I am going to allow the first questions to Mr. 
Grijalva.
    Mr. Grijalva. Thank you. Mr. Verkamp, thank you for being 
here. The Department of the Interior conducted dozens of public 
and tribal meetings, has reviewed over 380,000 comments during 
the withdrawal process. And let me ask you, do you believe that 
the agency is moving forward and is being responsive to the 
concerns of the local communities around the Grand Canyon 
National Park as you have seen this process unfold?
    Mr. Verkamp. Thank you, Congressman. I would say that the 
people that I know--and I know a good majority of the people 
both in Grand Canyon, Flagstaff and the surrounding areas. I 
have many, many friends on the reservation. I have seen the 
mile pilings that are supposedly cleaned up out there, which is 
certainly not true. And I would say the vast majority of people 
that I know are totally opposed to this for the reasons I have 
stated, the impact on their livelihood.
    So I would say, Congressman, yes. I have studied this issue 
a lot, and a lot of the people have already kind of made their 
positions known on it. And so definitely I am very interested 
in the numbers that have shown the degree of support or 
nonsupport for increasing this big footprint of industrial 
activity that will take place.
    Mr. Grijalva. Yes. And if I may again, sir, it has been 
asserted here many times by the Majority that uranium mining 
will occur miles away from the Grand Canyon and as a result 
won't pose a threat to the park itself. There is a picture of 
the Kanab North Uranium Mine, which is located, oh, about 10 
miles from the boundary. You can see the park, the main canyon 
in the distance. You can see the creek that takes water down 
into the Colorado. Do you think that the mine might present a 
risk to the Grand Canyon and the Colorado River just from the 
photograph?
    Mr. Verkamp. Well, it looks to me like the drainage 
eventually obviously goes into the Colorado River. And if 
anyone has been up to see the Atlas Mine situation, which the 
taxpayers had to totally fund to get cleaned up, it is mostly 
cleared up, but it cost billions of dollars. And this was one 
of those companies supposedly that was going to show us some of 
this environmentally sensitive way they have of cleaning up 
situations. So I have no doubt that eventually water runs 
downhill, and that water and that drainage--I don't recognize 
it--will get to the Colorado River without a doubt.
    Mr. Grijalva. Thank you, sir.
    Mr. Chairman, I don't have any questions for the other 
witnesses. Just as a reasonable person, I think we as 
reasonable people lose perspective on this debate and this 
discussion and this legislation, and as we go forward, the 
debate will intensify and more and more of the American people 
are going to become aware of the implications of this 
legislation, because it is not simply about a mining company 
and their profit line. It is not simply about trying to thwart 
the ability to create jobs in a region. It is an issue about 
something that is the connection to the heritage of this 
country. It is about a value and a spirit of the American 
people, and it is a national symbol that we are talking about.
    I think Carville once said it when he was talking about the 
economy, that it is the Grand Canyon, stupid, and it is. That 
is what is at stake here. And I think that to minimize the 
potential of intended and unintended consequences on a national 
symbol, the connection to our past, to our heritage, and 
something that not only is the crown jewel of our national park 
system but is considered one of the wonders of the world.
    And so for people like myself from Arizona, I am not here 
because I don't want uranium mining and I am opposing Mr. 
Franks' legislation. That is not why. I am here as a person 
from Arizona and as a citizen of this Nation to say we are 
potentially risking the very symbol that has sustained what 
this country was in the past and generation after generation 
have enjoyed and wondered and thought about what that meant. 
And so it is not about anti-mining. It is about pro-Grand 
Canyon. And so the debate will come down to that. And we are 
not destroying mining by saying for the sake of the Grand 
Canyon, the crown jewel, 12 percent of the available land for 
uranium mining will be withdrawn for 20 years so that we may 
provide a buffer and some level of security for the generations 
to follow that their national symbol will be there and that the 
ability to not only visit but enjoy and contemplate what that 
means will be available to the American people.
    That is why I stand in opposition, because I am for the 
Grand Canyon, and I believe as this legislation goes forward, 
the debate will intensify and the American people will come to 
the realization that what is really at stake and what is really 
at risk here.
    With that, thank you, Mr. Chairman, and I yield back.
    Dr. Gosar. Thank you very, very much. At this time, I will 
also acknowledge Mr. Garamendi for his five minutes.
    Mr. Garamendi. Thank you very much. This question goes to 
Mr. Myers. The Chairman has asked how much uranium we import. 
Is it true that some of that uranium actually is part of a 
national security strategy in an agreement with Russia, the 
former Soviet Union, to deal with their highly enriched 
uranium?
    Mr. Myers. Yes, sir, that is correct. As I said in my 
statement, about one-quarter of our uranium and about one-half 
of our fuel comes from down-blended Russian high-enriched 
material.
    Mr. Garamendi. And the United States also has a significant 
stockpile of the same material, is that correct?
    Mr. Myers. Yes. The United States has a stockpile of the 
same material.
    Mr. Garamendi. OK. Now earlier on I opined that we have 
several thousands of tons of spent nuclear fuel, used nuclear 
fuel, is that correct?
    Mr. Myers. Yes.
    Mr. Garamendi. And we at this time have no permanent 
repository for that, is that correct?
    Mr. Myers. We have a repository identified and fully 
characterized and judged to be suitable that the Obama 
Administration has decided to terminate the program.
    Mr. Garamendi. So the answer is I am correct with the 
statement I made, correct?
    Mr. Myers. We currently do not have a repository.
    Mr. Garamendi. Thank you. Now do we have the ability from 
past research to recycle that material in an integral fast 
reactor with pyroprocessing that can consume 90 percent of the 
total energy and reduce the longevity of the waste to some 2- 
to 300 years?
    Mr. Myers. Mr. Garamendi, I really appreciated your 
comments earlier and your enthusiasm for this concept, and we 
completely share it. Yes, it is on paper.
    Mr. Garamendi. Thank you. Now, if that is the case----
    Mr. Myers. Can I finish, sir?
    Mr. Garamendi. Please.
    Mr. Myers. And on paper, it is a very appealing concept 
because it does eliminate and uses fuel material that would 
otherwise be discarded as a waste product and eliminates both 
the toxicity and the volume of material that has to go to a 
permanent repository. But, and like many things in life, there 
is always a but, these technologies are not yet ready for 
deployment at commercial scale and they are not at the moment 
even remotely economic. So we still have if you talk to the 
experts a significant amount of technology research and 
development to do and a significant amount of funding that has 
to come from somewhere to support that before we can truly talk 
about reprocessing and full recycle of spent nuclear fuel. But 
I am absolutely convinced, as I sense you are, that that is the 
future and we need to move in that direction with all possible 
speed.
    Mr. Garamendi. I thank you very much, and I agree with all 
possible speed. And in fact, your industry has about $20 
billion set aside in some coffer here at the Federal Government 
for the----
    Mr. Myers. Well, it is an accounting entry unfortunately, 
Mr. Garamendi. It has been spent by the government on other 
things.
    Mr. Garamendi. And there are lawsuits about that. But the 
fact of the matter is that we do have a solution to the spent 
nuclear fuel problem that would really put aside this issue 
totally, that we really do not need to mine additional uranium. 
We could use the spent nuclear fuel and that technology, the 
integral fast reactor pyroprocessing, also could use the 
material that does not make it into the existing fuel cycle, 
that is, set aside at various waste piles.
    My point here is that it is perfectly correct for the 
Secretary to withdraw this area from mining for the next 20 
years, at which time, if we had any sense at all here in this 
Nation and around the world, we would move expeditiously to a 
full closing of the nuclear fuel cycle, solving multiple 
problems along the way, including this potential environmental 
problem.
    The argument that I am making is set this land aside, don't 
do more mining in this area, withdraw it from the mining, get 
on with a solution to the nuclear waste problem, which actually 
is an extraordinarily valuable asset, containing some 97 
percent of the energy, and if you use the PUREX recycling 
process, 94 percent of the energy. That is what we ought to do 
in our wisdom. We ought not to spoil additional land near and 
adjacent to the Grand Canyon, which the Ranking Member has 
correctly described as an extraordinary, extraordinary part of 
this world. So there is a solution and we ought to move on it. 
Mr. Myers, final comment?
    Mr. Myers. Mr. Garamendi, I completely agree with you about 
the long-term promise of recycling and reprocessing and closing 
the nuclear fuel cycle. I would just mention, though, that we 
do believe that this is a decade or more away.
    Mr. Garamendi. Here I will reclaim my time. It is not a 
decade away. The reactor operated safely for 30 years. The 
pyroprocessing system continues to exist in a laboratory in 
Idaho. What we need is to spend about $10 billion over the next 
10 years to create the demonstration plant. And your industry 
should be fully in support of that. We do not need an 
additional 30 or 40 years of research. What we really need is 
to move on.
    Mr. Chairman, I appreciate the additional time. Thank you 
very much.
    Dr. Gosar. Thank you. Mr. Roberts, in his testimony, Mr. 
Verkamp asserts the cost to taxpayers of restoring mined-out 
areas amount to millions of dollars paid by taxpayers like the 
case of the orphan mine. As a representative of a company that 
currently does business on the Strip, I would like to get some 
clarification on that statement. Under existing Federal law, 
the statement is not correct, right?
    Mr. Roberts. Well, Mr. Chairman, we are required to submit 
surety evidence or surety bonds for the reclamation of our 
mines, all of our mines, and also including our milling 
facility in Utah. So we have somewhere around a half a million 
dollars of surety bond against just the Arizona one mine, and 
actually we are double bonded I call it. We have a bond to the 
BLM. We also have a similar bond to the State of Arizona 
because there is no crossover in their jurisdictions.
    So the money is set aside to reclaim the property if for 
some reason we should be able to do that or shouldn't be able 
to do that in the future. So it is a little bit of an evolution 
of the process. I respect what has happened in the past with a 
lot of the legacy sites and the history of mining. A lot of 
that was done under U.S. Government jurisdiction, under U.S. 
Government uranium purchase programs. The government really 
basically did not allow for costs to be included in the 
payments to the miners or to producers for the cost of 
reclamation. So basically the government was stuck with that.
    In the case of the orphan mine, you know, it was mined 
early on as a copper mine starting back in the early 1900s. 
There was no regulations for permitting and bonding at that 
time. Subsequently it was mined for uranium. Interestingly 
enough, actually my former employer, Energy Fields Nuclear, 
made a proposal to the Park Service to reclaim the orphan mine 
at our expense, and this was done in 1986. And I know this 
because I made the proposal. I investigated the site. I put the 
proposal together. We were told by the Park Service that they 
were not allowed to do that because these type of actions had 
to go to competitive bid, and that was the end of it.
    Dr. Gosar. So let me get this straight. So your company 
offered to clean up the orphan mine at your expense and you 
were refused, right?
    Mr. Roberts. That is correct.
    Dr. Gosar. Wow. Another good purchase of the Federal 
Government. I want to point out this poster board that we have 
up here. This actually shows a site that had been mined and the 
reclamation after it, so it is very, very different. I am 
actually one who actually goes, touches and does. So I have 
been at the mine and I have seen all the protocol. And being 
out there, the site that we looked at, you could not find the 
mine site except for what was required by the Federal 
Government to keep in operation a spring, a pumping station.
    So just for an FYI, and I am very well aware that a lot of 
the environmental groups sure like the way the roads are 
uptaked and your maintenance of them. So Mr. Roberts again. Mr. 
Verkamp states, as he recalls as a child--and I think a lot of 
us understand this because, you know, our past, which again I 
would like to point out that the Federal Government conducted 
uranium mining activities, not private industry.
    He states that uranium ore was falling off trucks and kids 
were playing with it. Is this even plausible today with current 
State and Federal laws and regulations?
    Mr. Roberts. Well, it is clearly not plausible today. I 
mean, I understand his comment. And when I look back knowing 
the history of the government-subsidized program, the 
government-mandated mining programs--an example is on the 
Navajo reservations--I can understand what he describes might 
have happened. That clearly isn't what happens today with 
modern mining techniques, modern mining regulation and the way 
we do business today.
    You know, all U.S. industry has a history of not 
understanding the risks and hazards of their industry, and it 
was a lack of knowledge. The mining business is no different. 
So, you know, I always tell people judge us by the way we do 
things today, not the way the Federal Government did things 
back in the 1950s. You know, our ore haulage program today is 
very sophisticated, very robust. All of our trucks are secured 
to make sure the ore is safe. The trucks are tarped. You know, 
we have no desire to spread uranium ore down the highway any 
more than the local citizens do. It is of great value to us. We 
spend a lot of money finding the ore. We spend a lot of money 
mining the ore, and we want it to get to the mill. We certainly 
don't want it spread down the highway.
    So we go to great lengths to make sure that we are not 
going to be spilling any uranium ore on the highways or 
anywhere else where a member of the public may come in contact 
with it.
    Dr. Gosar. And I was very impressed when I came out there. 
That was one of my questions, and I was very rewarded with 
seeing how the trucks and the technology actually looks like a 
Saran wrap where actually we see pneumatics actually put a tarp 
down and seal the tarp. So I am very impressed.
    Mr. Verkamp, I would like to get back to you and make sure 
when you talk that your mike is on because I couldn't hear you 
last time.
    Mr. Verkamp. OK. I am sorry.
    Dr. Gosar. I would like to get some clarification on your 
testimony. You opened your testimony by stating you are here to 
support H.R. 855 and against H.R. 3155. You don't mention the 
Secretary's proposed actions. Do you support the Secretary of 
the Interior's proposed action, the withdrawal of 1 million 
acres subject to existing right?
    Mr. Verkamp. Yes.
    Dr. Gosar. Then I am slightly confused about your 
testimony. You state that the development of projects will 
create an enormous dust pollution problem, serious safety and 
air quality issues and major visibility issues at the park. 
That is not supported by chapter 4 of the final EIS. Your 
testimony implies you are completely opposed to uranium mining 
in the Strip. But according to the Bureau of Land Management's 
press release announcing the release of the final draft 
environmental statement claims, that as many as 11 uranium 
mines could be operational over the next 20 years under the 
preferred alternative, including the four mines currently 
approved.
    If you are supporting the Secretary's proposed action, is 
your support based on the assumption that none of the sites the 
Secretary claims could be operational over the next 20 years 
will ever come to fruition?
    Mr. Verkamp. I don't have any specific technical--can you 
hear me all right--information about, you know, the 
governmental action. I am from Grand Canyon and I know the 
area. I know it hands on. And anyone who tells me that a dust 
situation there is not going to be critical I don't think 
understands the place. It is going to take them, if they are 
going to go out to Blanding, they are going to be on dirt roads 
for 40 miles probably, and as I said, that dust just goes 
everywhere. And if anybody wants to say that that doesn't 
impact air traffic as well as just people going into the Grand 
Canyon, I don't agree with that.
    And the other thing that hasn't been mentioned is the 
safety factor. I don't care how sure they are now about how 
they can contain it on a truck because the traffic out there is 
going to require, if they pull into the main road, either the 
one on 64 or 89, they are going to have to have street lights 
out there, and people go through that area at 65, 70 miles an 
hour.
    So I am not convinced that that is not a problem as much as 
they are suggesting. I have some question, and I am dubious 
about the new techniques that are being used by mining 
companies when I see down in the southeastern part of the 
country that they are blowing the tops out of mountains to get 
coal. So I am dubious about the environmentally sensitive 
nature of some of this hauling.
    Dr. Gosar. So let me rephrase this. So you are in support 
of the 11 mines that would be allowed to go forward or not?
    Mr. Verkamp. If I had my way, there wouldn't be any mines 
within that area, period.
    Dr. Gosar. OK, OK. My last statement that I would like to 
make is I agree with Congressman Grijalva. I love the Grand 
Canyon. You know, I am newer than you are. You know, I have 
been there 27 years. I love it. I love its beauty. I also love 
the business of it. But I disagree with Mr. Grijalva in the 
fact that they are not mutually exclusive. There is a place for 
both. And I think that is what the agreement was all about was 
working.
    And when I look and I actually touch and see, what the 
American people want us to do is have common sense, is provide 
energy, provide the technology, institute the technology and 
work with industry and people. I am well aware of the value of 
what the Grand Canyon proposes in economics, but I also 
challenge you, what is that wage per person. Is it 20,000? Is 
it 30,000? Is it part-time? Is it full-time?
    We have to have a mitigation problem in regards to our 
economy, and everything should be on the table. And this is all 
about common sense. It should be about a government working 
with people, not dictating and saying no because as this issue 
will show you, the Federal Government is the biggest problem 
and has been.
    So, with that being said, with no further comment, I agree 
with this legislation, and I am opposed to the way the 
Secretary has done their dictation. If there is no further 
business, without objection the Subcommittee stands adjourned. 
And I want to thank all the witnesses who came forward today. 
Thank you.
    [Whereupon, at 1:27 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources

    Theodore Roosevelt, the President who used the Antiquities Act to 
first protect the Grand Canyon from development said the following: 
``We regard temples and Roman triumphal arches and Gothic cathedrals as 
a priceless value. . .but we are, as a whole, still in that low state 
of civilization where we do not understand that it is vandalism to 
destroy or to permit the destruction of what is beautiful in nature.''
    Today, we are considering yet another Republican attempt to 
establish a permanent uranium mining zone next door to one of the 
planet's most iconic landmarks, Grand Canyon National Park. While we 
have made important strides over the last century, H.R. 3155 threatens 
to return this nation to the low state of civilization President 
Roosevelt found us in a century ago.
    As we consider this legislation, we should remember a few important 
facts.
    [Slide One--Horn Creek warning sign]
    First, uranium mining has already harmed the Grand Canyon and the 
people who call the area home.
    Just a single uranium mine caused permanent radioactive 
contamination of an entire creek within the Park. The water in Horn 
Creek is so radioactive that the Park Service warns hikers not to drink 
it, unless DEATH BY THIRST is the only other option.
    Native People who live in and around the Canyon still suffer higher 
rates of illness and death as the terrible legacy of the last uranium 
boom in the area.
    But rather than learning a lesson from this unfortunate tragedy, 
the Republican Majority has again offered legislation that could lead 
to unchecked uranium mining around Grand Canyon National Park.
    [Poster Two--Map of the withdrawal]
    Next, it is important to make absolutely clear that the Department 
of the Interior's proposed mining withdrawal will not stop current 
mining operations. The proposed withdrawal ONLY prevents new uranium 
mining around the Grand Canyon.
    According to the Department's own analysis, there could still be 
eleven operational uranium mines near the Grand Canyon over the next 20 
years, even if the withdrawal occurs. That number is too high, but 
given the complete inadequacy of the Mining Law of 1872, that is the 
reality.
    But apparently that is not good enough for the Majority. It appears 
that for Republicans, the only appropriate amount of uranium mining is 
UNLIMITED uranium mining.
    H.R. 3155 will PERMANENTLY strip the Interior Department of the 
power to protect lands around the Grand Canyon from uranium mining.
    Even if widespread environmental contamination occurred--even if a 
huge waste spill took place that poisoned the drinking water of 
millions of Americans in Los Angeles and Las Vegas--even if the rate of 
severe illness spiked among families living near the Canyon--the 
Department of Interior would be powerless to stop any new mining. 
Congress has NEVER taken such a rash step before.
    [Poster Three--Map]
    If H.R. 3155 were enacted, there would be nothing to stop 
development of a uranium mine on every square mile of land around the 
Grand Canyon with at least one mining claim; that is the Republican 
vision for this beloved, international landmark.
    Each year, Grand Canyon National Park generates $700 million 
dollars in local revenue and supports more than 12,000 jobs. These 
jobs--not to mention the entire economies of several major cities--
depend on clean water and clean air. We should not put all of this at 
risk to increase the quarterly profits of a few foreign-owned mining 
conglomerates.
    The simple truth, Mr. Chairman, is that water flows downhill. When 
we are talking about Grand Canyon National Park and the Colorado River, 
do we really want that water to contain uranium? Do we really want to 
return to a state of such low civilization that we allow something so 
beautiful to be so vandalized?
    The American people say no and we should say no as well. I yield 
back.
                                 ______
                                 
    [A letter submitted for the record by the Western Business 
Roundtable on H.R. 3155 follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






    [A statement submitted for the record by The Wilderness 
Society on H.R. 3155 follows:]

 Statement submitted for the record by The Wilderness Society on H.R. 
        3155, The Northern Arizona Mining Continuity Act of 2011

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide a statement on behalf of The Wilderness Society 
regarding H.R. 3155, the Northern Arizona Mining Continuity Act of 
2011. The Wilderness Society works on behalf of its 500,000 members and 
supporters to protect wilderness and inspire Americans to care for our 
wild places and our public lands and forests.
    On behalf of our 500,000 members and supporters nationwide, we 
oppose H.R. 3155 because it will place one of America's most important 
natural icons--the Grand Canyon--at risk from increased uranium 
pollution.
    The Grand Canyon has a rich history of conservation dating back 
over 100 years. In 1903, President Theodore Roosevelt gave a seminal 
speech on the rim of the Grand Canyon, in which he urged Americans to 
preserve this historic natural landmark:
        In the Grand Canyon, Arizona has a natural wonder which, so far 
        as I know, is in kind absolutely unparalleled throughout the 
        rest of the world. I want to ask you to do one thing in 
        connection with it in your own interest and in the interest of 
        the country--to keep this great wonder of nature as it now is. 
        . .
        Leave it as it is. You cannot improve on it. The ages have been 
        at work on it, and man can only mar it. What you can do is to 
        keep it for your children, your children's children, and for 
        all who come after you, as one of the great sights which every 
        American if he can travel at all should see.
    Five years later, in 1908, using the powers vested in him by 
Congress through the Antiquities Act, President Roosevelt designated 
the Grand Canyon as a national monument.
    For 100 years, this stunning landmark has endured. And yet now it 
is imperiled by uranium pollution that threatens the sublime beauty 
that President Roosevelt urged us to preserve.
    Some have asserted that the Arizona Wilderness Act of 1984 (PL 98-
406) is evidence that Congress intended uranium development to take 
place in perpetuity along the Arizona Strip and that the proposed 
mining withdrawal somehow violates this intent. Neither the language of 
the Arizona Wilderness Act nor the act's legislative history supports 
this assertion, and The Wilderness Society wishes to clarify the record 
on this issue.
    A review of the legislative language and history of the Arizona 
Wilderness Act finds that nothing in the legislative record supports or 
suggests that the legislation was meant to be the final disposition on 
the status of Bureau of Land Management (BLM) lands in the Arizona 
Strip. Perhaps the strongest support for the interpretation that the 
Arizona Wilderness Act was not meant to be a final disposition of 
wilderness lands in Arizona comes from Congress itself. Since the 
passage of the Arizona Wilderness Act, Arizona's congressional 
delegation has sponsored and passed multiple pieces of legislation 
creating new wilderness areas across the state.
    Then there is the language of the law itself. In addition to 
designating wilderness areas in the Arizona Strip, the Arizona 
Wilderness Act released non-designated lands in the Strip from section 
603 of the Federal Land Management and Policy Act (FLPMA). In 
particular, the legislation stated that released lands need not be 
managed to maintain their suitability for wilderness designation. 
However, the legislation contains no language preventing future 
consideration of Arizona Strip lands for wilderness. Instead, non-
designated lands are managed under section 202 of FLPMA, which 
requires, among other things, consideration of wilderness values and, 
where appropriate, protection of lands with wilderness character. This 
means that the BLM must consider and, as appropriate, protect lands 
with wilderness character through the local land management process.
    In regards to National Forest lands, Congress clearly intended 
that, after a pause, the Forest Service should review the wilderness 
values of released lands and make wilderness recommendations. This 
language was a carefully crafted compromise which appeared in dozens of 
statewide forest wilderness bills in the 1980s. Section 103(a)(2) of PL 
98-406 states:
        With respect to the national forest system lands in the State 
        of Arizona which were reviewed by the Department of Agriculture 
        in the second roadless area review and evaluation (RARE II) and 
        those lands referred to in subsection (d), except those lands 
        designated for wilderness study upon enactment of this Act, 
        that review and evaluation or reference shall be deemed for the 
        purposes of the initial land management plans required for such 
        lands by the Forest and Rangeland Renewable Resources Planning 
        Act of 1974, as amended by the National Forest Management Act 
        of 1976, to be an adequate consideration of the suitability of 
        such lands for inclusion in the National Wilderness 
        Preservation System and the Department of Agriculture shall not 
        be required to review the wilderness option prior to the 
        revisions of the plans, but shall review the wilderness option 
        when the plans are revised. (emphasis added)
    The intention to continue wilderness reviews after a pause was 
discussed in the Senate Report 98-463 accompanying the Arizona 
Wilderness Act, which states:
        In short, the wilderness option must be considered in each 
        future planning generation if the particular land in question 
        still possess wilderness attributes. . .[T]he language also 
        provides that lands recommended for wilderness in future 
        generations of plans shall be managed for the purpose of 
        protecting their suitability for wilderness designation as may 
        be required by the Forest and Rangeland Renewable Resources 
        Planning Act of 1974, as amended by the National Forest 
        Management Act of 1976, and other applicable law, upon 
        implementation of such plans. (emphasis added)
    It is simply false to suggest, as some have done, that the Arizona 
Wilderness Act required that non-wilderness lands would be open to 
uranium mining in perpetuity, and such a reading does not comport to 
the legislative history of the legislation. While non-wilderness lands 
are made available to non-wilderness uses, such uses are not required--
they are merely one option to be considered in the land management 
planning process. The House Report accompanying the legislation, H. 
Rep. 98-463, makes this clear, stating that the legislation ``releases 
certain other lands for such non-wilderness uses as are determined 
appropriate through the land management planning process.'' (emphasis 
added)
    Congress has adopted this approach because it affords land managers 
the ability to make decisions based on sound science, updated 
information, and current societal values. Despite numerous efforts to 
enact such a provision, since passage of the Wilderness Act in 1964, 
Congress has rejected every effort to enact legislation to permanently 
release lands from consideration for wilderness.
    It is exactly the approach anticipated by the Arizona Wilderness 
Act that the Department of the Interior (Department) is now undertaking 
in the lands surrounding the Grand Canyon. Through the land management 
planning process, and after careful review of public comment, and 
recent scientific information, the Department is now considering which 
non-wilderness uses are appropriate on these lands.
    As opposed to new wilderness, which limits a suite of activities 
beyond new mining claims, the Department is considering a limited 
mineral withdrawal that is necessary to preserve the fragile ecology 
and scenery of the Grand Canyon. This should not be confused with 
designating wilderness, which is, of course, a prerogative Congress has 
reserved for itself.
    Arizona has doubled its population since the last wilderness 
legislation passed in 1990. Land management must keep pace with the 
growing demand for environmental conservation and high quality outdoor 
recreation. Wilderness areas are more important than ever in balancing 
our growth and providing our communities with natural amenities and 
sustainable local economies.
    For the benefit of present and future Americans, we urge the 
Committee to heed the words of President Theodore Roosevelt, honor the 
language of the Arizona Wilderness Act, and preserve the majesty of the 
Grand Canyon by rejecting H.R. 3155.

                                 <all>

</pre></body></html>
